<html>
<title> - BENGHAZI: EXPOSING FAILURE AND RECOGNIZING COURAGE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





           BENGHAZI: EXPOSING FAILURE AND RECOGNIZING COURAGE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2013

                               __________

                           Serial No. 113-30

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-563 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 8, 2013......................................     1

                               WITNESSES

Mr. Mark Thompson, Deputy Coordinator for Operations, Bureau of 
  Counterterrorism and Leader, Foreign Emergency Support Team, 
  U.S. Department of State
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Gregory Hicks,Foreign Service Officer and Former Deputy Chief 
  of Mission/Charge D'Affairs in Libya, U.S. Department of State
    Oral Statement...............................................    10
    Written Statement............................................    11
Mr. Eric Nordstrom, Diplomatic Security Officer and Former 
  Regional Security Officer in Libya, U.S. Department of State
    Oral Statement...............................................    15
    Written Statement............................................    16

                                APPENDIX

Article from the Washington Post Submitted by Mrs. Carolyn B. 
  Maloney a Member of Congress from the State of New York........   114
Department of Defense Press Release Dated May 8, 2013, Submitted 
  by Robin L. Kelly a Member of Congress from the State of 
  Illinois.......................................................   119
New York Times Article September 12, 2012, Submitted by Gerald E. 
  Connolly a Member of Congress from the State of Virginia.......   120
Statement for the Record Submitted by Matthew A. Cartwright a 
  Member of Congress from the State of Pennsylvania..............   125

 
           BENGHAZI: EXPOSING FAILURE AND RECOGNIZING COURAGE

                              ----------                              


                         Wednesday, May 8, 2013

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 11:30 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
McHenry, Jordan, Chaffetz, Walberg, Lankford, Amash, Gosar, 
Meehan, DesJarlais, Gowdy, Farenthold, Hastings, Lummis, 
Woodall, Massie, Collins, Meadows, Bentivolio, DeSantis, 
Cummings, Maloney, Norton, Tierney, Clay, Lynch, Cooper, 
Connolly, Speier, Cartwright, Pocan, Duckworth, Kelly, Davis, 
Welch, Cardenas, Horsford, and Lujan Grisham.
    Also Present: Representatives Rohrabacher and Jackson Lee.
    Staff Present: Ali Ahmad, Communications Adviser; Alexia 
Ardolina, Assistant Clerk; Jen Barblan, Counsel; Kurt Bardella, 
Senior Policy Adviser; Brien A. Beattie, Professional Staff 
Member; Richard A. Beutel, Senior Counsel; Will L. Boyington, 
Press Assistant; Molly Boyl, Parliamentarian; Lawrence J. 
Brady, Staff Director; Joseph A. Brazauskas, Executive 
Assistant; Ashley H. Callen, Senior Counsel; Caitlin Carroll, 
Deputy Press Secretary; Sharon Casey, Senior Assistant Clerk; 
Steve Castor, General Counsel; John Cuaderes, Deputy Staff 
Director; Brian Daner, Counsel; Carlton Davis, Senior Counsel; 
Jessica L. Donlon, Senior Counsel; Kate Dunbar, Professional 
Staff Member; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Tyler Grimm, 
Senior Professional Staff Member; Ryan M. Hambleton, Senior 
Professional Staff Member; Frederick Hill, Director of 
Communications and Senior Policy Advisor; Christopher Hixon, 
Deputy Chief Counsel, Oversight; Mitchell S. Kominsky, Counsel; 
Jim Lewis, Senior Policy Advisor; Justin LoFranco, Digital 
Director; Mark D. Marin, Director of Oversight; Kristin L. 
Nelson, Senior Counsel; John Ohly, Senior Professional Staff 
Member; Ashok M. Pinto, Chief Counsel, Investigations; Laura L. 
Rush, Deputy Chief Clerk; Scott Schmidt, Deputy Director of 
Digital Strategy; Jonathan J. Skladany, Deputy Chief Counsel, 
Investigations; Rebecca Watkins, Deputy Director of 
Communications; Kevin Corbin, Minority Professional Staff 
Member; Susanne Sachsman Grooms, Minority Chief Counsel; Devon 
Hill, Minority Research Assistant; Jennifer Hoffman, Minority 
Press Secretary; Carla Hultberg, Minority Chief Clerk; Peter 
Kenny, Minority Counsel; Chris Knauer, Minority Senior 
Investigator; Lucina Lessley, Minority Policy Director; Leah 
Perry, Minority Chief Oversight Counsel; Dave Rapallo, Minority 
Staff Director; Rory Sheehan, Minority New Media Press 
Secretary; and Carlos Uriarte, Minority Counsel.
    Chairman Issa. The hearing will come to order. The 
Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know that the 
money Washington takes from them is well spent; and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers because 
taxpayers have a right to know what they get from their 
government. Our obligation is to work tirelessly with citizen 
watchdogs and whistleblowers to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    On September 11, 2012, four Americans were murdered by 
terrorists. It was the 11th anniversary of the 9/11 terrorist 
attacks on New York and Washington. Recognizing that the 
witnesses before us are actual experts on what really happened 
before, during, and after the Benghazi attacks, I'm not going 
to recount those events or decisions. These witnesses deserve 
to be heard on the Benghazi attacks, the flaws in the 
Accountability Review Board's methodology, process, and 
conclusion.
    Before I introduce these witnesses and explain some of our 
efforts to learn more about what happened in Benghazi, I want 
to take a moment to reflect on and to recognize the brave 
Americans who lost their lives in that attack that day. I also 
want to note that there are friends and immediate family of 
those killed or injured that are with us here today. J. 
Christopher Stevens, U.S. Ambassador to Libya; Sean Patrick 
Smith, Information Management Specialist; Tyrone Woods, 
Security Specialist and former Navy SEAL; Glen Doherty, 
Security Specialist and former Navy SEAL.
    Our goal in this investigation is to get answers because 
their families deserve answers. They were promised answers at 
the highest level when their bodies came home. The President 
was there, the Vice President was there, the Secretary of 
Defense was there, the Secretary of State was there. We want to 
make certain those promises are kept on behalf of those 
individuals. We also want to make certain that our government 
learns the proper lessons from this tragedy so it never happens 
again and so that the right people are held accountable.
    I want those watching this proceeding to know that we've 
made extensive efforts to engage the administration and to see 
and hear their facts. The administration, however, has not been 
cooperative, and unfortunately our minority has mostly sat 
silent as we've made these requests. Some examples: On February 
22nd this committee wrote to Ambassador Pickering and Admiral 
Mullen who, as required by law, were appointed by Secretary 
Clinton and cochaired the Accountability Review Board 
investigation. We asked them to testify about their 
investigations and findings. They refused, and our minority 
said nothing. When we asked Ambassador Pickering and Admiral 
Mullen to speak with us and our committee informally, they 
again refused, and again there was silence by the minority. 
When five House committee chairmen wrote the White House and 
requested relevant documents about the Benghazi attacks, we 
were refused. The committee's minority did not join in a 
similar call for transparency, and I wish they had. On April 
29th this committee asked the State Department to make nine 
current and former officials with relevant information 
available for this hearing or a separate transcribed interview. 
The State Department did not even respond, and to date the 
minority has not made a similar request.
    Mr. Cummings, I would like nothing more than to have you 
work with me on this investigation. Because we've worked on 
other areas together, I still hold out hope that one day you 
will stand with me as this administration doesn't cooperate, 
when they ignore our inquiries, and when that day comes, 
together we will be far more effective.
    And now for our witnesses. Or should I say our 
whistleblowers. Mr. Mark Thompson is the Acting Deputy 
Assistant Secretary in the State Department--State's Department 
of Bureau of Counterterrorism. Welcome. Mr. Gregory Hicks is a 
22-year veteran Foreign Service officer and the former Deputy 
Chief of Mission for the U. S. Embassy in Libya. After 
Ambassador Stevens was murdered, Mr. Hicks became the Acting 
Chief of Mission or, as they say, the charge d'affaires. He 
was, in fact, in Libya its highest ranking officer, if you 
will, America's representative in Libya. Mr. Eric Nordstrom is 
a former--is the former Regional Security Officer in Libya and 
perhaps the foremost and most knowledgeable person about 
security requests that were made and denied to the U.S. 
diplomatic mission in Libya and in Benghazi, ultimately in 
Benghazi.
    Mr. Cummings, we will have from time to time our 
disagreements, but I know that for all the members of this 
committee, we understand that these disagreements must be kept 
on this side of the dais. These brave witnesses deserve this 
committee's call to testify, these brave whistleblowers are, in 
fact, what makes this committee's work work. We are the 
committee that oversees and that led for new whistleblower 
protections signed by this President. The public has a right to 
hear their accounts, and we, more than any other committee in 
the Congress, must respect whistleblowers and work on a 
bipartisan basis always to protect them, and with that I 
recognize the ranking member for his opening statement.
    Mr. Cummings. Mr. Chairman, I want to thank you for calling 
this hearing, and I want to be clear, and I've said it over and 
over again, there's no Member of this Congress, be they 
Republican or Democrat, who fails to uphold the right of 
whistleblowers to come forward, and I think it's sad when that 
accusation is made against any Member of this Congress. And so 
to the hearing.
    I, too, and all of our members, both Republicans and 
Democrats, were tremendously saddened by the deaths of J. 
Christopher Stevens, Sean Patrick Smith, Tyrone Woods, and Glen 
Doherty. They were servants of the public. They, like our 
whistleblowers, were people who dedicated their lives to making 
a difference, and they saw the world as bigger than just them. 
They were the ones that were often unseen, unnoticed, 
unappreciated, and unapplauded. We've actually seen some of 
that with regard to public employees in this Congress. But yet 
and still day after day they went out there and they did their 
jobs, and on behalf of this Congress and a grateful Nation, I 
say thank you.
    I am glad the whistleblowers are here, and I will do every 
single thing in my power to protect the whistleblowers. As a 
matter of fact, just on May 7, 2013, I sent a letter to John 
Kerry, and I said in that letter that despite the highly 
partisan nature of the committee's actions, it nevertheless 
remains very important, and this is a quote, to me personally 
to make clear to all government agencies and employees who 
choose to come forward to Congress that their interests will be 
protected. For these reasons, I request that the Department 
remind its employees of their rights with respect to providing 
information to Congress as well as their responsibilities not 
to retaliate against individuals who exercise those rights. The 
Department may already do this as a matter of course, in which 
case I ask that you provide an update on the status of those 
efforts.
    Whistleblowers are important. They are very important. One 
of the things that I've said in this meeting room over and over 
again is that we must be effective and efficient, and one of 
the major roles of this committee is to make sure that 
government works properly, and so to all of our witnesses, 
thank you.
    Mr. Hicks, I would like to start by expressing my gratitude 
for your service and my condolences for your loss. I can only 
imagine what you went through on the night of the attacks. If I 
had been in your place, hearing Ambassador Stevens' voice on 
the phone, and wanting to do everything possible to help him, I 
would have had the same questions you had: Where's the 
military? Where are the Special Forces? Where are the fighter 
jets to rescue my colleagues? These are legitimate questions, 
and I wanted to know the answers myself.
    For example, last week there was a widely publicized news 
report that a team in Europe called the Commander's In-Extremis 
Force could have gotten to Benghazi before the second attack. 
When I heard this claim, I wrote to the Secretary of Defense 
immediately. Yesterday I received an official response. It says 
this press report was wrong. The team was too far away, and the 
logistical requirements were too great. Others have suggested 
that F-16s stationed at Aviano Air Force Base in Italy could 
have gotten there in time, but according to General Martin 
Dempsey, the Chairman of the Joint Chiefs of Staff, who 
testified before the Senate in February, he said they could 
not, and this is our highest ranking military member. The fact 
is that our Nation's top military commanders have already 
testified repeatedly that they did everything in their power to 
mobilize and deploy assets as soon as possible, and every 
independent and bipartisan review has confirmed this fact. We 
have the best military in the world, but even with all of their 
technological advances, they could not get there in time.
    Mr. Hicks, I know these answers provide no comfort to you 
or the families of the victims, but this is the testimony 
Congress has received, and I have seen nothing to make me 
question the truthfulness of our Nation's military commanders. 
Our committee has a fundamental obligation to conduct 
responsible oversight, and that includes carefully examining 
the information that you and others provide, but we also have a 
duty to thoroughly investigate these claims before we make 
public accusations.
    In contrast, what we have seen over the past 2 weeks is a 
full-scale media campaign that is not designed to investigate 
what happened in a responsible and bipartisan way but, rather, 
a launch unfounded--of unfounded accusations to smear public 
officials.
    Let me be clear, I am not questioning the motives of our 
witnesses. I am questioning the motives of those who want to 
use their statements for political purposes. Chairman Issa has 
accused the administration of intentionally withholding 
military assets which could have helped save lives on the night 
of the attacks. I say for political reasons, of all the 
irresponsible allegations leveled over the past 2 weeks, this 
is the most troubling, and based on what our military 
commanders have told us, this allegation is simply untrue. 
Chairman Issa suggested that four military personnel were told 
to stay in Tripoli rather than board a plane in Benghazi at 6 
a.m. the morning after the attacks, supposedly because of the 
administration's political desire not to have a presence in 
Benghazi. There is no evidence to support this. As Mr. Hicks 
told the committee, one plane had already left for Benghazi at 
1:15 a.m. that night, and it included a seven-person security 
team with two military personnel. The decision the next morning 
to keep four military personnel in place in Tripoli was not 
made by the White House or the State Department, but by the 
military chain of command.
    There are other allegations. Chairman Issa went on national 
TV and accused Secretary Clinton of lying to Congress. He said 
she personally signed a State Department cable authorizing 
security reductions. We have now seen this cable, and she did 
not sign it. Her name is printed at the bottom just like tens 
of thousands of cables sent every year from the Department.
    As I close, The Washington Post fact checker called this 
accusation a whopper--that's their word--and gave it four 
Pinocchios. Chairman Issa attacked Ambassador Susan Rice for 
statements she made on Sunday talk shows, claiming the 
administration, ``deliberately misled the American people.'' 
The claim has been directly contradicted by our Nation's top 
intelligence official, General James Clapper. He testified, he 
has already testified before the Senate that these attacks 
against Ms. Rice were, ``unfair,'' because, ``she was going on 
what we had given her, and that was our collective best 
judgment at the time.'' There have also been allegations that 
the Accountability Review Board, led by Ambassador Thomas 
Pickering and Admiral Mike Mullen, failed to examine the role 
of Ambassador Patrick Kennedy. This accusation is, again, 
inaccurate according to the board.
    And so, Mr. Chairman, if this committee is going to suggest 
that General Dempsey, General Clapper are all involved in a 
conspiracy of withholding military assets and then covering it 
up and if this committee is going to accuse Ambassador 
Pickering and Admiral Mullen of failing to fully investigate 
these attacks, the least we can do is have them invited to this 
hearing today or in a future hearing, and according to our 
conversation yesterday with regard to Admiral Pickering and 
Mullen, you have said that you plan to bring them in the 
future, and I respect--I appreciate that.
    Last but not least, let's make it--I want to make it very 
clear to our witnesses, I respect the witnesses who are here 
today to offer their testimony. As a lawyer and an officer of 
the court, I have tremendous respect for evidence, but today's 
hearing is not the full story. I hope we will eventually hear 
our military, our intelligence, and our diplomatic officials. 
Then I hope we can turn to the real work, as the chairman said, 
of this committee, which is ensuring that the Department 
implements the recommendations to improve the security of our 
diplomatic officials serving overseas, those who are so often 
unseen, unnoticed, unappreciated, and unapplauded.
    With that, I yield back.
    Chairman Issa. I thank the gentleman. Fortunately today I'm 
not the witness. I would now like to invite our witnesses. 
First, Mr. Mark Thompson, a 20-year career United States 
Marine, who 2 years before his retirement from the Marine Corps 
was assigned to the State Department, where he brought his 
experience in serving in all four Marine divisions and in 
numerous amphibious forces to the State Department. For 17 
years he has used that military experience and his accumulated 
knowledge of counterterrorism well. He has served and led teams 
in Baghdad, Iraq, in Latin America, in Southeast Asia, and in 
Africa. When in 1996 he joined the State Department as a U.S. 
Marine, he was brought there because of what he knew and what 
they needed to know. In 1998, when as he retired from the 
Marine Corps, he was transitioned at their request into civil 
service and was then assigned to what was then the Office of 
the Coordinator of Counterterrorism, its successor he serves 
and runs today. In 2004 he served with the Coalition 
Provisional Authority; in other words, with our forces in 
Baghdad. In 2006 he assumed his current position where he 
advises senior leadership on operational counterterrorism 
matters and ensures the United States can rapidly respond to 
global terrorism crises. That is his job. In addition to his 
responsibilities, he has led the NSC's direct Foreign Emergency 
Support Team, or FES Team, in support of U.S. chiefs of mission 
in response to terrorism events, including his expertise was 
used in that capacity when he was deployed in response to the 
1998 East African bombings of our two embassies, the 2000 
bombing of the USS Cole, and hostage and recovery efforts in 
Latin America, Southeast Asia, Africa, and the Middle East. 
Welcome.
    Mr. Gregory Hicks. In more than 22 years in the Foreign 
Service, Mr. Hicks has served notably in Libya, but also in 
Afghanistan, in Bahrain, where we first met, in Yemen, in 
Syria, where we met again, and in The Gambia. Prior to his 
assignment in Libya, handpicked to be the Deputy Chief of 
Mission by the now deceased Ambassador Chris Stevens, he also 
served four tours here in Washington. He was the Deputy 
Director of the Office of Investment Affairs, Special Assistant 
to the Under Secretary for Economic Energy and Agricultural 
Affairs, Trade Policy Negotiator for the Office of the United 
States Trade Representative, and Country Officer for Vietnam, 
Oman, and Yemen.
    Mr. Hicks played key roles in a number of important 
historic events with this country and the State Department. 
Vietnam's accession to the World Trade Organization, the U.S.-
Bahrain Free Trade Agreement, the U.S.-Vietnam Bilateral Trade 
Agreement, and the renegotiation of U.S. forces based in Oman. 
Mr. Hicks is the recipient of five meritorious service 
increases, three individual superior honor awards, three 
individual meritorious honor awards, and numerous group awards 
for his service. Thank you.
    Mr. Nordstrom. In his 15 years at the State Department, he 
has served in Washington, D.C., in Honduras, in Ethiopia, in 
India, and most recently he was the Regional Security Officer 
for the U.S. Mission to Libya based out of Tripoli. In that 
capacity, as RSO in Tripoli from September 2011 to July of 
2012, he was the principal security officer advising both 
Ambassador Cretz and Ambassador Stevens on security and law 
enforcement matters. Prior to joining the Department of State, 
Mr. Nordstrom also served in Federal law enforcement at the 
Department of Treasury.
    Welcome to all three of you. Would you please rise, as is 
pursuant to our rules, and take the oath.
    Do you solemnly swear--please raise your right hands. Do 
you solemnly swear that the testimony you are about to give 
will be the truth, the whole truth, and nothing but the truth?
    Please have a seat. Let the record reflect all witnesses 
answered in the affirmative.
    Now I'm going to note that I've read your opening 
statements, and they're unusually short, so I'm not worried 
about the 5 minutes, but we are here to hear from you. So take 
the time you need to tell your story. We will listen, and the 
ordinary time is 5 minutes. You take a little less, you take a 
little more. This hearing is about hearing from you on your 
experience.
    Mr. Thompson.

                       WITNESS STATEMENTS

                   STATEMENT OF MARK THOMPSON

    Mr. Thompson. Mr. Chairman, ranking member, members of the 
committee.
    Chairman Issa. And please pull your microphone a little 
closer. Thank you.
    Mr. Thompson. Thank you for this opportunity to tell a 
story. As the chairman indicated, I came to the Department 16 
1/2 years ago as a Marine, transitioned, and have been on the 
activities that he has already described.
    The night that I was involved in this incident I was at my 
desk at the end of the day when the first reports came in that 
indicated that we had an attack going on at our diplomatic 
facility in Benghazi. In that facility we knew we had our 
ambassador and we had his security personnel. Later when I 
heard that the situation had evolved to them going to a safe 
haven and then the fact that we could not find the Ambassador, 
I alerted my leadership, indicating that we needed to go 
forward and consider the deployment of the Foreign Emergency 
Support Team. That particular team is an interagency team. It's 
been represented as something that the State Department 
deploys. It does not. The Deputies Committee of the National 
Security Council deploys that organization. But I wanted that 
considered. I notified the White House of my idea. They 
indicated that meetings had already taken place that evening, 
that had taken FEST out of the menu of options. I called the 
office within the State Department that had been represented 
there, asking them why it had been taken off the table, and was 
told that it was not the right time and it was not the team 
that needed to go right then.
    Let me explain the team a little more. It is comprised of 
the leadership from my office, it is comprised of professionals 
from Special Operations Command, from Diplomatic Security, from 
the Intelligence Community, from FBI. It is a holistic 
comprehensive organization that is designed to go forward to 
embassies, just as we did, as indicated in 1998 in East Africa, 
as we've done in the other places indicated, the USS Cole and 
other hostage situations. It is designed to be the glue and the 
connective tissue that gets all the options on the table for 
the decision-makers. The decision-makers in my line of work are 
the Chief of Mission and the authorities back here in 
Washington that make the decisions of where we send people into 
harm's way. It doesn't mean it has an irreversibility to it. 
The other thing that I pointed out was that with the tyranny of 
distance, at least 8 or 9 hours to get to the middle of the 
Mediterranean, we needed to act now and not wait. There is 
sometimes the hesitancy to not deploy because we don't know 
what's going on. One definition of a crisis is you don't know 
what's going to happen in 2 hours, so you need to help develop 
that situation early. We have a robust com suite on the 
airplane that we are transported on. It is ably flown by my 
SOCOM colleagues, it is on alert to do just this mission, and 
it's designed to carry a comprehensive team to a conflict or a 
crisis and to help the Ambassador and work for the Ambassador 
and/or the Chief of Mission to handle that crisis and to make 
sure he or she has the best information possible to make 
decisions and to make recommendations back to Washington, and 
those same representatives make their views known back to their 
parent organizations so that when we do have deputies 
committees and principals committee meetings at the White 
House, we have a situation in which everyone is using the most 
up-to-date information, and so that we can figure out what we 
have to do security wise, what we have to do intelligence wise, 
what we have to do with the military, what we have to do 
diplomatic wise, what we have to do on the public affairs 
front.
    That works for the Chief of Mission, and I can't emphasize 
that enough. We are not there to subsume any activities. The 
experts on the team know that the real experts are in the 
embassy, and they work for the Chief of Mission to do that.
    My time is drawing to a close. I'll end there and await 
your questions.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Thompson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Issa. Mr. Hicks.

                   STATEMENT OF GREGORY HICKS

    Mr. Hicks. Thank you, Mr. Chairman.
    Chairman Issa. We really will have to--you're pretty soft 
spoken--get that a little closer.
    Mr. Hicks. Try to get this up here. Thank you, Mr. 
Chairman, thank you ranking member, thank you members of the 
committee.
    I am a career public servant. Until the aftermath of 
Benghazi I loved every day of my job. In my 21 years of 
government service prior to Tripoli, I earned a reputation for 
being an innovative policymaker who got the job done. I was 
promoted quickly and received numerous awards. People who 
worked for me rated my leadership and management skills highly. 
I have two master's degrees from the University of Michigan in 
applied economics and modern Near Eastern and North African 
studies. I have served my country extensively in the Mideast. 
Besides Libya, I served in Afghanistan, Bahrain, Yemen, Syria, 
and The Gambia. I speak fluent Arabic. In Bahrain my Shi'a 
opposition contact gave me advanced warning of impending 
attacks on our embassy and antigovernment, anti-American 
demonstrations, allowing us to prepare and avoid injuries to 
staff. I learned that knowledge of local conditions and strong 
connections with the local population are as important as the 
strength and height of walls. One reason I am here is because I 
have pledged to the Foreign Service as part of my campaign to 
be State Vice President of the American Foreign Service 
Association that none of us should ever again experience what 
we went through in Tripoli and Benghazi on 9/11/2012.
    After I arrived in Tripoli as Deputy Chief of Mission on 
July 31, 2012, I fast became known as the Ambassador's bulldog 
because of my decisive management style. In the days 
immediately after the Benghazi attack, the President and 
Secretary of State praised my performance over the telephone. 
President Obama wrote Libyan President Magariaf expressing 
confidence in my abilities. Deputy Secretary Burns and General 
Ham told me how much they appreciated how I handled the night 
of the assault and its aftermath. I received written notes of 
commendation from Under Secretary Wendy Sherman and from 
Executive Secretary Stephen Mull. Incoming Charge Larry Pope 
told me personally that my performance was near heroic.
    In February 1991 I swore an oath to uphold and defend the 
Constitution of the United States. I'm here today to honor that 
oath. I look forward to answering your questions fully and 
truthfully. Thank you very much.
    Chairman Issa. Thank you. And I understand that some of 
those commendations and letters are in your opening statement, 
and for all the witnesses, all extraneous material or other 
insertions will be placed in the record on your behalf.
    [Prepared statement of Mr. Hicks follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Issa. Mr. Nordstrom.

                  STATEMENT OF ERIC NORDSTROM

    Mr. Nordstrom. Good morning, Chairman Issa, Ranking Member 
Cummings, and other distinguished members of the committee. For 
the benefit of the new committee members, my name is Eric 
Nordstrom, and I currently serve as the Supervisory Special 
Agent with the U.S. Department of State's Bureau of Diplomatic 
Security. Since September 2012 I have been enrolled in long-
term language training in preparation for my next assignment. 
As Chairman Issa noted, I served in Federal law enforcement 
since January 1996, first as a Customs Inspector before joining 
the U.S. Department of State. I've served in domestic and 
overseas postings, including Washington, D.C., Honduras, 
Ethiopia, India, and most recently the Regional Security 
Officer at the U.S. Embassy in Tripoli. All of those 
assignments have been assignments in which I've faced the 
threat of criminal or terrorist attacks. I held the last 
position as RSO from September 21, 2011, until July 26, 2012. 
As the Regional Security Officer, or RSO, at the U. S. Embassy 
in Tripoli, I served as the principal security adviser to U.S. 
Ambassadors Eugene Cretz and Chris Stevens on security and law 
enforcement matters.
    I want to thank the committee again for the opportunity to 
appear to provide further testimony in support of your inquiry 
into the tragic events of September 11, 2012. I would also like 
to thank the committee for your continued efforts in 
investigating all the details and all the decisions related to 
the attack on our diplomatic facility. Specifically, the 
committee's labors to uncover what happened prior, during, and 
after the attack matter. It matters to me personally, and it 
matters to my colleagues--to my colleagues at Department of 
State. It matters to the American public for whom we serve, and 
most importantly it matters to the friends and family of 
Ambassador Stevens, Sean Smith, Glen Doherty, and Tyrone Woods, 
who were murdered on September 11, 2012.
    In addition to my testimony before this committee in 
October of 2012 I also met with the FBI, Senate Homeland 
Security and Governmental Affairs Committee, the Department's 
Accountability Review Board, and I've discussed my experiences 
with all of them. I'm proud of the work that our team 
accomplished in Libya under extraordinarily difficult 
circumstances. The protection of our Nation's diplomats, our 
embassies and consulates, and the work produced there is 
deserving of the time that this committee, other congressional 
committees, and the Accountability Review Board and no doubt 
future review efforts will invest in making sure we get this 
process right.
    Thank you, Mr. Chairman, and members of the committee for 
the opportunity to appear before you today. I stand ready to 
answer any questions that you might have.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Nordstrom follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Issa. I'll now recognize myself for a quick round 
of questioning.
    Mr. Thompson, you went through a process of things that you 
observed and how you tried to activate your team. Did you do so 
because you had an initial view of whether this was a terrorist 
attack or something else? And please be brief. I want to use my 
time.
    Mr. Thompson. Yes.
    Chairman Issa. Okay, thank you. Mr. Hicks, as the principal 
officer and, you know, once the Ambassador had been murdered, 
the highest ranking officer on September 11th from the moment 
that you unexpectedly became the Charge, America has heard many 
accounts of what happened. We've never heard accounts from a 
single person who was in Libya that night. You will be the 
first person who observed it. In your own words, take as much 
time as you want, please take us through the day of September 
11th from whatever time you want to begin through when you 
first heard from Ambassador Stevens and through the hours and 
days immediately following that, if you would, so we can have 
an understanding for the first time from somebody who was 
there.
    Mr. Hicks. Thank you, Mr. Chairman. As I remember September 
11, 2012, it was a routine day at our embassy, and until we saw 
the news about Cairo, and I remember sending a text message to 
Ambassador Stevens saying, Chris, are you aware of what's going 
on in Cairo? And he said, No. So I told him that the embassy, 
in another text, that the embassy had been stormed and they 
were trying to tear down our flag. And he said, Thanks very 
much. And, you know, then I went on with business.
    Closed the day, and I went back to my villa and was 
relaxing watching a television show that I particularly like, 
and at 9:45 p.m.--and all times will be Libyan times, there is 
a 6-hour time difference--the RSO John Martinec ran into my 
villa yelling Greg, Greg, the consulate's under attack, and I 
stood up and reached for my phone because I had an inkling or a 
thought that perhaps the Ambassador had tried to call me to 
relay the same message, and I found two missed calls on the 
phone, one from the Ambassador's phone and one from a phone 
number I didn't recognize, and I punched the phone number I 
didn't recognize, and I got the Ambassador on the other end, 
and he said, Greg, we're under attack. And I was walking out of 
the villa on my way to the tactical operations center because I 
knew we would all have to gather there to mobilize or try to 
mobilize a response, and it was also a bad cell phone night in 
Tripoli, connections were weak, and I said, Okay, and the line 
cut.
    As I walked to the tactical operations center, I tried to 
reach back on both of the numbers, the unknown number and the 
Ambassador's personal number, and got no response. When I got 
to the tactical operations center, I told people that the 
Ambassador, that I had just talked to the Ambassador and what 
he said. At the time John Martinec was on the phone with Alec 
Henderson in Benghazi, the RSO there, and I asked one of our DS 
agents who, what number did I reach Ambassador Stevens on, and 
he said, oh, that's Scott Wickland's telephone. Scott Wickland 
was Ambassador Stevens' agent in charge, his personal escort 
for that night, and was with him in the villa during the 
attack.
    So I asked--when John Martinec got off the telephone, I 
asked him what was going on, and he said that the consulate had 
been breached and there were at least 20 hostile individuals 
armed in the compound at the time. So I next called the annex 
chief to ask him if he was in touch with the Benghazi annex to 
activate our emergency response plan.
    Chairman Issa. Please explain the annex chief so that 
people that don't know as much would understand that. No, go 
ahead, please.
    Mr. Hicks. Okay, thank you. And he said that he had been in 
touch with the annex in Benghazi, and they said they were 
mobilizing a response team there to go to the--to our facility 
and provide reinforcements and to repel the attack.
    With that knowledge, I called the operations center at the 
State Department at approximately 10 p.m. to report the attack 
and what we were doing to respond to it. The next thing I did 
was to begin calling the senior officials in the government of 
Libya that I knew at the time, and so I dialed first President 
Magarief's chief of staff and reported the attack and asked for 
immediate assistance from the government of Libya to assist our 
folks in Benghazi. I followed that up with a call to the Prime 
Minister's chief of staff to make the same request, and then to 
the MFA Americas director. MFA is Ministry of Foreign Affairs.
    The defense attache was at the same time calling the 
leadership of Libya's military with the same purpose, to ask 
them for assistance. Once that was done, I called again to 
Washington to report that these actions had been commenced. 
Over the night we, over that night that is basically how our 
team operated. I was talking to the government of Libya, 
reporting to the State Department through the operations 
center, and also staying in touch with the annex chief about 
what was going on.
    Let me step back one minute if I could and say that I also 
discussed with the annex chief about mobilizing a Tripoli 
response team, and we agreed that we would move forward with a, 
chartering a plane from Tripoli to fly a response team to 
Benghazi to provide additional reinforcements.
    The defense attache was also reporting through his chain of 
command back to AFRICOM and to the Joint Staff here in 
Washington about what was going on in the country. David 
McFarland, our Political Section Chief, had just returned from 
Benghazi where he had been our principal officer for the 
previous 10 days, and so he jumped into this picture by 
reaching out to his contacts in Benghazi and trying to get them 
at the local level there to respond to the attack, and he also 
was in touch with our local employee there as well.
    Excuse me if I check my notes here, it's so long. The 
attack unfolded in four phases or the night unfolded in four 
phases. The first phase was the attack on our consulate. This 
story is well known, I think. The Benghazi response--the 
consulate was invaded, the Villa C where the Ambassador and 
Sean Smith and Scott Wickland were hiding in the safe area, was 
set on fire. The attackers also went into another, went into 
another building. They were unable to enter the tactical 
operations center in Benghazi because of improvements to that 
facility that had been made. They--Scott attempted to lead the 
Ambassador and Sean Smith out of the burning building. He 
managed to make it out. He tried repeatedly to go back in to 
try to rescue Sean and the Ambassador but had to stop due to 
exposure to smoke.
    The response team from the annex in Benghazi, six 
individuals, drove the attackers out of our compound and 
secured it temporarily. There have been estimates as high as 60 
attackers were in the compound at one particular time. There 
were repeated attempts by all of the RSOs and by the response 
team from the annex to go into the burning building and recover 
or try to save Sean and the Ambassador. They found Sean's body 
and pulled it out, but he was no longer responsive. They did 
not find the Ambassador.
    I spoke with a medical officer, one of our medical officers 
after the attack, and the heroism of these individuals in 
repeatedly going into a petroleum-based fire cannot be 
understated. Petroleum, according to our regional medical 
officer, petroleum-based fires emit enormous amounts of cyanide 
gas. He told me that one full breath of that would incapacitate 
and kill a person if exposed to it.
    The second--it was noticed that a second wave of attackers 
was coming to attack the facility, and our teams evacuated five 
RSOs and Sean Smith in one vehicle which suffered heavy fire, 
but they managed to break through and get to the annex, and 
then the annex team also withdrew from the facility, and the 
second wave of attackers took it over.
    After the second phase of the evening occurs, the timing is 
about 11:30 or so, the second phase commences after the teams 
have returned to the annex, and they suffer for about an hour 
and a half probing attacks from terrorists. They are able to 
repulse them, and then they desist at about 1:30 in the 
morning. The Tripoli response team departs at about midnight 
and arrives at about 1:15 in Benghazi.
    If I may step back again to Tripoli and what's going on 
there at this point. At about 10:45 or 11:00 we confer, and I 
asked the defense attache who had been talking with AFRICOM and 
with the Joint Staff, is anything coming? Will they be sending 
us any help? Is there something out there? And he answered that 
the nearest help was in Aviano, and the nearest--where there 
were fighter planes, and he said that it would take 2 to 3 
hours for them to get on site, but that there also were no 
tankers available for them to refuel. And I said Thank you very 
much, and we went on with our work.
    Phase 3 began with news that the Ambassador's body has been 
recovered, and David McFarland, if I recall correctly, is the 
individual who began to receive that news from his contacts in 
Benghazi, and we began to hear also that the Ambassador has 
been taken to a hospital. We don't know initially which 
hospital it is, but we, through David's reports, we learn that 
it is in a hospital which is controlled by Ansar al-Sharia, the 
group that Twitter feeds had identified as leading the attack 
on the consulate. We're getting this information as the Tripoli 
response team arrives in Benghazi at the airport. Both our 
annex chief and the annex chief in Benghazi and our defense 
attache are on the phone during this period trying to get the 
Libyan Government to send vehicles and military and/or security 
assets to the airport to assist our response team. At this 
point this response team looks like it may be a hostage rescue 
team, that they are going to--we are going to need to send them 
to try to save the Ambassador, who was in a hospital that is, 
as far as we know, under enemy control. Our contacts with the 
government in Tripoli are telling us that the Ambassador is in 
a safe place, but they imply that he is with us in the annex in 
Benghazi, and we keep telling them, No, he is not with us, we 
do not have his--we do not have him.
    At about 12:30, at the same time that we see the Twitter 
feeds that are asserting that Ansar al-Sharia is responsible 
for the attack, we also see a call for an attack on the embassy 
in Tripoli, and so we begin to--we had always thought that we 
were under threat, but we now have to take care of ourselves, 
and we begin planning to evacuate our facility. When I say our 
facility, I mean the State Department residential compound in 
Tripoli and to consolidate all of our personnel in--at the 
annex in Tripoli. We have about 55 diplomatic personnel in the 
two annexes.
    On that night, if I may go back, I would just like to point 
out that with Ambassador Stevens and Sean Smith in Benghazi 
there are five diplomatic security agents, assistant regional 
security officers. With us in, at our residential compound in 
Tripoli we have the RSO John Martinec, three assistant regional 
security officers protecting 28 diplomatic personnel. In 
addition, we also have four Special Forces personnel who are 
part of the training mission.
    During the night I'm in touch with Washington, keeping them 
posted of what's happening in Tripoli and to the best of my 
knowledge what I'm being told in Benghazi. I think at about 2 
p.m.--2 a.m., sorry, the Secretary, Secretary of State Clinton 
called me, along with her senior staff, we're all on the phone, 
and she asked me what was going on, and I briefed her on 
developments. Most of the conversation was about the search for 
Ambassador Stevens. It was also about what we were going to do 
with our personnel in Benghazi, and I told her that we would 
need to evacuate, and that was--she said that was the right 
thing to do.
    At about 3 a.m. I received a call from the Prime Minister 
of Libya. I think it's the saddest phone call I've ever had in 
my life. He told me that Ambassador Stevens had passed away.
    Mr. Hicks. I immediately telephoned Washington that news 
afterwards and began accelerating our efforts to withdraw from 
the villas compound and move to the annex.
    Excuse me. I will take a glass of water.
    Our team responded with amazing discipline and courage in 
Tripoli in organizing our withdrawal. I have vivid memories of 
that. I think the most telling, though, was of our 
communications staff dismantling our communications equipment 
to take with us to the annex and destroying the classified 
communications capability.
    Our office manager, Amber Pickens, was everywhere that 
night, just throwing herself into some task that had to be 
done. First, she was taking a log of what we were doing. Then 
she was loading magazines, carrying ammunition to the--carrying 
our ammunition supply to our vehicles. Then she was smashing 
hard drives with an axe.
    Allen Greenfield, our management officer, was a whirlwind 
of activity, organizing the vehicles, to lining them up, 
finding the drivers, making sure everybody was getting the 
things that they would need for the coming days.
    John Martinec was a mountain of moral support, particularly 
to the guys who were in Benghazi. He was on the phone talking 
them through the whole ordeal. David McFarland on the phone 
constantly, all the time, talking to his contacts in Benghazi, 
urging them to help.
    Lieutenant Colonel Phillips and Lieutenant Colonel Arndt, 
Lieutenant Colonel Gibson, mountains of strength. I am awed. I 
am still in awe of them.
    They asked me in one of the phone calls, when were you 
going to move to the annex? And I said, ``We will move at 
dawn,'' because none of our people had great experience driving 
the armored Suburbans that we were going to have to use. Our 
local staff drove for us as part of our security procedures. 
They, of course, were not there that night. And we would have 
to go through checkpoints, militia checkpoints, on the way to 
the annex to get there. And I didn't want our people to be 
going through those checkpoints because I didn't know what to 
expect from the militias.
    And so we moved at dawn. And we arrived at the annex, at 
least my group, I think at about 4:45 perhaps, maybe 5:00 a.m. 
And a few minutes later came the word of the mortar attack.
    If I could return to Benghazi a little bit--I talked 
through Tripoli--I am sorry if I bounce back and forth. The 
Tripoli team basically had to stay at the Benghazi airport 
because they had no transport and no escort from the Libyans. 
After the announcement of Chris's passing, military escort and 
vehicles arrived at the airport. So the decision was made for 
them to go to the annex.
    Before I got the call from the Prime Minister, we had 
received several phone calls on the phone that had been with 
the Ambassador saying that we know where the Ambassador is, 
please, you can come get him. And our local staff engaged on 
those phone calls admirably, asking very, very good, 
outstanding even, open-ended questions about where was he, 
trying to discern whether he was alive, whether they even had 
the Ambassador, whether that person was with the Ambassador. 
Send a picture. Could we talk to the Ambassador?
    Because we knew separately from David that the Ambassador 
was in a hospital that we believed was under Ansar al-Sharia's 
call, we suspected that we were being baited into a trap, and 
so we did not want to go send our people into an ambush. And we 
didn't. We sent them to the annex.
    Shortly after they arrived at the annex, the mortars came 
in. First mortar round was long. It landed, actually, among the 
Libyans who escorted our people. They took casualties for us 
that night. And the next was short. The next three landed on 
the roof, killing Glen and Tyrone, severely wounding David.
    They didn't know whether any more mortars were going to 
come in. The accuracy was terribly precise. The call was the 
next one is coming through the roof, maybe, if it hit. Two of 
the guys from Team Tripoli, they climbed up on the roof, and 
they carried Glen's body and Tyrone's body down. One guy about 
Mark's size, full of combat gear, climbed up there, strapped 
David Ubben, who is a large man, to his back and carried him 
down the ladder, saved him.
    In Tripoli, we had a defense attache that persuaded the 
Libyans to fly their C-130 to Benghazi. We wanted to airlift--
since we had consolidated at the annex and the Libyan 
Government had now provided us with external security around 
our facilities, we wanted to send further reinforcements to 
Benghazi. We determined that Lieutenant Colonel Gibson and his 
team of Special Forces troops should go. The people in Benghazi 
had been fighting all night. They were tired, they were 
exhausted. We wanted to make sure the airport was secure for 
their withdrawal.
    As Colonel Gibson and his three personnel were getting in 
the cars, he stopped and he called them off and said--told me 
that he had not been authorized to go. The vehicles had to go 
because the flight needed to go to Tripoli--I mean, to 
Benghazi. Lieutenant Colonel Gibson was furious. I had told him 
to go bring our people home. That's what he wanted to do. He 
paid me a very nice compliment, and I won't repeat it here. So 
the plane went. I think it landed in Benghazi around 7:30.
    The other thing that we did was--and I want to mention 
Jackie Levesque's name in this hearing. She was our nurse. We 
had initially thought that she should go to Benghazi. One of 
the Special Forces with Lieutenant Colonel Gibson's team was 
our last military-trained medic available. He had a broken foot 
in a cast. I still remember him walking to go and get in the 
car with his machine gun, carrying a machine gun on his 
shoulder.
    But Jackie, I refused to allow her to go to Benghazi 
because I knew we had wounded coming back. I knew David was 
severely wounded, and I knew others were wounded, as well. And 
Jackie had just made terrific contacts with a hospital in town. 
And so we sent her, I sent her to that hospital to start 
mobilizing their ER teams and their doctors to receive our 
wounded so that when the charter flight arrived in Tripoli we 
had ambulances at the airport waiting.
    Their doctors were ready and waiting for our wounded to 
come in, to be brought into the operating room. And they 
certainly saved David Ubben's leg, and they may very well have 
saved his life. And they treated our other wounded, as well, as 
if they were their own.
    Chairman Issa. Mr. Hicks, I know you have the days that 
followed, but I think we all need to digest a little of what 
you just told us. So if we could pause there.
    And Mr. Cummings is recognized.
    Mr. Cummings. Thank you very much.
    Again, to all of you, we appreciate your being here.
    To you, Mr. Hicks, as you described what happened that 
night, it just reminded me of the high cost--the high cost that 
is paid by so many of our folk in the diplomatic corps. It also 
reminded me of their bravery and the fact that you all go 
around the world in foreign places trying to make a difference.
    And as I listened to your testimony, I could not help but 
think about something that I said very recently, well, 2 years 
ago now, in a eulogy for a relative. I said that death is a 
part of life, but so often we have to find a way to make life a 
part of death.
    And I guess the reason why I am saying that, I want to go 
back to something Mr. Nordstrom said when he said that he 
wanted to make sure that--and all of you said it, pretty much--
he wanted to make sure we learned from this so that your 
comrades and our four members of the diplomatic corps who sadly 
passed away--so that this never happens again. And I appreciate 
it. I know this is difficult. I know it is. We all feel your 
pain.
    And so I just want to, going back to what Mr. Nordstrom 
said, trying to make sure we have a complete picture. Because 
there is another piece to this, too, and that is that we have 
some balancing here to do today. We have to listen to you all. 
And this is really, really difficult because we have some 
statements that have been made, not necessarily by you, but 
interpreted. While we have to protect you, we also have to 
protect your fellow employees. ``Protect'' is maybe not the 
right word, but make sure that they are treated fairly. So, you 
understand what I am saying? That balance. And I am just trying 
to make sure I get, in your words, Mr. Nordstrom, a complete 
picture. That's all.
    Mr. Hicks, in the interview with the committee staff, you 
stated, ``In my personal opinion, a fast-mover flying over 
Benghazi at some point, you know, as soon as possible might 
very well have prevented some of the bad things that happened 
that night.'' Is that right? Did you say that?
    Mr. Hicks. Yes, sir, I did.
    Mr. Cummings. And you further stated, ``I believe if we had 
been able to scramble a fighter or aircraft or two over 
Benghazi as quickly as possible after the attack commenced, I 
believe there would not have been a mortar attack on the annex 
in the morning because I believe the Libyans would have 
split.'' Is that right?
    Mr. Hicks. Yes, sir.
    Mr. Cummings. At a hearing in February before the Senate 
Armed Services Committee, General Dempsey, Chairman of the 
Joint Chiefs of Staff, was asked whether we could have deployed 
F-16s from Aviano Air Base in Italy, and he explained why we 
could not. And these are his words. And we are just trying to 
make sure we get the complete picture here.
    ``For a couple reasons.'' this is a quote. ``For a couple 
reasons. One is that in order to deploy them it requires the--
this is the middle of the night now--these are not aircraft on 
strict alert. They are there as a part of our commitment to 
NATO and Europe. And so, as we looked at the timeline, it was 
pretty clear that it would take up to 20 hours or so to get 
them there.''
    Mr. Hicks, I understand that you wanted planes to get to 
Benghazi faster. If I were in your shoes, I would have wanted 
them to get there yesterday. And that is completely 
understandable. But the Chairman of the Joint Chiefs of Staff 
said they simply could not get there quickly. Mr. Hicks, do you 
have any reason to question General Dempsey's testimony before 
the Senate?
    Mr. Hicks. Again, I was speaking from my perspective----
    Mr. Cummings. I understand.
    Mr. Hicks. --on the ground in Tripoli based on what the 
defense attache told me. And he said 2 to 3 hours.
    Mr. Cummings. Okay.
    Mr. Hicks. But there were no tankers.
    Mr. Cummings. All right.
    Mr. Hicks. And I also was speaking with reference to 
conversations I had had with veteran Libyan revolutionaries and 
other personnel who had experienced the Libyan revolution and 
who had told me that the Libyan people were very well aware 
of--sorry--that American and NATO airpower had been decisive in 
their victory. And I was also speaking to their view, again, 
that Libyans would not stand if they were aware that American 
aircraft were in the vicinity.
    Mr. Cummings. I understand.
    So former Secretary of Defense Leon Panetta also testified 
in February, and he said this, He said, ``Soon after the 
initial reports about the attack, the President ordered all 
available DOD assets to respond to the attack in Libya and to 
protect U.S. personnel and interests in the region. Some have 
asked why other types of armed aircraft were not dispatched to 
Benghazi. The reason is because armed UAVs, AC-130 gunships, or 
fixed-wing fighters with associated tanking, armaments, 
targeting, and support capabilities were not in the vicinity of 
Libya and because of the distance. It would have taken at least 
9 to 12 hours, if not more, to deploy. This was, pure and 
simple, a problem of distance and time,'' end of quote.
    Do you question his testimony?
    Mr. Hicks. Sir, again, the defense attache said to me that 
fighter aircraft in Aviano might be able to--would not be able 
to be over Benghazi for 2 to 3 hours.
    Chairman Issa. Mr. Cummings----
    Mr. Hicks. That is what I am going on, what the defense 
attache told me.
    Chairman Issa. Thank you.
    And I assure you that in regards to your earlier statement, 
we will bring in people where we can have that discussion, 
hopefully with knowledgeable people chosen on both sides of 
could they or couldn't they. I think it is a good line of 
questioning, perhaps not for the Ambassador.
    Mr. Cummings. Mr. Chairman----
    Chairman Issa. You certainly can have another minute.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    But it is extremely important that I ask these questions 
because a lot has been put out there in the air. And all these 
folks aren't here for no reason. And I know we will get those 
questions answered, but all we have is you today. And I am glad 
to have you.
    But, in other words, I am just trying--again, remember what 
I said to you all earlier. And everybody on this committee 
should know this. I try to do everything in my power to protect 
witnesses, I don't care if they are called by Republicans or 
Democrats, because your integrity and your reputation is all 
you got. But I also have some other people whose reputations 
are being questioned. So I have to, you know, take what you 
say, but then I also have to consider them, too, because I have 
a duty to both of them. Do you follow me?
    I just have one last thing, Mr. Chairman, and then I will 
finish up. And I will just close by noting that even the 
partisan report issued by our five Republican chairmen in 
April, including our good Chairman Issa, cleared the Defense 
Department and said this. It says, ``No evidence has been 
provided to suggest that these officials refused to deploy 
resources because they thought the situation had been 
sufficiently resolved.''
    I will end there out of courtesy to all our colleagues. 
And, again, I don't know whether we will get to a second round, 
but, again, I promise you, I promise every one of you, I will 
do every single thing in my power to make sure--I don't--I hope 
there is no retaliation--but to protect you, because you are so 
very, very important. And it is your bravery that has brought 
you here today, and we really appreciate it.
    Thank you.
    Chairman Issa. Thank you.
    We now go to the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    To the families of the victims, it has been 8 months. And I 
know that there are those who have said that's a long time ago. 
But the good news is there is no statute of limitations when it 
comes to finding out the truth, particularly for those who have 
served and sacrificed and died under our flags.
    So, Mr. Hicks, let's find out the truth. The President of 
Libya responded to the attack and labeled it an attack by 
Islamic extremists possibly with terror links, correct?
    Mr. Hicks. Yes, sir.
    Mr. Gowdy. So hours after our Ambassador and three others 
are killed in Benghazi, the President of Libya says it was an 
attack with possible terror links, correct?
    Mr. Hicks. Yes, sir, that's what I recall.
    Mr. Gowdy. Did the President of Libya ever mention a 
spontaneous protest related to a video?
    Mr. Hicks. No, sir.
    Mr. Gowdy. When Ambassador Stevens talked to you perhaps 
minutes before he died, as a dying declaration, what precisely 
did he say to you?
    Mr. Hicks. He said, ``Greg, we're under attack.''
    Mr. Gowdy. Would a highly decorated career diplomat have 
told you or Washington had there been a demonstration outside 
his facility that day?
    Mr. Hicks. Yes, sir, he would have.
    Mr. Gowdy. Did he mention one word about a protest or a 
demonstration?
    Mr. Hicks. No, sir, he did not.
    Mr. Gowdy. So fast-forward, Mr. Hicks, to the Sunday talk 
shows and Ambassador Susan Rice. She blamed this attack on a 
video. In fact, she did it five different times. What was your 
reaction to that?
    Mr. Hicks. I was stunned. My jaw dropped. And I was 
embarrassed.
    Mr. Gowdy. Did she talk to you before she went on the five 
Sunday talk shows?
    Mr. Hicks. No, sir.
    Mr. Gowdy. You were the highest-ranking official in Libya 
at the time, correct?
    Mr. Hicks. Yes, sir.
    Mr. Gowdy. And she did not bother to have a conversation 
with you before she went on national television.
    Mr. Hicks. No, sir.
    Mr. Gowdy. So Ambassador Rice directly contradicts the 
evidence on the ground in Libya, she directly contradicts the 
President of Libya, she directly contradicts the last statement 
uttered by Ambassador Stevens.
    Mr. Hicks, who is Beth Jones?
    Mr. Hicks. Beth Jones is the Acting Assistant Secretary for 
Near Eastern Affairs at the State Department.
    Mr. Gowdy. I want to read an excerpt from an email she 
sent. And you were copied on it.
    And, by the way, Mr. Chairman, for our colleagues who like 
to trumpet bipartisanship, this would be a wonderful 
opportunity to demonstrate it. Some of these emails, even 
though they are not classified, have not been released, Mr. 
Chairman, including the one that I am going to read from. So 
for my colleagues who trumpet bipartisanship, this would be a 
wonderful time to prove it.
    This is from Ms. Jones to you, to counsel for Hillary 
Clinton, to Victoria Nuland, to Mr. Kennedy, near as I can tell 
to almost everyone in the State Department. And I am going to 
read from it. ``I spoke to the Libyan Ambassador and emphasized 
the importance of Libyan leaders continuing to make strong 
statements.''
    By the way, Mr. Hicks, this email was sent on September the 
12th, the day after Benghazi and several days before Ambassador 
Rice's television appearance.
    And I will continue. ``When he said his government 
suspected that former Qadhafi regime elements carried out the 
attacks, I told him that the group that conducted the attacks, 
Ansar al-Sharia, is affiliated with Islamic terrorists.''
    Let me say that again, Mr. Hicks. She told him, the State 
Department, on September the 12th, days before our Ambassador 
went on national television, is telling the Ambassador to Libya 
the group that conducted the attacks, Ansar al-Sharia, is 
affiliated with Islamic terrorists.
    Mr. Hicks, I want to know two things. Number one, why in 
the world would Susan Rice go on five Sunday talk shows and 
perpetuate a demonstrably false narrative? And, secondarily, 
what impact did it have on the ground in Benghazi, the fact 
that she contradicted the President of Libya?
    Mr. Hicks. As to the first question, I cannot provide an 
answer, but perhaps you should ask Ambassador Rice.
    Mr. Gowdy. I would love the opportunity to do just that.
    Mr. Hicks. As to the second question, at the time, we were 
trying to get the FBI to Benghazi to begin its investigation, 
and that talk show actually provided an opportunity to make 
that happen.
    Afterwards, we encountered bureaucratic resistance for a 
long period from the Libyans. The Libyan Government at this 
time is not very deep: president, prime minister, deputy prime 
ministers, ministers--all capable people--some vice ministers, 
as well. And it took us an additional--let's see, my math is 
not very fast these days--maybe 18 days to get the FBI team to 
Benghazi.
    Mr. Gowdy. So the crime scene was unsecured for 18 days.
    Mr. Hicks. Yes, sir.
    Mr. Gowdy. Witnesses were not interviewed.
    Chairman Issa. If the gentleman would please finish up, we 
are going to try and move along.
    Mr. Gowdy. Yes, I will move on.
    We will finish this if there is a second round. Thank you, 
Mr. Hicks.
    Chairman Issa. Thank you.
    For all individuals, to the extent that our witnesses can 
stay on, we will try to have a second round. But the ranking 
member and I both realize that we are a little behind schedule, 
and I take blame for it. But we are going to try to move within 
5 minutes of questioning whenever possible.
    The gentlelady from New York, Ms. Maloney.
    Mrs. Maloney. Okay. Thank you, Mr. Chairman.
    I want to thank all the witnesses, and thank you for your 
public service. And my condolences to the families for your 
great loss.
    And I want to thank the American military. My father served 
in World War II, my brother in Vietnam, my husband in the Navy. 
And I can say after close observation, there is no place or no 
time that the American military wouldn't be there to protect 
American lives if they possibly could get there.
    And I find it truly disturbing and very unfortunate that 
when Americans come under attack, the first thing some did in 
this country was attack Americans--attack the military, attack 
the President, attack the State Department, attack the former 
Senator from the great State of New York, former Secretary of 
State Hillary Clinton. And I would like to ask some questions 
about these attacks to get at the real facts.
    Last month, Chairman Issa went on national television and 
accused former Secretary of State Hillary Clinton, accused her 
of lying under oath when she testified before Congress that she 
did not personally approve of security reductions in Libya. As 
proof, he claimed that she personally signed a cable denying 
requests for additional security. And he stated, ``The 
Secretary of State was just wrong. She said she did not 
participate in this, and yet only a few months before the 
attack she outright denied security and her signature in a 
cable in April 2012.'' The fact is that the Secretary did not 
sign this cable in 2012. Her name was typed at the bottom of 
the page, which is just the general procedure for thousands of 
cables that come out of the State Department every single year.
    So I would like to ask the panelists and our witnesses just 
one question, and it concerns the State Department 
correspondence manual, which is posted on the Department's Web 
site. And this manual says, ``The communications center will 
place the name of the Secretary on all telegrams to posts.''
    Now, I would like to ask the panelists in a yes-or-no 
question, do you agree that this is the proper procedure or the 
procedure that's followed by the State Department, that 
thousands and thousands of cables leave the Department 
headquarters every single year with the Secretary's name at the 
bottom of the page or on the page?
    And I would like to know, Mr. Nordstrom, yes or no, do you 
agree with the manual? Is that the procedure of the State 
Department?
    Mr. Nordstrom. That is my understanding of the prevailing 
practice.
    Mrs. Maloney. Mr. Hicks, yes or no?
    Mr. Hicks. Yes, ma'am.
    Mrs. Maloney. Mr. Thompson, yes or no, is that the 
procedure?
    Mr. Thompson. Yes.
    Mrs. Maloney. Well, 2 days after Chairman Issa made these 
accusations, The Washington Post ran a Fact Checker article 
called ``The Whopper.'' And I would like to ask unanimous 
consent to place this in the record.
    Chairman Issa. Without objection, so ordered.
    Mrs. Maloney. Thank you.
    Mrs. Maloney. Well, what The Fact Checker said was this: 
``There was no basis or evidence to show that Clinton had 
anything to do with this cable any more than she personally 
approved a cable on proper email etiquette. The odds are 
extremely long that Secretary Clinton ever saw or approved this 
memo, giving us confidence that this inflammatory and reckless 
language qualifies as a whopper and four Pinocchios.''
    So anyone who actually knows how the State Department 
operates knows that she was speaking the truth. She was talking 
about the procedure that was in the manual. There is no way in 
the world that she could sign every cable coming out. And when 
she said she didn't sign it, she did not sign it. So----
    Chairman Issa. The gentlelady's time has expired, but if 
anyone wants to respond, they may.
    Hearing none, we will go to the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you, Chairman.
    And thank you, all three, for you being here. And thank you 
to the families whose loved ones passed away.
    Mr. Hicks, I want to go back to that first plane from 
Tripoli. It went from Tripoli, as noted in the ARB report, 
included seven rescue team members, including two U.S. military 
personnel. That plane then returns to Tripoli. And the first 
rescue team that is there is now really engaged in the attack. 
You have no idea, is my understanding, as to when the attack is 
going to end, so the second rescue team is preparing to go.
    And you mentioned it in your opening statement, but if you 
could please go back to what the second team--now, the second 
team included four U.S. military. These are highly trained 
Special Forces personnel, one of which is a medic. And yet 
these military personnel do not operate under your authority, 
and your permission is not enough for them to go. Explain to me 
again exactly what happened.
    Mr. Hicks. Again, we determined that we needed to send a 
second team from Tripoli to secure the airport for the 
withdrawal of our personnel from Benghazi after the mortar 
attack.
    Mr. Chaffetz. But were any of these U.S. military personnel 
not permitted to travel on a rescue mission or relief mission 
to Benghazi?
    Mr. Hicks. They were not authorized to travel.
    Mr. Chaffetz. What happened with those personnel?
    Mr. Hicks. They remained in Tripoli with us. The medic went 
with the nurse to the hospital to lend his skills to the 
treatment and care of our wounded.
    Mr. Chaffetz. How did the personnel react to being told to 
stand down?
    Mr. Hicks. They were furious. I can only say--well, I will 
quote Lieutenant Colonel Gibson. He said, ``This is the first 
time in my career that a diplomat has more balls than somebody 
in the military.''
    Mr. Chaffetz. So the military is told to stand down, not 
engage in the fight. These are the kind of people willing to 
engage. Where did that message come down, where did the stand-
down order come from?
    Mr. Hicks. I believe it came from either AFRICOM or 
SOCAFRICA.
    Mr. Chaffetz. Now, my understanding is that General Ham was 
actually not in Stuttgart, where AFRICOM is headquartered, but 
he was in Washington, D.C. Is that correct?
    Mr. Hicks. I don't know the whereabouts of General Ham on 
that night.
    Mr. Chaffetz. Mr. Chairman, this is something that we are 
going to have to continue to explore.
    I need to move quickly now to Mr. Thompson, if I could.
    You were the leader there at the what is called the 
F.E.S.T. within the State Department. According to the State 
Department Web site, the F.E.S.T. is the Foreign Emergency 
Support Team, the U.S. Government's only interagency, on-call, 
short-notice team poised to respond to terrorist attacks 
worldwide.
    I want to read to you an excerpt of an email sent by you to 
Kathleen Austin-Ferguson on Tuesday, September 11th, 2012, at 
9:58 p.m. Could you help me understand, who is Kathleen Austin-
Ferguson?
    Mr. Thompson. She is Under Secretary Kennedy's deputy.
    Mr. Chaffetz. You wrote, ``I am told that Pat Kennedy 
participated in a very senior conference call with the White 
House and discouraged the F.E.S.T option. To remind, F.E.S.T. 
has dedicated aircraft able to respond in 4 hours, is 
Department of State-led, and provides the below skills. When 
FBI was contacted, they responded that this situation would be 
better addressed via a F.E.S.T. response. Thus, there are 
others who are thinking the same way. Ready to discuss further 
as needed. Mark.''
    Two questions----
    Chairman Issa. Can the gentleman suspend for a moment?
    Earlier, there was one document that had not been placed in 
the record because it hadn't been provided through official 
channels. And I would ask that we get that. I think it came 
from Mr. Gowdy.
    And then, Mr. Chaffetz, if you could make your document 
available so we could make copies.
    And then for any other Members on either side of the dais, 
if you plan to use a document that is not currently committee 
record--and I realize, since we have gotten very little, there 
is very little committee records--please do us the favor of 
having copies so they can be distributed at or prior to the 
beginning of the questioning.
    I am sorry to interrupt.
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. Yes.
    Mr. Cummings. One thing. Mr. Chairman, as you will recall, 
yesterday I reminded you that we had never--with regard to Mr. 
Thompson, this is the first time we have gotten a syllable from 
him.
    Chairman Issa. And we have no transcript either.
    Mr. Cummings. Right, but let me go on. One of the things I 
said in our conversation is that if there were any documents 
that were going to be used, we would like to have had them 
yesterday.
    But with regard to this document, and it sounds like it is 
a very crucial document, and in fairness to everybody, to all 
of us, and to Mr. Nordstrom, who said he wanted a complete 
hearing, we would just like to have that document, even if we 
have to suspend. We would like to see the document that he is 
talking about.
    Chairman Issa. Okay. In the case of this particular 
document Mr. Chaffetz is--my understanding is you do have the 
document. So I will let staff work on that and provide 
additional time if needed if that turns out not to be true.
    For our witnesses, if you have any documents you are going 
to refer to that we don't have, if you would have your counsels 
allow copies to be made. Again, I want to make sure everyone 
has it as soon as possible.
    Obviously, if the State Department had made the documents 
they show us so-called in camera, if they had allowed us to 
have copies, we would all have a lot more documents. But----
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. --that is for a different argument.
    Mr. Chaffetz, I am sorry. We will give you back a couple of 
seconds. And the gentleman may continue.
    Mr. Chaffetz. Mr. Thompson, do you recall that email?
    Mr. Thompson. I do.
    Mr. Chaffetz. Two questions. Were you ever given a detailed 
explanation as to why the F.E.S.T. was not considered for 
deployment? And, number two, did you attend or attempt to 
attend any senior meetings to plead your case for a F.E.S.T. 
deployment? And if so, what happened?
    Mr. Thompson. The reason I was given was that this was not 
the time for the F.E.S.T. It might be too unsafe for the 
F.E.S.T. And I got that through Ms. Austin-Ferguson.
    I readdressed that with her. I readdressed it with her 
staff 2 days later.
    Mr. Chaffetz. Did you attempt to attend any meetings?
    Mr. Thompson. The next morning, there were VTCs. I presumed 
I would be part of that. I was told not to attend those. 
Although CT was represented there, the F.E.S.T. portion and the 
response portion of the Counterterrorism Bureau was not 
represented there.
    Mr. Chaffetz. So why were you not called into action? This 
is what you trained for, it is what tabletops are for, it is 
what you are prepared to do. Why was F.E.S.T. not called into 
action?
    Mr. Thompson. I do not know.
    Mr. Chaffetz. Mr. Chairman, this is one of the great 
mysteries. Here we have this expertise. We have invested 
heavily in it. They tabletop it, they understand it. This is 
exactly what they train for. And they were never asked to go 
into action. We had no idea how long or when this was going to 
end.
    I yield back.
    Chairman Issa. I thank the gentleman. The gentleman is 
correct.
    We now recognize the gentlelady from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    First, I want to say to the families that we continue to 
feel deeply about your loss.
    I have some questions for Mr. Thompson concerning the role 
of the Counterterrorism Bureau.
    Now, Mr. Thompson, your lawyer said you were unwilling to 
talk with any Democratic member of this committee, so I have 
had to rely on statements that were made to the press. Your own 
statement is mostly biographical, about the work you have done 
in Yemen and Latin America and the rest.
    Now, one report I found indicated that you believed that 
Secretary Clinton and Ambassador Patrick Kennedy, and here I am 
quoting from this report, ``tried to cut the Counterterrorism 
Bureau out of the loop as they and other Obama administration 
officials weighed how to respond to and characterize the 
Benghazi attack.'' Now, that's the end of that quote.
    Mr. Thompson, I am asking you, is that quote accurate, that 
you believe that the Counterterrorism Bureau was intentionally 
kept out of the loop for political reasons?
    Mr. Thompson. It is not. I indicated that the portion of 
the Counterterrorism Bureau that responds to crises, i.e. my 
part of the office, was pushed out of that discussion. The 
Counterterrorism Bureau was represented in subsequent meetings 
after the night of 9/11.
    Ms. Norton. But do you believe you were kept out for 
political reasons? This quote----
    Mr. Thompson. I do not politicize my job, Madam. I have 
served under three Presidents, starting with President Clinton 
up to the present. I have served six Secretaries of State----
    Ms. Norton. I have to continue. Mr. Thompson, I was just 
quoting the quote. So the quote isn't entirely accurate, then?
    Mr. Thompson. Correct.
    Ms. Norton. All right.
    That is very important for the record, that Mr. Thompson is 
not saying that they were kept out of the loop for political 
reasons.
    This week, this quote apparently caused your former boss in 
the Counterterrorism Bureau at the State Department--I am 
speaking now of Ambassador Daniel Benjamin--to issue a public 
statement disagreeing with this allegation in particular, which 
was in quotes. And he said, and I am now quoting him, ``It has 
been alleged that the State Department's Counterterrorism 
Bureau was cut out of the discussion and decision-making in the 
aftermath of the Benghazi attack. I ran the bureau then, and I 
can say with certainty as the former coordinator for 
counterterrorism that this charge is simply untrue.''
    Do you agree with Ambassador Benjamin?
    Mr. Thompson. I agree that the Counterterrorism Bureau was 
included. But there is a distinction with a difference with 
respect to the portion of the Counterterrorism Bureau that 
would be most effective in the aftermath of an attack on a 
diplomatic compound.
    Ms. Norton. Now, all of this was under Ambassador Benjamin. 
He didn't say one portion or the other. You are yourself 
saying, although the bureau was represented, somehow some 
portions of the bureau were not represented? And how is that?
    Mr. Thompson. That's what happened, ma'am.
    Ms. Norton. It says ``the bureau.'' ``The bureau,'' he 
says, going on, ``was a central participant in the interagency 
discussion about the longer-term response to Benghazi. At no 
time was the bureau sidelined or otherwise kept from carrying 
out its tasks.''
    Now, this seems to me to directly contradict your testimony 
here today. He says----
    Mr. Thompson. Well, I respectfully disagree.
    Ms. Norton. --we were all in. You say, well, yeah, you were 
in, but somehow or the other, some part of it was not in.
    Mr. Thompson. No other part of the Counterterrorism Bureau 
is responsible for responding to a crisis. This was a crisis. 
My office was not involved in those subsequent meetings. Other 
members of the office were, very professional people, and I am 
sure they did their best at those meetings.
    Ms. Norton. Well, we certainly don't want to get involved 
in, you know, who down the chain of line gets consulted. But 
the Ambassador says, ``After the attack, the first question to 
arise that involved the Counterterrorism Bureau was whether or 
not the Foreign Emergency Support Team should be deployed. The 
question of deployment was posed early, and the Department 
decided against such a deployment. In my view, it was 
appropriate to pose the question, and the decision was a 
correct one.''
    Now, were you aware that your superiors were consulted 
about the decision not to employ the Foreign Emergency Support 
Team?
    Mr. Thompson. As earlier----
    Chairman Issa. You can go ahead and answer that, although 
the gentlelady's time has expired.
    Mr. Thompson. As earlier indicated, ma'am, I was told that 
by the Under Secretary of Management's office. The normal 
process for deploying the team is that at the assistant-
secretary level at a Counterterrorism Security Group at the 
White House, those options are discussed. At that convening of 
that CSG, that decision is recommended or not recommended to 
the deputies committee. It is not solely a State Department 
function or authority to launch the Foreign Emergency Support 
Team, even though we are one part of it.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman.
    Mr. Hicks, when you arrived in July, did the facilities in 
Benghazi meet the minimum OSPB security standards set by the 
State Department?
    Mr. Hicks. According to the Regional Security Officer at 
the time in Tripoli, John Martinec, they did not.
    Mr. Lankford. What about the facilities in Tripoli? The 
Benghazi facilities did not meet the minimum standards. Did the 
facilities in Tripoli?
    Mr. Hicks. Again, according to the Regional Security 
Officer in Tripoli, John Martinec, they were very weak, yes. 
They did not meet.
    Mr. Lankford. They did not meet. Do you think they were 
close to meeting the standards?
    Mr. Hicks. No, sir.
    Mr. Lankford. Mr. Nordstrom, before you left as the RSO, 
did the facilities have the number of security personnel that 
you had requested?
    Mr. Nordstrom. No, they did not.
    Mr. Lankford. Mr. Nordstrom, there are a very, very small 
number of facilities worldwide that are considered by GAO 
critical or high-threat level for personnel serving in our 
different embassies and consulates. Tripoli and Benghazi, were 
they listed as critical or high-threat level?
    Mr. Nordstrom. They were. That was something that I had put 
in my written testimony, as well.
    Mr. Lankford. By statute, Mr. Nordstrom, who has the 
authority to place personnel in a facility that does not meet 
the minimum OSPB standards?
    Mr. Nordstrom. As I had noted in there, the OSPB standards 
go in tandem with SECCA, which is Secure Embassy Construction, 
both of which derived out of the East Africa bombings or were 
strengthened after that. It is my understanding that since we 
were the sole occupants of both of those facilities, Benghazi 
and Tripoli, the only person who could grant waivers or 
exceptions to those was the Secretary of State.
    Mr. Lankford. Mr. Hicks, why was Ambassador Stevens headed 
to Benghazi? There were a lot of concerns about him. There were 
a lot of security issues that Mr. Nordstrom had listed in 
numerous reports leading up to his trip there. Why was the 
Ambassador headed there?
    Mr. Hicks. According to Chris, Secretary Clinton wanted 
Benghazi converted into a permanent constituent post. Timing 
for this decision was important. Chris needed to report before 
September 30th, the end of the fiscal year, on the physical and 
the political and security environment in Benghazi to support 
an action memo to convert Benghazi from a temporary facility to 
a permanent facility.
    In addition, Chris wanted to make a symbolic gesture to the 
people of Benghazi that the United States stood behind their 
dream of establishing a new democracy.
    Mr. Lankford. Why was this timing important? Was it 
significant that he went right now? Was there some hesitation 
about him going at that moment for that length of time? Could 
he have waited a couple more months to be able to go?
    Mr. Hicks. He had originally planned to go to Benghazi in 
October, but we had a 2-week gap in the principal officer 
position. Eric Gaudiosi was departed on August 31st, and his 
replacement was not due in the country until September 15th. We 
covered the initial 10-day period with David McFarland, and 
then the Ambassador chose to go. And, again, he chose to go for 
those reasons.
    Mr. Lankford. What was the timeline on trying to make this 
a permanent facility? Or was there anything pending that had to 
be accomplished by a certain deadline?
    Mr. Hicks. We had funds available that could be transferred 
from an account set aside for Iraq and could be dedicated to 
this purpose. They had to be obligated by September 30th.
    Mr. Lankford. Okay. And where did those instructions come 
from?
    Mr. Hicks. This came from the executive office of the 
Bureau of Near Eastern Affairs.
    Mr. Lankford. So they were told to go ahead and check 
everything out, get the process going in Benghazi because we 
had do it and we had do it right now. He had planned to go in 
October but said, we have to get there earlier and get this 
started. And, plus, there was an opening, as well, the 
principal officer.
    Mr. Hicks. That's right.
    Mr. Lankford. Mr. Nordstrom, on March the 28th, there is a 
cable that you sent to Washington requesting to keep the 
Diplomatic Security that you already had on the ground, that 
level of security, and not have that level of security 
decreased. Did you draft that cable?
    Mr. Nordstrom. I did.
    Mr. Lankford. Who was the intended recipient of that cable?
    Mr. Nordstrom. Generally, those types of requests would go 
to our Diplomatic Security personnel, certainly DAS Charlene 
Lamb, who was with me before in October, testified, and, 
certainly, to the Under Secretary of Management and Near 
Eastern Affairs would typically be the distribution for that.
    Mr. Lankford. Okay. Thank you.
    My time has expired.
    Mr. Mica. [presiding.] I thank the gentleman.
    The gentleman from Massachusetts, Mr. Tierney, you are 
recognized.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Hicks, let me start by acknowledging how riveting your 
testimony was of the events of that day and evening and 
thanking you for your service and your activity, for sharing 
with us all the brave acts that occurred that night. I don't 
think we have heard enough of that. And I think it is important 
for the American people to know how many individuals, both in 
Tripoli and in Libya, responded so very well and bravely on 
that. So thank you for sharing that and for your service, as 
well.
    You know, we have an important responsibility here, and 
that is to ensure that whatever happened that night and 
whatever we learn from what could have been done better 
actually gets fixed. And I think that's a legitimate process 
for this committee to do. I hope we move on on that basis.
    I know that, you know, we had an Accountability Review 
Board set up immediately in the wake of all of this, and they 
were rather harsh in their determination on that. And, in fact, 
they made some 29 different recommendations on that. And we 
should be finding out whether or not the Secretary of State and 
the Department are implementing those recommendations and how 
expeditiously. And I hope that at some point we can get to 
that, which I think would be the appropriate role for the 
government.
    And I know that two of the three witnesses here this 
morning actually spoke with the Accountability Review Board, 
and the third certainly knew of his right to speak and chose 
not to contact them for whatever reason on that.
    But earlier this week, I think disturbingly, you know, the 
chairman went on to national television and actually accused 
the administration of deliberately misleading the American 
people about the attacks in Benghazi. For, you know, somebody 
that's earned the term of being a whopper, making a statement 
of a whopper and four Pinocchios, it is a little bit shocking 
to think that that kind of a statement would be made without 
any apparent backup.
    The basis for the extreme charge were apparently statements 
made by Ambassador Rice on news shows the Sunday after the 
attacks. And the comments were allegedly that the talking 
points that were provided by the intelligence community were 
supposedly manipulated for political purposes.
    What was quoted by the chairman at that TV show was, 
``Clearly, the American public was deliberately misled,'' said 
the whopper, ``and it was a political decision.''
    Mr. Hicks, you told our investigators that you weren't 
involved with the drafting of those talking points. Is that 
right?
    Mr. Hicks. Yes, sir.
    Mr. Tierney. And, Mr. Nordstrom, you weren't involved 
either. Is that correct?
    Mr. Nordstrom. No, I was not.
    Mr. Tierney. And, Mr. Thompson, you also were not involved. 
Is that right?
    Mr. Thompson. Yes, Congressman. But, however, I offered my 
services to the ARB, and I did not try to keep myself out of 
that process, just for the record.
    Mr. Tierney. Thank you.
    And we know that there were conflicting reports about what 
happened, including a statement by a Libyan official that there 
had been a demonstration and some eyewitness accounts of that 
protest.
    But, Mr. Hicks, we know that you didn't believe that there 
was a protest. You believed that it was otherwise. And we know 
that the President of Libya also contradicted with that 
statement on that.
    But the intelligence community insisted it received initial 
reporting suggesting there was a demonstration. We know that 
the reporting was wrong; now we know that. But the mention of a 
demonstration was put into talking points by the intelligence 
community, not the White House or the State Department.
    So I want to play a little video here, if we can, of 
General Clapper, where he specifically addresses the attacks on 
Ambassador Rice. We have that cued up.
    [Video shown.]
    Mr. Tierney. So General Clapper says that he thinks the 
attacks on Ambassador Rice were unfair. She was using exactly 
what the intelligence community gave her.
    Mr. Hicks, do you have an argument with his veracity when 
he made those statements?
    Mr. Hicks. There was no report from the U.S. mission in 
Libya of a demonstration on----
    Mr. Tierney. The difficult question I have for you because 
you were good enough to come forward is, do you contest General 
Clapper's veracity? Is he lying or is he telling the truth of 
what information he gave to Ambassador Rice?
    Mr. Hicks. I don't know anything about the development of 
those talking points.
    Mr. Tierney. So, look, we haven't investigated this issue 
yet. You know, it would be interesting to know. But the House 
Intelligence Committee has. They got all of the draft talking 
points. They got the briefings and testimony from CIA 
officials. According to Adam Schiff, one of the Representatives 
that is on and part of that investigation, he said, ``General 
Petraeus, the former head of the CIA, made it clear that the 
change was made to protect classified sources of information, 
not to spin it, not to politicize it. And it wasn't done at the 
direction of the White House.''
    And, as an aside, we might be interested in protecting 
classified information, because we have had situations where 
people in the majority have gone to Libya and come back and had 
a real flare-up about what they disclosed concerning classified 
information.
    But, in addition, there was a bipartisan report issued by 
Senator Lieberman and Senator Collins that similarly stated, 
``No changes were made for political reasons, and there was no 
attempt to mislead the American people about what happened in 
Benghazi.''
    So people who have actually seen the documents, who have 
actually conducted a real investigation completely reject the 
allegation that they were made for political purposes or to 
deliberately mislead the American people.
    With that, I yield back.
    Mr. Mica. Thank you, Mr. Tierney.
    Let me yield now to the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Hicks, in your 22 years of service to our country, you 
have always received good reviews, strong evaluations. Is that 
accurate?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. And as I look, I mean, I am just a country boy 
from Ohio, but as I look at your resume and bio, other than the 
degrees from Michigan, it is impressive. It is amazing, the 
things you have done.
    In fact, immediately after the attacks, everybody said you 
did a great job, right? I mean, you look at the addendum here, 
Wendy Sherman said you did an outstanding job. Bill Burns, 
Deputy Secretary of State, ``great work, heroic efforts.''
    Isn't it true, Mr. Hicks--I think you cited this in your 
opening statement--that Secretary Clinton gave you a call 
immediately after the attacks and said you did an outstanding 
job under extreme circumstances?
    Mr. Hicks. Yes, sir. We had the first call at 2:00 a.m. and 
then again a video conference with our staff.
    Mr. Jordan. And isn't it also true the President of the 
United States called you up and said, you know what, Mr. Hicks, 
did you an outstanding job, again, under severe circumstances?
    Mr. Hicks. He did call me, sir.
    Mr. Jordan. And all that seems to change. You are getting 
all this praise and support, but all that seems to change. And 
it seems to change in the phone call you were on that Mr. Gowdy 
referenced in his questioning, the phone call you got from Beth 
Jones. Is that accurate?
    Mr. Hicks. Yes, in a phone call after the interview, I 
asked----
    Mr. Jordan. This is after Secretary Rice went on television 
and misled the American people. You are on a phone call with 
Beth Jones. And it all seems to change then because you asked 
Beth Jones what?
    Mr. Hicks. I asked her why the Ambassador had said there 
was a demonstration when the embassy had reported only an 
attack.
    Mr. Jordan. And, again, what kind of response did you get 
from Beth Jones when you asked that question?
    Mr. Hicks. She said, ``I don't know.''
    Mr. Jordan. Was it like you shouldn't be asking that 
question, you should be quiet, we don't want to talk about 
that? What was the sense you got?
    Mr. Hicks. The sense I got was that I needed to stop the 
line of questioning.
    Mr. Jordan. And did things continue to deteriorate between 
you and your superiors? After they have given you all this 
praise, you have had this outstanding service record, 22 years 
serving our country, things began to deteriorate even more.
    And as I read the transcript, it seems to me that it came 
to a head in phone calls you were on with lawyers from the 
Department of State prior to Congressman Chaffetz coming to 
visit in Libya. Is that accurate?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. And tell me about those conversations, what 
those lawyers instructed you to do on Mr. Chaffetz' visit to 
Libya.
    Mr. Hicks. I was instructed not to allow the RSO, the 
Acting Deputy Chief of Mission and myself to be personally 
interviewed by Congressman Chaffetz.
    Mr. Jordan. So the people at State told you, don't talk to 
the guy who is coming to investigate?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. So don't talk to the Congressman?
    Now you have had several congressional delegations come to 
various places you have been around the world. Has that ever 
happened, where lawyers get on the phone to you prior to a 
congressional delegation coming to investigate a time where we 
have had four Americans lose their lives, have you ever had 
anyone tell you, don't talk with the people from Congress 
coming to find out what took place?
    Mr. Hicks. Never.
    Mr. Jordan. Never. And you have had dozens and dozens of 
congressional delegations that you've been a part of?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. First time it's ever happened?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. And isn't it true that one of those lawyers on 
the phone call accompanied the folks from the delegation and 
tried to be in every single meeting you had with Mr. Chaffetz 
and that delegation from this committee?
    Mr. Hicks. Yes, sir. That's true.
    Mr. Jordan. Tell me what happened when you got a classified 
briefing with Mr. Chaffetz, what happened in the phone call 
that happened after that?
    Mr. Hicks. The lawyer was excluded from the meeting because 
his clearance was not high enough. And the delegation has 
insisted that the briefing not be limited by any----
    Mr. Jordan. Did the lawyer try to get in that briefing?
    Mr. Hicks. He tried, yes. But the annex chief would not 
allow it because the briefing needed to be at the appropriate 
level of clearance.
    Mr. Jordan. You had a subsequent conversation after this 
classified briefing that the lawyer was not allowed to be in, 
you and Mr. Chaffetz and others on that delegation, you had 
another conversation on the phone with Cheryl Mills. Tell me 
who is Cheryl Mills?
    Mr. Hicks. She is a Counselor for the Department of State 
and the Chief of Staff to Secretary Clinton.
    Mr. Jordan. That's a pretty important position?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. When she calls, you take the phone call?
    Mr. Hicks. Immediately.
    Mr. Jordan. Yes. She is the fixture for the Secretary of 
State. She is as close as you can get to Secretary Clinton; is 
that accurate?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. And tell me about that phone call you had with 
Cheryl Mills.
    Mr. Hicks. A phone call from that senior person is 
generally speaking not considered to be good news.
    Mr. Jordan. And what did she have to say to you?
    Mr. Hicks. She demanded a report on the visit.
    Mr. Jordan. Was she upset by the fact that this lawyer 
was----
    Mr. Hicks. She was upset.
    Mr. Jordan. This baby sitter, this spy, whatever you want 
to call them, was not allowed to be in that. The first time 
it's ever happened. All the congressional delegations you've 
ever entertained was not allowed to be in that classified 
briefing. Was she upset about that fact?
    Mr. Hicks. She was very upset.
    Mr. Jordan. So this goes right to the person next to 
Secretary Clinton; is that accurate?
    Mr. Hicks. Yes, sir.
    Mr. Jordan. Mr. Chairman, here is a guy with 22 years of 
outstanding service to our country, 22 years, outstanding 
service, praised by everybody who counts--the President, the 
Secretary, everyone above him. And yet now they're 
obstructing--because he won't help them cover this up. He is an 
honorable man here telling the truth. Now he's getting this 
kind of treatment from the very people who praised him before. 
This is why this hearing is so important.
    I yield back.
    Mr. Mica. I thank the gentleman. I am pleased to yield now 
to the gentleman from Missouri, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, for yielding. I want to 
thank the witnesses for being here today.
    You know the Accountability Review Board made a number of 
recommendations to better strengthen overseas embassies and 
missions like the one in Benghazi.
    Mr. Nordstrom, you told our staff that you read the ARB's 
unclassified report and recommendations. Do you think that 
implementing these recommendations is important to ensure the 
safety and security of our foreign service?
    Mr. Nordstrom. Absolutely. I had an opportunity to review 
that along with the other two committee reports. I think taken 
altogether, they are fairly comprehensive and reasonable.
    Mr. Clay. And I guess a diplomat like you probably feels 
very disheartened when you read in the paper--let's say you are 
overseas and Congress has cut this budget for embassy security 
and Congress has been on the cheap of providing protection to 
our personnel. You know, in order to make security possible at 
our missions and our embassies throughout the world, it's one 
recommendation in this report that attempts to grapple with 
these issues and err on the side of increased attention to 
prioritization and the fullest support for people and 
facilities engaged in working in high-risk, high-threat area. 
The solution requires a more serious and sustained commitment 
from Congress to support State Department needs which, in 
total, constitute a small percentage both of the full national 
budget and that spent for national security. But it's exactly 
what we in Congress have failed to do in the past.
    Let's look at our record. House Republicans voted to cut 
the administration's request for embassy security funding by 
$128 million. And that was in fiscal year 2011. In fiscal year 
2012, they cut the request by even more, providing $331 million 
less than requested. You know, our Republican counterparts have 
just said that these cuts are based on their priorities and 
choices. And when asked whether he voted to cut diplomatic 
security by over $300 million on CNN, Representative Chaffetz 
responded, ``Absolutely. Look, we have to make priorities and 
choices in this country.'' But these cuts have serious impacts. 
I want to you know that my priorities, including funding these 
recommendations, which will save lives.
    You know, the ARB--Mr. Nordstrom, just to be clear, you 
provided information to the ARB; is that correct?
    Mr. Nordstrom. That's correct. Yes.
    Mr. Clay. And Mr. Hicks, is it true that you also provided 
information to the ARB?
    Mr. Hicks. Yes, sir.
    Mr. Clay. You know it was led by Ambassador Pickering and 
Admiral Mullen, who happens to be the former Chairman of the 
Joint Chiefs of Staff. In its investigation, the review board 
interviewed more than 100 people, reviewed thousands of pages 
of documents, and viewed hours of videotapes. The board made 29 
recommendations to improve security systems and proceeded to 
prevent future deadly attacks. And a key finding made by the 
board related to availability of funding. It is specifically 
for temporary facilities in high-risk, high-threat 
environments. And the board stated, ``The Department should 
develop minimum security standards for occupancy of temporary 
facilities in high-risk, high-threat environments and seek 
greater flexibility for the use of Bureau of Overseas Buildings 
and Operations sources of funding so that they can be rapidly 
made available for security upgrades at such facility. And it 
is important to note that the facility in Benghazi was 
designated as a temporary facility.''
    Mr. Nordstrom, do you agree with the board's review?
    Mr. Nordstrom. That was actually one of the specific things 
that I talked with the board. My concern is there is no such 
thing when we look at the FAM or the OSPB standards for a 
temporary facility. So by its very nature----
    Mr. Clay. So they developed a recommendation?
    Mr. Nordstrom. After the fact, yes.
    Mr. Clay. How about you, Mr. Hicks? Do you agree with the 
recommendation?
    Mr. Hicks. I am not a security expert. I am a diplomat. I 
am an economic officer. But I support every improvement that 
can possibly be made to improve our security overseas, 
including increasing the training of our personnel.
    Mr. Clay. Thank you.
    Chairman Issa. [Presiding.] I thank the gentleman. I would 
also thank the gentleman from Missouri but would ask, were you 
here on October 10 when the person who had those requests for 
additional security said money was not a factor; Charlene Lamb. 
Do you remember her?
    Mr. Clay. I can't remember if I was at that----
    Chairman Issa. Mr. Nordstrom, you were on that panel. Do 
you remember what she said.
    Mr. Nordstrom. Yes. She said that resources was not an 
issue. And I think I would also point to the ARB report if I'm 
not mistaken that they talked to our chief financial officer 
with DS who also said that resources were not an issue.
    Mr. Clay. But Mr. Chairman, the ARB says resources were an 
issue.
    Mr. Nordstrom. Well, I guess the question that I have about 
the ARB--and again, it's not what the ARB has. It's what it 
doesn't have and that it stops short of the very people that 
need to be asked those questions. And that's the Under 
Secretary of Management and above. Those are perfect questions 
that he needs to answer.
    Mr. Clay. I'm sure that if we implement some of the 
recommendations, it will help us prevent a future attack.
    Chairman Issa. And I appreciate that. And what I would say 
is that in the earlier hearing on October 10, the one thing we 
did discover is, yes, this facility was not able to take the 
blows even of a small bomb that had gone off earlier--Mr. 
Nordstrom testified to the fact that this consulate, temporary 
consulate had been attacked twice and they breached the wall. 
So there was an awful lot of recognition that it was an 
insufficient facility. And I think that is--ARB no ARB, that is 
something that is well in the committee's record. But I thank 
you for bringing it up. Mr. Clay. T
    We now go to the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. First of all, I have to 
again tell the families that we will continue to pursue this. 
And all the facts need to be known about what took place and 
hold people accountable. And then next, to the witnesses, thank 
you for your service. Thank you for your bravery and actually 
coming forward, and again, some of the commendable acts of the 
State Department employees you described.
    As everybody may know, and I follow, really, my colleague 
Mr. Clay's question about the report there, the Accountability 
Review Board report. And I've got--this is the unclassified 
version. There's a classified version also. This is available 
online.
    And we have a responsibility under law to review these 
situations and to go to people who actually had firsthand 
knowledge. Now Mr. Thompson, you have a very important 
position. The title is Bureau of Counterterrorism Leader, 
Foreign Emergency Support Team, U.S. Department of State; 
right?
    Mr. Thompson. Correct.
    Mr. Mica. Okay. And did you participate? Were you 
interviewed by the ARB?
    Mr. Thompson. I was not.
    Mr. Mica. You were not interviewed, okay. You were on the 
job during this period?
    Mr. Thompson. I was at my desk that night until 2:00 in the 
morning.
    Mr. Mica. And you were not allowed to convey information to 
the board?
    Mr. Thompson. On the 17th, I conveyed my request to be 
interviewed before the board.
    Mr. Mica. So they did interview you after that?
    Mr. Thompson. No.
    Mr. Mica. Have you ever been interviewed?
    Mr. Thompson. I have not.
    Mr. Mica. You have not. So you are one of the primary 
players, but yet the board failed to interview you. Would you 
say that's correct?
    Mr. Thompson. That is a correct statement.
    Mr. Mica. Mr. Hicks, is Mr. Thompson an important player in 
this? Mr. Nordstrom?
    Mr. Nordstrom. I would say yes. Certainly in the aftermath 
of the attack.
    Mr. Mica. Okay. Let me go to Charge Hicks. Were you 
interviewed by the board?
    Mr. Hicks. I was interviewed by the board.
    Mr. Mica. Were you able to convey all the information that 
you felt was necessary regarding this to the board?
    Mr. Hicks. The interview took about 2 hours. And it was in 
my mind incomplete and a few days later I had a separate 
meeting briefly with the executive secretary.
    Mr. Mica. So you did have a follow-up meeting and it was--
--
    Mr. Hicks. With the board's executive secretary to amplify 
on some issues that had been discussed at the meeting, at the 
initial interview.
    Mr. Mica. And Mr. Nordstrom, did you participate?
    Mr. Nordstrom. I did on two occasions. I also shared with 
them a voluminous amount of----
    Mr. Mica. Did you share how the process worked that we 
heard from Mr. Hicks?
    Mr. Nordstrom. Sure.
    Mr. Mica. Was it thorough?
    Mr. Nordstrom. I felt it was thorough and professional. As 
I said, their report--and as I have held, the report is fairly 
thorough and comprehensive. My issue is that they stopped short 
of interviewing people that I personally know were involved in 
key decisions that led to how those events unfolded, 
specifically how those buildings were staffed and constructed 
and in variance with existing standards. Those were all 
critical to the----
    Mr. Mica. They fell short. Well, in the unclassified 
version, they said that security in Benghazi was now recognized 
and implemented as a shared responsibility by the bureaus in 
Washington charged with supporting the post, resulting in 
stovepipe decisions on policy and security.
    Now the next part is interesting. That being said, Embassy 
Tripoli did not demonstrate strong and sustained advocacy with 
Washington for increased security for Special Mission Benghazi.
    Would you both agree with that?
    Mr. Nordstrom. If I could speak to that, I would disagree 
that it was a collaborative process. I'm not sure exactly the 
term they used. On a number of occasions--I testified in 
October as well--I raised issues; others raised issues; the 
Ambassador raised issues; the DCM raised issues to the point 
where reports and decisions on both the Tripoli compound and 
the Benghazi compound were decided in Washington. And those 
decisions were not either cleared with us or shared with us. So 
that doesn't seem as a collaborative process.
    Mr. Mica. I want to have time for Mr. Hicks to tell us 
about his----
    Mr. Hicks. Yes, sir. I monitored the discussions that Eric 
has testified about from my Arabic language student status. 
When I arrived in Tripoli, I had the understanding that these 
decisions had been settled and that we were not to relitigate 
them in terms of the number of personnel, security personnel at 
post. I began a process to attempt to relitigate them in mid-
August and we held an EAC meeting to discuss the matter. And we 
were unfortunately unable to return to that issue before 9/11 
occurred.
    Mr. Mica. Thank you.
    Chairman Issa. We now recognize the gentleman from 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I also want to thank 
the witnesses for their courageous service and their 
willingness to come before the committee here today. I also 
want to offer my condolence again to Ambassador Stevens and his 
family, Tyrone Woods and his family, Glen Doherty of 
Massachusetts and his family, and Sean Smith. These were 
American heroes and they were our very best. I don't want that 
part to be overlooked. These individuals were regarded as our 
very best, including Ambassador Stevens. Without question, I 
think his opinion and the respect that his experience and 
authority in all matters in Libya and not only in Tripoli but 
also in Benghazi was unquestioned I think. And it showed in the 
deference that others gave him to those decisions.
    I thought the ARB report especially did single out some 
areas where I thought they were trying to identify where the 
decisions that were made may have been deficient. And they do 
identify on page 30, they talk about the Bureau of Diplomatic 
Security and NEA, the Near Eastern Affairs, and at post, there 
appeared to be a very real confusion over who ultimately was 
responsible and in power to make decisions based on policy and 
security considerations. They go on further to say the DS 
bureau showed a lack of proactive leadership with respect to 
Benghazi, failing to ensure that the priority security needs of 
a high-risk, high-threat post were met. And at the same time, 
with attention in late 2011 shifting to a growing crisis in 
Egypt and Syria, the NEA's bureau's front office showed a lack 
of ownership of Benghazi security issues and intended to rely 
totally on diplomatic security for the latter. The board also 
found that Embassy Tripoli leadership, saddled with their own 
staffing and security challenges, did not single out a special 
need for increased security of Benghazi.
    Now what they point to in the next couple of paragraphs is, 
they thought that the Special Mission Benghazi extension--that 
this was a temporary residential facility not officially 
notified to the host government even though it was also a full-
time office facility resulted in a special mission compound 
being accepted from office facility standards and 
accountability under the Secure Embassy Construction and 
Counterterrorism Act of 1999. Mr. Nordstrom, your point 
exactly. And the Overseas Security Policy Board, OSPB. So what 
they are saying is because there was an extension made that 
there was a lowering in expectation there, that the resources 
for physical security and also the personnel assignments needed 
at that was not given an adequate priority and that it was left 
to Diplomatic Security in some cases to make those repairs.
    Is that something that you see as being a weak point in 
this whole process that allowed Benghazi to be ill-prepared for 
the attacks on September 11?
    Mr. Nordstrom. I do. As I said, I think that what still 
remains unseen is who made that decision to go ahead and assume 
that this is going to be a temporary facility. At one point, in 
fact, I was told by the colleagues in OBO and DS that the 
recommendations that we wanted to make, the upgrades both in 
Tripoli and Benghazi would not be made. They forwarded up the 
way forward documents that we discussed in October. And they 
said, and I quote, ``it's my understanding that M, Under 
Secretary for Management, agreed to the current compounds being 
set up and occupied condition as is.'' The ARB in particular 
found it interesting at my reply, which was in February of 
2013. I requested, is anything in writing? If so, I'd like a 
copy for post so we have it handy for the ARB. That's 8 months 
before the attack. I got no confirmation as to who made those 
decisions, nor did I get a copy of that.
    Mr. Lynch. Wow. And so the status was still in limbo at 
that point? I know there were some discussions with Mr. 
Lankford earlier, the gentleman from Oklahoma, that----
    Mr. Nordstrom. My understanding was the facility again--the 
types of facilities are whether or not you are sole occupancy 
of the building or are you a partial occupancy of, say, a 
commercial building or if you are in a building which is owned 
by the host nation. Well, clearly we were the sole occupant. 
And that's the standard. It's very clear. And it's based on our 
threat and those standards. We did not meet any of those 
standards with the exception of perhaps the height of the wall.
    Mr. Lynch. Thank you. My time has expired.
    Chairman Issa. Thank you. Just one thing. You used the term 
``M'' for the Under Secretary of Management. Who was that?
    Mr. Nordstrom. At the time and throughout all of this was 
Patrick Kennedy, who was up here in October as well.
    Chairman Issa. That's who would have been the person who 
said, No, or, This is good enough, presumably.
    Mr. Nordstrom. Presumably. Again I don't know what the 
decisions--the factors were in his decision. I am sure he had 
reason for those decisions. I am not going to criticize those. 
My only concern is that nobody has looked at those, whether it 
be ARB or anybody else.
    Chairman Issa. Thank you.
    Mr. Turner.
    Mr. Turner. Mr. Chairman, thank you very much.
    Gentlemen, I want to thank you for being here today. 
Without your statements, there is a tremendous amount of 
information that we just wouldn't know. And certainly it's 
important that you are giving us this information, as we all 
have deep condolences for the families.
    As we look at the information we have gotten today, we 
basically have two stand-down decisions that we've been able to 
discuss. One, the foreign emergency support team that Mr. 
Thompson has told us about. And Mr. Hicks you told us of 
Colonel Gibson. Mr. Hicks, I am a member of the House Armed 
Services Committee and I am very fascinated with this stand-
down order to Colonel Gibson. As we pursue that, we want to 
know who gave Colonel Gibson the order and why. And so I would 
like to review that stand-down order with you and what you 
experienced that night since you were with him as he was 
receiving that stand-down order. You told us that there was a 
C-130 Libyan transport that had been provided and that you had 
indicated to Colonel Gibson that he should go to reinforce 
Benghazi and help to withdraw personnel. Colonel Gibson was 
told to stand down and that plane left without him, landing at 
about 7:30 in Benghazi without Colonel Gibson's team.
    Let's start first with the review of what is Colonel 
Gibson's team. Who were those personnel on Colonel Gibson's 
team? What were they doing in Libya?
    Mr. Hicks. They are the remaining members of the special 
security team, group of 14 Special Forces personnel assigned to 
protect Embassy Tripoli after the return and re-establishment 
of the embassy in September of 2011. And on the 1st of August, 
the Secretary of Defense signed an order changing their status 
from being a security team to a training team and transferring 
the authority--their authority from the Chief of Mission, the 
Ambassador, to General Ham. And on August 6, two members of 
that team were in a carjacking incident as they were driving 
early in the morning outside the compound, and they had to use 
their weapons in order to escape that armed attack on their 
vehicle. In light of that incident, General Ham decided to draw 
down the team from 14 personnel to four personnel. And 
Lieutenant Colonel Wood and nine others--Lieutenant Colonel 
Wood testified before this committee last October--left Tripoli 
in the middle of the month. So Lieutenant Colonel Gibson and 
the other three members of that team are the remainder of that 
group.
    Mr. Turner. So their chain of command had been changed and 
they had been reduced. But as you were just describing, these 
are highly trained individuals with specialized skills that 
would have been useful in the certain situation in Benghazi.
    Mr. Hicks. Yes. Absolutely. And particularly given the 
fact--again, that the personnel in Benghazi were exhausted from 
a night of fighting against very capable opponents.
    Mr. Turner. Now do you know why they were told to stand 
down? Did Colonel Gibson give you any information or 
understanding?
    Mr. Hicks. I actually don't know why.
    Mr. Turner. Is there any reason to believe that the 
situation in Benghazi was over? I mean, there were a number of 
serious attacks as you've described it to us. Is there any 
reason to believe that there was no longer any danger in 
Benghazi?
    Mr. Hicks. No. There was every reason to continue to 
believe that our personnel were in danger.
    Mr. Turner. Mr. Hicks, Mr. Chaffetz has given me an article 
that appeared in USA Today just this week. And just as early as 
last Monday, Major Robert Furman, a Pentagon spokesman, said 
that the military's account that was just first issued weeks 
after the attack hasn't changed. There was never any kind of 
stand-down order to anybody. And that's a pretty broad 
statement, anybody. What's your reaction to the quote by Mr. 
Furman?
    Mr. Hicks. I can only, again, repeat that Lieutenant 
Colonel Gibson said, he was not to proceed to board the 
airplane.
    Mr. Turner. So your firsthand experience being on the site, 
standing next to Colonel Gibson who was on his way on that C-
130 transport and being told not to go contradicts what Mr. 
Furman is saying on behalf of the Pentagon?
    Mr. Hicks. Yes, sir.
    Mr. Turner. Mr. Hicks, did the embassy have a defense 
attache on staff whose role it was to interface with the 
Defense Department? And did you ask him that evening, were 
there any resources coming from the U.S. military? And what was 
your reaction to his responses as the evening unfolded?
    Mr. Hicks. My reaction was that, okay, we're on our own. 
We're going to have to try to pull this off with the resources 
that we have available.
    Mr. Turner. Were the Libyans surprised?
    Mr. Hicks. I don't know but I think they were.
    Mr. Turner. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. Before we go to Mr. Connolly, 
just because most people in the audience, including on the 
dais, don't understand ``chief of mission authority,'' would 
you, as Chief of Mission, run us through who was under your 
chief of mission authority and who wasn't? In other words, who 
did you have command and control of? And we are talking about 
military assets. Because I think a lot of folks up here are 
hearing two chains of command. And it would be helpful for you 
to explain it as a career State Department person quickly.
    Mr. Hicks. All civilian personnel in civilian USG personnel 
in Libya were under chief of mission authority which was Chris 
Stevens----
    Chairman Issa. Which was yours.
    Mr. Hicks. --until we knew that he was dead and then that 
passed to me. The four members of the Special Forces team were 
under General Ham's authority. We had two other military 
Special Forces personnel in country. And I was at that time 
unclear as to whether they were under my authority or not.
    Chairman Issa. So anyone you had under your authority, you 
gave orders to; they responded; they went downrange if you 
asked them to. The others were not allowed to?
    Mr. Hicks. Yes, sir.
    Chairman Issa. Thank you.
    Mr. Connolly, thank you very much. You will have your full 
time.
    Mr. Connolly. Thank you, Mr. Chairman. By the way, there 
have been some statements that Under Secretary Kennedy was not 
interviewed by the ARB, by Ambassador Pickering and Admiral 
Mullen. That is a mistaken fact. He most certainly was. You can 
look it up. It is documented. He was interviewed and he 
provided evidence and that evidence was evaluated. So it is 
simply not true that Under Secretary Kennedy was not part of 
that process. He most certainly was. And I would ask, Mr. 
Chairman, that the record so reflect.
    Chairman Issa. Who said that he wasn't? I'm not sure.
    Mr. Connolly. I think we've heard it from the table.
    Mr. Thompson, statements have been attributed to you that 
your bureau, the Counterterrorism Bureau, was actually 
deliberately kept out of post-Benghazi developments, decision 
making, and so forth. Are those statements attributed to you 
accurately?
    Mr. Thompson. It's true that my portion of the office was 
not participatory----
    Mr. Connolly. Your portion. To whom do you report?
    Mr. Thompson. I reported to Dan Benjamin at the time.
    Mr. Connolly. And did Mr. Benjamin, was he included?
    Mr. Thompson. He was overseas at the time.
    Mr. Connolly. He was overseas. But was he kept informed and 
involved?
    Mr. Thompson. I kept him informed in the early stages.
    Mr. Connolly. Was he kept informed and involved by the 
Secretary's Office?
    Mr. Thompson. I have no idea.
    Mr. Connolly. Would it surprise you to learn that he has 
stated emphatically that he most certainly was?
    Mr. Thompson. It wouldn't be a surprise. I have read it.
    Mr. Connolly. And would it surprise you that he contradicts 
your statements or statements attributed to you? And I read to 
you: This charge that we were kept out of the loop in the 
aftermath is simply untrue. ``Though I was out of the country 
on official travel at the time of the attack, I was in frequent 
contact with the Department. At no time did I feel the bureau 
was in any way being left out of deliberations that it should 
have been part of.''
    Mr. Thompson. I would disagree. He is true factually. His 
view of how much of----
    Mr. Connolly. Okay.
    Mr. Thompson. So for the record, if I may, sir, if he 
thinks that he was adequately informed and given counsel on 
that, then that is his professional opinion.
    Mr. Connolly. Well, he is the head of the bureau and he is 
or was your supervisor. And that's his testimony. So it 
contradicts yours.
    Mr. Thompson. I don't think it's his testimony, sir.
    Mr. Connolly. Well, I am entering it into the record. So it 
is now in the evidentiary record.
    Chairman Issa. Would the gentleman yield? I will hold the 
time.
    Mr. Connolly. Certainly.
    Chairman Issa. Mr. Cummings--perhaps you were here, perhaps 
not--has said among the lot of people we want to bring before 
this committee, he is now an anticipated future witness so he 
can give testimony.
    Mr. Connolly. But the chairman anticipated exactly the 
point I was going to make. So we can clear that up by having 
Mr. Benjamin here. Thank you.
    Mr. Hicks, I don't think anyone who could have listened to 
your account, the minute-by-minute account of what happened, 
could be anything but moved. The trauma of what you and your 
colleagues must have gone through, especially being in Tripoli, 
not being able physically to sort of reach out and do something 
about Benghazi, I think all of us can relate to that. Terrible.
    I was in Libya, in Tripoli in May of last year before the 
tragedy. And I don't remember whether we had a chance to meet 
or not. But David Dreier led our CODEL. We were not allowed to 
stay in Libya overnight.
    What struck me when I arrived in Tripoli was that the 
airport security was provided by a militia. And I have traveled 
a lot over my years in foreign policy and what goes through the 
mind is, what could go wrong with this? It is a volatile, 
violent, unstable--or was--situation.
    Do you want to talk just a little bit about the domestic 
situation in Libya as we found it because I think sometimes we 
have forgotten in the telling that we are facing instability in 
Libya still in a post-Qadhafi revolutionary situation and 
likewise in Benghazi. Could you just share with us some 
insights into what you found in terms of that inherent 
instability?
    Mr. Hicks. Thank you, Mr. Connolly. And thank you for being 
my Representative.
    First of all, I just want to say that I don't recall saying 
that anyone other than myself testified to the ARB or was a 
witness before the ARB. So I wanted to be clear about that.
    The second thing is, the political and security climate in 
Libya at the time, it was highly unstable although after the 
elections, we thought that political trajectory--the elections 
in July was the political trajectory was heading in the right 
direction. President Magariaf had been selected. They were 
trying to appoint the new Prime Minister and move towards a 
democratic government. The security scene, however, was very 
unstable and has been I think well documented. We had 
assassinations and car bombings in Benghazi but the assessment 
was that this was Libyan-on-Libyan and not necessarily a threat 
directed at foreigners. At the same time that we are in the 
process of building towards making our post in Benghazi a 
permanent post, the British are contemplating returning there 
to Benghazi. They left after their ambassador survived an 
assassination attempt in June. In Tripoli we also have 
instability. We have car bombings, carjackings, we have Islamic 
extremist militias who began to attack Sufi shrines and a 
government that is struggling to maintain security and improve 
security in the country.
    Mr. Connolly. Thank you. And Mr. Chairman, if I could just 
say to my constituent, we're proud of you. And I would add my 
voice to that of Mr. Cummings I am a member of not only this 
committee but the House Foreign Affairs Committee and you have 
my personal pledge that were there ever to be any hint 
retaliation or retribution for your willingness to come forth 
and tell your version of what happened, this Member of Congress 
will intervene on your behalf forcefully.
    Chairman Issa. I thank the gentleman.
    The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. First of 
all, thank you for calling this hearing. There is obviously 
great interest in and concern about what happened with that 
tragic incident. Mr. Nordstrom, we've already heard Mr. 
Thompson say that he was never interviewed even though he 
requested to be interviewed. Did I understand you correctly to 
say a few minutes ago that you know of other witnesses that had 
firsthand knowledge who were not interviewed by the board?
    Mr. Nordstrom. No. I don't believe I said that.
    Mr. Duncan. I guess I misunderstood about that. I will tell 
you though I was a criminal court judge for 7 \1/2\ years 
trying felony criminal cases, and I can tell you that it's 
surprising that anybody with firsthand knowledge wouldn't be 
interviewed about this unless somebody did not want to have a 
complete report.
    Mr. Thompson, what were you told was the reason you were 
not interviewed?
    Mr. Thompson. I was not given a reason, sir.
    Mr. Duncan. You were not given a reason.
    Mr. Hicks, do you feel the report lets any individual or 
bureaucracy off the hook?
    Mr. Hicks. Yes, sir. I think that in our system of 
government the decision-making authority is at the level of 
presidentially appointed, Senate confirmed individuals. It's at 
the level of Assistant Secretary or higher. Now the reporting 
coming out of Embassy Tripoli on conditions there, particularly 
the fact that we had to provide a daily report of who was in 
country to Under Secretary Kennedy and the fact that he made 
the decision as to who came to Tripoli and Benghazi or who 
didn't, that budgets came to his table and that security threat 
environment reports also came to his table would suggest that 
there was some responsibility there.
    Mr. Duncan. Mr. Thompson, let me ask you this. Another 
thing I find surprising is that--do the security people not 
consider that the date of 9/11--I have already heard somebody 
say that this mission was considered to be a high threat or a 
high risk mission. Do they not realize that 9/11 is a high 
security type date and we should be prepared for terrorist 
activities on that date in particular?
    Mr. Thompson. Certainly. When I hear ``security'' I think 
of Greg Nordstrom. So I won't go down the security trail too 
far here. But certainly on the anniversary of 9/11, since 9/11/
2001 we have all had our antenna up so to speak and been 
forward leaning if not physically, mentally on that particular 
day, yes.
    Mr. Duncan. The report basically puts the primary blame for 
this situation on the Bureau of Diplomatic Security. I would 
like to ask if any of you have a comment about that. Do you 
think that's fair?
    Mr. Nordstrom. If I could, Congressman, I think this might 
also address Congressman Connolly's question. My concern with 
the report is not that Under Secretary Kennedy was or was not 
interviewed. I don't know who was interviewed. Again that's 
part of the confidentiality of it, but there's been a lot of 
discussion of how many people were supposed to be there or not 
supposed to be there. Those things are not driven by 
regulations in law. That's a subjective opinion. Obviously that 
was quite a bit of my testimony in October. I go back to who 
authorized embassy employees, U.S. Government employees to go 
into facilities that did not meet legal requirements. I don't 
know who made that decision. And the reason why is because, as 
Ambassador Pickering said, he has decided to fix responsibility 
on the Assistant Secretary level and below. How I see that is, 
that's fine. It's an accountability of mid-level officer review 
board and the message to my colleagues is that if you are above 
a certain level, no matter what your decision is, no one is 
going to question it. And that is my concern with the ARB.
    Mr. Duncan. Mr. Hicks, did you find other shortcomings in 
the report?
    Mr. Hicks. Well, I find shortcomings in the process. 
Although I was interviewed for 2 hours, I was never allowed to 
review the recording of my testimony to the board. I was never 
given an opportunity to read the unclassified report before it 
was published to see if my testimony had been incorporated at 
all or properly. And I have never been given an opportunity to 
read the classified report.
    Mr. Duncan. All right. Thank you very much.
    Chairman Issa. I thank you. I must admit, one of the rules 
of this committee is that interviews and depositions, the 
witness actually gets a copy of and is allowed to make 
corrections in most cases to make sure that they didn't 
misstate something. So that is a little surprising to me.
    The gentlelady from California, Ms. Speier.
    Ms. Speier. Mr. Chairman, you know it's ironic that you say 
that, Mr. Chairman, since Mr. Thompson was not even engaged 
with the Democratic side of the aisle in terms of answering any 
series of questions.
    But let me first of all say to the family members, we lost 
extraordinary servants to this country. You lost loved ones. 
And there's nothing that we can say that will ever heal your 
huge loss but know that we will do everything in our power to 
make sure that other families do not go through what you are 
going through.
    To you, Mr. Hicks, thank you for your extraordinary 
service. You know, as you were retelling the events--and they 
were harrowing--it reminded me of an experience that I had 
similar in a foreign country, ambushed, and a sense that we 
were woefully under protected. And I think as part of what 
we're going to glean from this today is that we have got to do 
a much better job of providing protection in high risk, high 
threat embassies and counsel offices around the world. It was 
inadequate and I am troubled by the fact that General Ham 
withdrew additional support because they had been engaged in a 
carjacking. If anything, that would heighten our concern and we 
would create more support.
    Let me, though, ask you a question. You said earlier today 
that the lawyers at State told you not to talk to Mr. Chaffetz 
when he came. That's what I wrote down. Would you just verify 
that that's what you said?
    Mr. Hicks. We were not to be personally interviewed by 
Congressman Chaffetz.
    Ms. Speier. Now in your interview with the committee, you 
were asked the question, did you receive any direction about 
information that Congressman Chaffetz shouldn't be given from 
Washington? And your answer was, no, I did not. Is that still 
your testimony today?
    Mr. Hicks. I don't recall that phrase. I thought that I 
said--and I'd have to review again--that I did receive 
instructions exactly as I said them but I did not know who gave 
them to me because I did not at that time have access to my 
email from my time as the DCM in Tripoli.
    Chairman Issa. If the gentlelady could just tell us what 
page of the transcript that's on.
    Ms. Speier. Maybe the staff can get it for me. I am reading 
from a separate document.
    You did say that you were told to make sure other State 
Department officials were present for meetings with 
Representative Chaffetz. As you stated, they told me not to be 
isolated with Congressman Chaffetz. Is that correct?
    Mr. Hicks. Yes. That's what I mean by not to have a 
personal interview with Congressman Chaffetz.
    Ms. Speier. Okay, so it was more about not being in a 
situation where you did not have other people with you. Is that 
correct? As opposed to not being interviewed.
    Mr. Hicks. Again, that's what I said, not to be personally 
interviewed by Congressman Chaffetz.
    Ms. Speier. Well, you said they told me not to be isolated 
with Congressman Chaffetz.
    Mr. Hicks. That's the meaning of isolated, not to be 
personally interviewed.
    Ms. Speier. There was a classified briefing for Mr. 
Chaffetz that no other State Department official was able to 
attend and you testified earlier. So as a result no other State 
Department officials can confirm what was said, if there was a 
mischaracterization after the fact. So when Representative 
Chaffetz returned to Washington and attended this committee's 
hearing in October there was a great deal of controversy about 
his description of that classified briefing.
    Did you by chance watch the hearing?
    Mr. Hicks. Actually I didn't but I don't think I said that 
no State Department official was allowed in that annex 
briefing. In fact, I was in that briefing. David McFarland was 
in that briefing, and John Martinec was.
    Ms. Speier. The attorney was not.
    Mr. Hicks. The attorney was excluded by the annex chief for 
clearance purposes.
    Ms. Speier. You received a call from Cheryl Mills--actually 
let me ask a different question.
    Chairman Issa. The gentlelady's time has expired but go 
ahead and ask your last question quickly.
    Ms. Speier. Thank you, Mr. Chairman. I think you deserve to 
have a post in a location that you desire. So I would like to 
ask you, where would you like to be posted?
    Chairman Issa. The court of King James is out of the 
question.
    Mr. Hicks. The country I would most like to go to, is that 
the question, and be assigned to?
    Ms. Speier. Yes.
    Mr. Hicks. You know, I would really want to talk to my 
chief decision maker, my family who is sitting right over here, 
my wife because I think her opinion is more important than mine 
on that point.
    Ms. Speier. Just to conclude, Mr. Chairman.
    Chairman Issa. He really is a diplomat.
    Ms. Speier. Well, most of you should be diplomats on issues 
like that.
    Ms. Ziba had said to you that she would help you get a good 
onward assignment. And I think this committee will help you get 
a good onward assignment. So we await for the responsible 
person for that decision informing us.
    Chairman Issa. I thank the gentlelady and I am actually 
shocked that Mr. Connolly didn't make that promise to a 
constituent who could vote.
    With that we go to the representative from North Carolina, 
Mr. McHenry.
    Mr. McHenry. Not to bring this subject matter of this 
hearing back to the subject matter of this hearing, but I'm 
sorry, Mr. Hicks, the Senate is in charge of those types of 
movements of our ambassadors in the confirmation process. But I 
hear you know there's a wide variety of islands just to the 
south of Florida that are lovely.
    But the subject matter of today's hearing is to get at the 
root cause and the root facts of an awful tragedy that 
occurred. The mismanagement and the political coverup that 
resulted from that mismanagement and a rush to judgment by some 
very ambitious political operatives within Washington. At least 
that's near as what I can tell, having gotten into the facts as 
we have today and knowing what we know today. So I want to 
thank all three of you gentlemen for your service to the 
American people and to our government. And I want to say to you 
that the tough treatment you have gotten as a result not only 
on that day in September but since then is a horrible tragedy.
    I want to go back to Mr. Gowdy's line of questions here. 
Mr. Hicks was there a protocol within the consulate in the 
event of a protest?
    Mr. Hicks. Yes, there was.
    Mr. McHenry. Was there any evidence when you were there in 
Libya on that day that this was a protest?
    Mr. Hicks. No, there was none. And I am confident that 
Ambassador Stevens would have reported a protest immediately if 
one appeared on his door. The protocol of course was for us to 
evacuate immediately from the consulate and move to the annex.
    Mr. McHenry. Okay. Was there anything in connection to a 
YouTube video, was there any awareness that the events occurred 
because of a YouTube video?
    Mr. Hicks. The YouTube video was a non-event in Libya.
    Mr. McHenry. Okay. And did you know about that within a 
couple of days or the day of?
    Mr. Hicks. Yes.
    Mr. McHenry. Okay. And so did you report to anyone in 
Washington within the first couple of days that there was 
anything in connection--a protest in connection to a YouTube 
video?
    Mr. Hicks. No. The only report that our mission made 
through every channel was that there had been an attack on a 
consulate.
    Mr. McHenry. Not a protest?
    Mr. Hicks. No protest.
    Mr. McHenry. You can leave your microphone off. I'm going 
to come back to you a few times.
    Mr. Gowdy mentioned this earlier, but on September 16th 
Ambassador Susan Rice went on the Sunday shows, recited a whole 
group of talking points. Were you a part of those talking 
points.
    Mr. Hicks. No, I had no role in that preparation.
    Mr. McHenry. Okay. So one month later we had an Under 
Secretary Kennedy. Let's play his statement:
    ``Always made clear from the very beginning that we are 
giving out the best information we have at the time we are 
giving it out. That information has evolved over time. For 
example, if any administration official, including any career 
official, had been on television on Sunday, September 16, they 
would have said the same thing that Ambassador Rice said. She 
had information at that point from the intelligence community, 
and that is the same information I had and I would have made 
exactly the same point. Clearly we know more today, but we knew 
what we knew when we knew it.''
    By September 16th, did you know what you know what you 
know, which is apparently what Susan Rice said? Let me rephrase 
that actually. Let me actually make that a question, if you 
will.
    Ambassador Rice recited a set of facts. A month later they 
defended--the State Department defends that. You are a career 
State Department official. Would you have said the things that 
Ambassador Rice said?
    Mr. Hicks. Not after hearing what President Magariaf said, 
especially considering the fact that he had gone to Benghazi 
himself at great personal and political risk and for him to 
appear on world television and say, this was a planned attack 
by terrorists is phenomenal. I was jumping up and down when he 
said that. It was a gift for us from a policy perspective, from 
my perspective sitting in Tripoli.
    Mr. McHenry. And did that occur before September 16th?
    Mr. Hicks. He said that on the same talks shows with 
Ambassador Rice.
    Mr. McHenry. And did you report that--was there knowledge 
that he was going to say that?
    Mr. Hicks. No, there was not.
    Mr. McHenry. Mr. Chairman, I know we have a lot more 
questions about this, including what that did in country, 
Ambassador Rice's rhetoric, what that did and the impact it had 
in country for the work that you were doing and the delay that 
resulted because of that of the FBI investigation on the 
ground. If you could speak to that. And Mr. Chairman, if you 
will indulge me and let him answer, please.
    Chairman Issa. Briefly.
    Mr. Hicks. Yes, sorry. Again, it took 17, 18 days for us 
from that interview to get the FBI to Benghazi and we dealt 
with people at the low level and we got them to Benghazi by 
stringing together a series of basically low level commitments 
to help us get them to Benghazi.
    Chairman Issa. Thank you. The gentleman from Wisconsin.
    Mr. Pocan. Thank you, Mr. Chairman. And to the families, 
again to those who lost their lives in Benghazi, you have our 
condolences and I think the best tribute we can give to those 
who lost their lives is to make sure this doesn't happen again 
and I think that's really the goal of the committee.
    Gentlemen, thank you for being here today. Mr. Hicks, 
especially thank you for your extensive conversation about what 
happened during the confusion of those first hours, whether the 
Ambassador was at the hospital or the annex and all that 
happened. I can tell you about 16 years ago I was backpacking 
through the Darien Gap in Colombia and woke up to machine gun 
fire and hand grenades. At the time we didn't know what 
happened. We had paramilitaries on the river, we had guerrillas 
behind us, and we were caught in between. So I can fully 
understand the full confusion that happened at the time you 
were recanting that and I think we saw that in the report.
    What I can tell you though, Mr. Chairman, is I don't think 
there's a smoking gun today. I don't even think there is a 
lukewarm slingshot. What we have is some strong opinions from 
people who--all at least I know Mr. Nordstrom Mr. Hicks both 
participated in the study and Mr. Thompson while he didn't, no 
one stopped him--no one said he shouldn't be in the study--but 
we've had a chance to take a look at this. I think what is 
really imperative is that we make sure that these 
recommendations are done, that something concrete comes out of 
this so that no one else is in that situation. And I think one 
of the real things that we can do as a committee, as 
individuals on this committee, is to make sure that we provide 
adequate funding for security and training to all of our 
embassies. And I think you know I am one of the new folks 
around here, so when I look at some of the past budgets where 
we've been asked for literally hundreds of millions of dollars 
that haven't been approved in a post-9/11 world, I look at that 
as rather risky. And both Mr. Nordstrom Mr. Hicks, you both had 
extensive experience around the world in various places you 
have been. So looking at this proactively, I think this is 
probably the ninth or so hearing that the House has had on this 
issue so maybe it's time we start looking at how we make sure 
we protect our embassies the very best way we can rather then 
going through and rehashing the same old stories.
    My questions specifically, both Mr. Hicks and Mr. 
Nordstrom, are when it comes to extra training or extra 
security do you feel that we need more in some of the embassies 
across the world so that we make sure those who are working in 
there indeed have the very best protections because we have 
that responsibility to them as they serve the country?
    Mr. Hicks.
    Mr. Hicks. Thank you. There are two things. And I 
appreciate the question. We in the State Department need more 
training for our people who are going to these critical type 
places not only for our diplomatic security agents but also for 
our everyday security agents. We need to be able--in my opening 
statement I talked about my experience in Bahrain of developing 
contacts who helped us get through some very difficult times in 
2002 when our embassy was attacked twice and we were 
experiencing very severe anti-American demonstrations. We have 
to be able to engage. Our diplomats have to be out on the 
street. One of the reasons why we were perhaps caught off guard 
in Benghazi is because for security purposes, because we had so 
few personnel there, the consulate was basically on lockdown. 
And so it was very difficult for our principal officer to get 
out and mingle with the people and learn what was going on. 
This was magnified when I talked with a correspondent after the 
event who had been in Benghazi after 9/11 and the correspondent 
told me that the people of Benghazi were terrified by these 
Islamic extremist militias. We didn't have that sense prior to 
9/11. And the only way we could have that sense is if we're out 
on the street. I think Under Secretary of State for Public 
Diplomacy Sonenshine said it beautifully at the tribute for 
Anne Smedinghoff last week when she quoted Correspondent Edward 
R. Murrow about going the last three feet. That's what we as 
diplomats do. So if we are going to be going outside the 
embassies to meet with people and learn what's going on, we 
have to have the training to be able to respond rapidly and 
effectively to that desperate situation.
    So that's one thing. The other thing I believe that we need 
to do--and I put this forth as part of my platform for--in 
running for office in my speech to the Foreign Service, we need 
to develop a robust paradigm for analyzing and mitigating risk, 
and one that is comprehensible to every member of the emergency 
action committee. And this would be a powerful tool for our 
regional security officers to be able to develop the kinds of 
programs and the kinds of activities that we need to mitigate 
risks that they identify through the use of this paradigm.
    Chairman Issa. Thank you.
    We now go to the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you for 
holding this hearing. And I, too, agree with both sides of the 
aisle that this ought to continue with other hearings.
    And it was shocking to just hear a statement about this is 
rehashing same old stories. These aren't old stories. These 
aren't same old stories. This is a situation that is atrocious 
in that it happened. And it's about time we heard the stories 
for the first time that we're hearing today. And I thank the 
witnesses for being here to do that for us and appreciate your 
valor and appreciate the families and their sacrifice.
    Mr. Thompson, on several occasions already, it's been 
insinuated that not only did you not ask to be interviewed by 
ARB but that you refused. You've indicated on a couple of 
occasions, no, you asked to be involved.
    Let me give you further opportunity and ask you, why were 
you concerned about the ARB's failure to interview you? And did 
you raise any concerns with the Department about the Review 
Board's unwillingness to interview you?
    Mr. Thompson. The reason I was concerned about it was that 
it was a terrorist event, and we did not respond to a terrorist 
event with the team, or we weren't considered to. And there 
wasn't a normal process by which that goes through. That 
process that I have already stated is not one that is 
bureaucratic. It's one that can go from a cold start to wheels-
up, so to speak, within hours.
    Mr. Walberg. On-the-ground experience, understanding of 
what you were tasked to do.
    Mr. Thompson. Yes. With respect to places like Nairobi, 
Kenya, on August 7th, 1998, in which we had 12 murdered 
Americans, 240 murdered Kenyans, and thousands injured, a very 
ambiguous situation and a situation in which we responded to 
and collaborated with our DOD and our FBI colleagues. Even OFDA 
was there because we had to get--Office of Foreign Disaster 
Assistance. We even had to get them in there to help with the 
medical resupply because the hospitals were overrun by this 
event. We had to set up a new embassy because we had one that 
was destroyed. We had to set up all the communications for the 
Ambassador. So it was a fairly comprehensive response.
    Such was not the case in Tripoli with Mr. Hicks. However, 
we did have a need to get people pushed forward early, and even 
if they did not end up in Tripoli, they would be closer. Again, 
going back to the tyranny of distance, whether we would have 
landed in Frankfurt or Sigonella or Crete or somewhere in the 
area.
    Those are the things I would have brought out to the Board 
had I been interviewed.
    Mr. Walberg. Any of those findings included in the ARB 
report?
    Mr. Thompson. Not to my knowledge, but I also have not seen 
a classified version. They may be in there.
    Mr. Walberg. Mr. Hicks, in a little deference to my 
colleague from Ohio, I would say, on top of all of your 
distinguished records of achievement and accolades, your two 
earned degrees from University of Michigan are your best. And I 
appreciate that.
    Let me ask you this: Do you know if anyone interviewed by 
the ARB was provided an opportunity to read the full classified 
report?
    Mr. Hicks. I've talked to several witnesses who were 
interviewed by the ARB, and none of them have been allowed to 
read the classified report.
    Mr. Walberg. As far as you know, none that were interviewed 
have read the classified report.
    Mr. Hicks. So far as I know.
    Mr. Walberg. So you mentioned that there was a 2:00 a.m. 
phone call with the Secretary of State. During that short phone 
call, conversations you rehearsed for us, was there any mention 
of a demonstration during that conversation?
    Mr. Hicks. No.
    Mr. Walberg. It would be interesting to know if that was 
included in the report. But you've not read it.
    Mr. Hicks. Correct.
    Mr. Walberg. In fact, it wasn't.
    Do you think the ARB report lets any individual or 
bureaucracy off the hook?
    Mr. Hicks. Again, as I mentioned earlier, given the 
decision-making that Under Secretary Pat Kennedy was making 
with respect to Embassy Tripoli and Consulate Benghazi 
operations, he has to bear some responsibility.
    Mr. Walberg. What, in your view, were the shortcomings of 
the ARB process, besides not interviewing some people and 
allowing the classified report to be read?
    Mr. Hicks. Well, again, there was no stenographer in the 
room when we were interviewed.
    Mr. Walberg. No stenographer?
    Mr. Hicks. No, sir. And----
    Mr. Walberg. So we're talking about editorial commentary, 
potentially, as opposed to clear truth, accuracy?
    Mr. Hicks. That's correct. There were note-takers. I had 
counsel in the room with me taking notes. But other witnesses 
did not have counsel or may not have had counsel.
    Mr. Walberg. Thank you.
    Mr. Chairman, I don't have that benefit on the campaign 
trail, to not have accurate reporting.
    Thank you.
    Chairman Issa. Well, Congress created the ARB in 1986, so 
we have the ability to professionalize it by congressional 
action. Perhaps that will be something we will recommend.
    We now go to the gentlelady from Illinois, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentlemen, thank you for your bravery in being here today 
and for your service to our Nation.
    I really believe that the best way to honor the sacrifice 
of Ambassador Stevens and the three other Americans who gave 
their lives in the line of duty in a final act of devotion to 
this Nation, the best thing that we can do is to put aside 
politics and take a hard look at the facts of what went wrong 
and what we need to do as we move forward to make sure this 
never, ever happens again.
    And I share the frustration that many of my colleagues have 
expressed about the fact that we did not have the opportunity 
to properly prepare for your testimony today or to participate 
in a bipartisan investigation.
    You know, I want to take a look particularly at what we can 
do to strengthen our missions, particularly in parts of the 
world where we cannot rely on host governments to provide 
adequate security, what we need to do to strengthen our ability 
to protect our posts. As you've mentioned already, this 
includes better security measures and more U.S. security 
personnel.
    Mr. Hicks, you had said that, regarding the ARB's 
recommendations, that you thought it was incomplete, that the 
recommendations were unbalanced in favor of, I think you said, 
building higher walls, pouring more concrete, and that it was 
insufficiently strong in recommending that the State Department 
personnel needed to have more and better training, which is 
what you started to respond to my colleague from Wisconsin, Mr. 
Pocan.
    Could you elaborate further on what you believe needs to be 
done with improvements in training?
    Mr. Hicks. Again, the point I made is that those of us 
whose job it is to engage the local population, to represent 
America to local populations, we have to be able to go outside. 
We have to be able to meet them in their own places, especially 
in a part of the world where hospitality is a major part of the 
culture and where, also, the demonstration of personal courage 
is an important part of the culture.
    So that means that we have to, as individuals, those of us 
who go outside, have to be able to be cognizant of the 
situations that we're going into. We have to be situationally 
aware, I think, as Eric would say, in order to recognize in 
advance that we may be getting into a difficult situation and 
we need to be able to respond appropriately.
    And if we are put in a situation of extremis, then we have 
to also have the ability to be able to protect ourselves in 
that situation.
    Ms. Duckworth. Uh-huh. Thank you.
    Mr. Nordstrom, I know you did not have a chance to answer 
or elaborate on my colleague's question. What is your opinion? 
Because I really want to make sure that we get the lessons 
learned from this.
    You know, is there a balance that could be struck between 
focusing on improvements to physical security and also focusing 
on improvements to training, as Mr. Hicks suggested, or maybe 
dynamic communications? Do you have any specific 
recommendations?
    Mr. Nordstrom. Your point is actually a good one, is a 
perfect one. You know, my concern is that in the wake of an 
attack we're going to go through the same cycle that we've gone 
through all the time.
    Ms. Duckworth. Right.
    Mr. Nordstrom. More money is not always the solution. More 
is not always the solution. Better is the solution.
    During the process, I had somebody ask me as part of the 
ARB why had I not requested machine guns, 50-caliber machine 
guns, for the consulate in Benghazi. I was awestruck. I said, 
if we are to the point where we have to have machine gun nests 
at a diplomatic institution, isn't the larger question, what 
are we doing? Why do we have staff there?
    You know, one of the recommendations that I've looked at 
is, again, it's decision-making processes. That doesn't cost 
money. One of the things that we saw, again, is, what is the 
role of DS? Is DS, Diplomatic Security, elevated high enough 
within the Department of State's organizational structure 
whereby recommendations that are within that organization are 
heard by the Secretary of State? I mean, I think she has a very 
reasonable assertion that some of these issues weren't brought 
to her attention. Well, how do we fix that so that they are 
brought to the attention of the Secretary of State?
    It's not lost on me that, as the unheeded messenger this 
time around, I look at where those messages seem to stop: the 
Under Secretary for Management. I look back, and I see the last 
time we had a major attack was East Africa. Mr. Thompson has 
talked about it. Who was in that same position when the 
unheeded messengers of the Ambassador in Nairobi and the RSO in 
Nairobi were raising those concerns? It just so happens it's 
the same person. The Under Secretary for Management was in that 
same role before. So if anybody should understand this, I would 
hope that he would.
    That's why I'm going to the point of, there's something 
apparently wrong with the process of how those security 
recommendations are raised to the Secretary.
    Ms. Duckworth. I agree. And I think that you've given us a 
great way forward.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you. I thank the gentlelady.
    We now go to the gentleman from Michigan, Mr. Amash.
    Mr. Amash. Thank you, Mr. Chairman.
    And thank you for the witnesses for testifying today. Thank 
you for your service.
    Mr. Hicks, from a Michigan alum, go Blue.
    Mr. Hicks, you testified that you haven't read the final 
classified ARB report. Is that correct?
    Mr. Hicks. That's correct.
    Mr. Amash. If you haven't been allowed to read the report, 
how do you know whether your testimony was used appropriately?
    Mr. Hicks. I have no idea.
    Mr. Amash. The Department employees who were singled out 
for disciplinary action, were they allowed to read the final 
classified ARB report to examine the evidence that was used 
against them?
    Mr. Hicks. Two of those individuals have told me that they 
were not allowed to read the classified report.
    Mr. Amash. Do you believe that the ARB report does enough 
to ensure that a similar tragedy doesn't take place in the 
future?
    Mr. Hicks. Again, I haven't read the complete report, so I 
can't make a judgment at this point in time.
    Mr. Amash. Did you have an opportunity to provide input 
with respect to the report?
    Mr. Hicks. Yes, I had a 2-hour conversation with the Board.
    Mr. Amash. All right.
    I'm going to yield some time to the gentleman from Utah, 
Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    Mr. Hicks, do we typically need permission of a host-nation 
government to fly military aircraft over their territory?
    Mr. Hicks. Yes, we do.
    Mr. Chaffetz. And, to your knowledge, did we ever ask the 
Libyans for permission to fly over their country?
    Mr. Hicks. Frequently.
    Mr. Chaffetz. But did we the night of the attack?
    Mr. Hicks. The night of the attack?
    Mr. Chaffetz. The night of--once this incident started, did 
we seek permission from the Libyan Government to do a flyover?
    Mr. Hicks. I think in the record there is--a UAV was flying 
over Libya that night, and it had permission to be there.
    Mr. Chaffetz. Did we ever ask for permission to fly 
anything other than an unarmed drone over Libya during the 
attack?
    Mr. Hicks. No.
    Mr. Chaffetz. Would you have known that?
    Mr. Hicks. Yes.
    Mr. Chaffetz. Based on your extensive experience as a 
diplomat in dealing with the Libyan Government, do you believe 
the Libyans would have granted overflight rights if we had 
requested it?
    Mr. Hicks. I believe they would have.
    Mr. Chaffetz. Mr. Nordstrom, do you believe that would also 
be true?
    Mr. Nordstrom. I think certainly in this situation. They 
were fairly--yeah.
    Mr. Chaffetz. Mr. Chairman, I think one of the unanswered 
questions here is, if it's a possibility, if there's any chance 
that we could get military overflight, if we could get a 
military flight there, then we would ask permission in advance. 
My concern is there was never an intention, there was never an 
attempt to actually get these military aircraft over there.
    I think one of the hard questions we have to ask is not 
only about the tankers, but what was the NATO response? We flew 
for months over Libya. For months, we conducted an air 
campaign. And we have assets. We have NATO partners. We worked, 
for instance, with the Italians. It is stunning that our 
government, the power of the United States of America, couldn't 
get a tanker in the air.
    Mr. Hicks, when did you think that this was actually over, 
it was done, we were safe?
    Mr. Hicks. Not until our personnel landed in Tripoli on the 
C-130.
    Mr. Chaffetz. And then, even then, we were--Ansar al-Sharia 
had posted that, that we were potentially--I mean, there was a 
reason why you had to leave the facility in Tripoli.
    Mr. Hicks. That's correct.
    Mr. Chaffetz. When did you actually return to the embassy 
in Tripoli?
    Mr. Hicks. We returned, I believe, on the 14th.
    Mr. Chaffetz. When did the FES Team arrive to help secure 
the embassy?
    Mr. Hicks. They arrived on the night of September 12th at 
about 8:30 or so.
    Mr. Chaffetz. And there still, there still was a potential 
thought. And the government never asked for permission. This is 
one of the deep concerns.
    In the last minute here, I want to ask Mr. Thompson here--I 
want to read to you another excerpt of an email sent by you to 
Timothy Walsh and James Webster on Wednesday, September 12th. 
This is at 11:10 in the morning. ``Spoke to DB''--who is DB?
    Mr. Thompson. Daniel Benjamin.
    Mr. Chaffetz. --``Daniel Benjamin on the phone this 
morning. He understands my FEST points, concurs, but expressed 
his pessimism regarding our deployment and, by extension, does 
not intend to lobby for our inclusion,''.
    To remind everybody here, didn't Daniel Benjamin recently 
state that any claim that key elements of the Counterterrorism 
Bureau, such as F.E.S.T., were cut out of the response planning 
was simply, ``untrue''? Is that your understanding?
    Mr. Thompson. Correct.
    Mr. Chaffetz. How do you react to that? He goes out and 
publicly says that's not true, but based on the email, it 
sounds like you had a discussion with him. What happened in 
that discussion?
    Mr. Thompson. He was on the phone from Germany. Another 
member of our front office had been talking to him. She asked 
if he wanted to talk to me. I gave him a quick rundown of what 
had happened the night before.
    I kept him informed via BlackBerry on the unclass level 
about the concerns. And, obviously, when we finally understood 
how many people had been murdered that night, he was shocked 
and appalled, wanted to know anything he could do. And I told 
him about the dismissal and how it was dismissed in terms of 
getting our people out, or getting our people out of town.
    And I would just add that it's more than process and it's 
more than some of the other things that have been stated. My 
biography's in the record. We live by a code. That code says 
you go after people when they're in peril when they're in the 
service of their country. We did not have the benefit of 
hindsight in the early hours. And those people who are in peril 
in the future need to know that we will go get them and we will 
do everything we can to get them out of harm's way.
    That night unfolded in ways that no one could have 
predicted when it first started. And it is my strong belief 
then, as it is now, that we needed to demonstrate that resolve 
even if we still had the same outcome.
    Chairman Issa. I thank the gentleman.
    Mr. Connolly. Mr. Chairman?
    Chairman Issa. For what purpose does the gentleman seek----
    Mr. Connolly. I just wanted to reiterate, Mr. Chairman, 
that your point to me, that rather than speculate what Mr. 
Benjamin and Mr. Kennedy and others may think or may have said, 
we'll have the opportunity----
    Mr. Chaffetz. Will the gentleman--will the gentleman yield?
    Chairman Issa. We look forward to it.
    Mr. Chaffetz. Will the gentleman yield?
    Chairman Issa. Actually, all time has expired.
    We now go to the gentlelady from Illinois, who has been 
patiently waiting, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman.
    And I, too, would like to thank you for your service and 
thank you for your patience and endurance, sitting here almost 
3 hours. And my condolences to the family.
    Mr. Hicks, I would like to ask you about your testimony 
involving the flight from Tripoli to Benghazi. First, in your 
interview with the committee, you explained that the first 
plane from Tripoli to Benghazi left on the night of the attack 
around 1:15 a.m. Is that correct?
    Mr. Hicks. No, it arrived in Benghazi about 1:15.
    Ms. Kelly. It arrived, okay. The ARB report said that the 
first plane had a seven-person security team which included two 
military personnel. Is that correct?
    Mr. Hicks. Yes, it did.
    Ms. Kelly. Now, you also told the committee that a second 
flight left Tripoli the next morning, September 12th, between 
6:00 and 6:30 a.m. Is that correct?
    Mr. Hicks. I think the flight actually left a little later, 
but, again, the timelines are still not--have merged, to a 
great extent, given time.
    Ms. Kelly. Okay. You said that four military personnel were 
told not to board that plane and that this call came from 
Special Operations Command Africa. Is that right?
    Mr. Hicks. That's what I understand.
    Ms. Kelly. Okay. During the interview, you were asked if 
you knew what was the rationale that you were given that they 
couldn't go ultimately, and you explained, I guess they just 
didn't have the right authority from the right level. Is that 
correct?
    Mr. Hicks. I think that's correct.
    Ms. Kelly. Okay. So you basically don't know why they were 
told not to get on the plane, right?
    Mr. Hicks. I have no idea why they were told not to get--
why they were not allowed to go get on that airplane.
    Ms. Kelly. Thank you.
    Just this morning, the Department of Defense released a 
press release, if I can read it.
    ``The team leader called Special Operations Command Africa 
to update them that the movement of U.S. personnel to the 
Tripoli annex was complete. He then reported his intention to 
move his team to Benghazi aboard the Libyan C-130. As the 
mission in Benghazi at that point had shifted to evacuation, 
the Special Operations Command Africa operations center 
directed him to continue providing support to the embassy in 
Tripoli.
    ``We continue to believe that there was nothing this group 
could have done had they arrived in Benghazi, and they 
performed superbly in Tripoli. In fact, when the first aircraft 
arrived back in Tripoli, these four played a key role in 
receiving, treating, and moving the wounded.''
    I would like to yield the rest of my time to Mr. Connolly.
    Mr. Connolly. I thank my colleague.
    Chairman Issa. Does the gentlelady want that in the record?
    Ms. Kelly. Yes, please.
    Chairman Issa. Without objection, it will be placed in the 
record.
    Mr. Connolly. Mr. Hicks, you said rather emphatically that 
the video had no material impact in Libya?
    Mr. Hicks. That's correct.
    Mr. Connolly. And you talked several times about 
conversations, phone conversations, with the Prime Minister, 
who referred to it as a terrorist act, not as a protest. Is 
that correct?
    Mr. Hicks. That's----
    Chairman Issa. The President.
    Mr. Connolly. Oh, the President. But we don't want to leave 
a misimpression here. I mean, the Libyan Government is somewhat 
inchoate at this time.
    Mr. Hicks. That's correct.
    Mr. Connolly. I mean, it's hardly a unified government.
    Mr. Hicks. That's correct.
    Mr. Connolly. And, for example, you were busy on the day, 
but on September 12th, the New York Times published a story 
quoting Libya's Deputy Interior Minister, Wanis al-Sharif, who 
said that his initial instinct was to avoid inflaming the 
situation by risking a confrontation with people angry about 
the video in Libya. He said he also criticized the Americans at 
the mission for failing to heed what he said was the Libyan 
Government's advice to pull its personnel or beef up its 
security, especially in light of recent violence in the city 
and the likelihood that the video would provoke protest.
    That same article interviewed people engaged in the assault 
in Benghazi who cited, according to The New York Times, the 14-
minute video, that this was due to their anger.
    Now, my only point is the Libyan Government doesn't speak 
with just one voice; there were disparate voices. Some, in 
fact, did see the video, apparently, at the time, as an 
influence. And it's a little--I don't want to mislead the 
public that there was one unified perspective, and that was--
that narrative is entirely false and was at the time.
    Would you care to comment?
    Mr. Hicks. Sure.
    Our assessment in the embassy was that the video was not an 
instigator of anything that was going on in Libya.
    Now, I understand that these people were quoted. In fact, 
on September 20th, Prime Minister El-Keib raised the video in 
front of the press when Deputy Secretary Burns was there. But 
we saw no demonstrations related to the video anywhere in 
Libya. The only event that transpired was the attack on our 
consulate on the night of September 11th.
    Mr. Connolly. Thank you very much.
    I thank my colleague.
    And, Mr. Chairman, if there is no objection, I would like 
to enter into the record the full New York Times article dated 
September 12th, ``Libya Attack Brings Challenges for U.S.''
    Chairman Issa. I certainly think, under the circumstances, 
it would be appropriate to put into the record something that 
says that we were stupid to still have a consulate in Benghazi, 
that it was an unreasonable risk and it should have been closed 
down in light of the danger, and, in fact, there may have been 
a video reaction. I think that's a good balance.
    Mr. Connolly. Well, I thank the chairman for that, the 
unanimous consent comment.
    Chairman Issa. With that, we go to the gentleman from 
Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    First, to the families, thank you for the heroism that your 
sons exhibited. I would tell you that.
    To the three of you at the stand, thank you for your 
bravery, particularly in light of how we treated whistleblowers 
today and in the past.
    Mr. Hicks, did you ever question officials in Washington 
about what Secretary Rice said on the Sunday talk shows?
    Mr. Hicks. Yes. Again, when Assistant Secretary Jones 
called me after the talk show event, I asked her why she had 
said there was a demonstration when we had reported that there 
was an attack.
    Mr. Gosar. Was she the only one that you talked to?
    Mr. Hicks. Yes.
    Mr. Gosar. Okay. And her reaction was?
    Mr. Hicks. Her reaction, again, was, ``I don't know.'' And 
it was very clear from the tone that I should not proceed with 
any further----
    Mr. Gosar. So she was very curt?
    Mr. Hicks. Yes.
    Mr. Gosar. Okay. Did you receive any negative feedback 
based on this conversation?
    Mr. Hicks. Over the next month, I began to receive 
counseling from Assistant Secretary Jones about my management 
style, things that I basically was already doing on the ground. 
But, nevertheless, I implemented everything that she asked me 
to do.
    Mr. Gosar. Something that you were highly recommended and 
highly accommodated for, they're questioning it all of a 
sudden.
    Can I have the video to be played on the screen, please?
    [video shown.]
    Mr. Gosar. Well, I'm really mad. But, Mr. Hicks, would 
you--could I give you the opportunity to respond to that 
question, what difference does it make?
    Mr. Hicks. I think the question is, what difference did it 
make?
    Mr. Gosar. Yep.
    Mr. Hicks. President Magarief was insulted in front of his 
own people, in front of the world. His credibility was reduced. 
His ability to lead his own country was damaged. He was angry. 
A friend of mine who ate dinner with him in New York during the 
U.N. season told me that he was still steamed about the talk 
shows two weeks later. And I definitely believe that it 
negatively affected our ability to get the FBI team quickly to 
Benghazi.
    Mr. Gosar. So that definitely impacted getting the FBI to 
look at the crime scene, did it not?
    Mr. Hicks. Absolutely.
    Mr. Gosar. So when you talked to the Libyan Government, 
were they responsive when you asked about access for the FBI?
    Mr. Hicks. It was a long slog of 17 days to get the FBI 
team to Benghazi, working with various ministries to get, 
ultimately, agreement to support that visit, to get them to 
Benghazi. But we accomplished that mission. But, again, at the 
highest levels of the government, there was never really a 
positive approval.
    Mr. Gosar. So this false--? thing to a spontaneous reaction 
to a video was a direct contravention of the explanation 
offered by this President, the President of Libya. And the 
facts on the ground impact our ability to investigate the crime 
scene afterward.
    How long was it, as you said, before the FBI was allowed 
access into Benghazi to examine that crime scene?
    Mr. Hicks. Seventeen days.
    Mr. Gosar. Seventeen days. Was the crime scene secure 
during that time?
    Mr. Hicks. No, it was not. We repeatedly asked the 
Government of Libya to secure the crime scene and prevent 
interlopers, but they were unable to do so.
    Mr. Gosar. So let me get the timeline finalized here. So 
the FBI is sitting in Tripoli for weeks, waiting for the 
approval of the Libyan Government to travel to Benghazi. Is 
that appropriate?
    Mr. Hicks. Well, they were attempting to do their job from 
Tripoli as best they could.
    Mr. Gosar. But they were denied access into Benghazi, 
right?
    Mr. Hicks. Correct.
    Mr. Gosar. So what were they doing with their time?
    Mr. Hicks. They were interviewing witnesses that they could 
find in Tripoli and could meet with in Tripoli. And they were 
also engaging with the government in order to develop a 
cooperative investigation with the Libyans, who had sent an 
investigative team--an investigator to Benghazi.
    Mr. Gosar. Were you interviewed by the FBI?
    Mr. Hicks. No, I was never interviewed by the FBI.
    Mr. Gosar. Never? Hmm. Nice story.
    I yield back my time.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Nevada, Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here.
    And, you know, it's my understanding that we've had nine 
oversight hearings on Benghazi since the horrific attacks on 
our consulate on September 11th, 2012. And like many of my 
colleagues have expressed to the family, I believe that we need 
to continue to do everything within our power as Congress to 
get to the solutions and the recommendations that will prevent 
this from happening again. And I think that, in addition to our 
condolences, the things that we need to do most is our job, to 
come up with the recommendations to prevent this.
    One of the overall conclusions of the Accountability Review 
Board was just that, that ``Congress must do its part to meet 
this challenge and provide necessary resources to the State 
Department to address security risks and meet mission 
imperatives.'' That was a direct statement out of the Review 
Board recommendation.
    And I think each of you agree that Congress must do its 
part. Am I correct, yes or no? Real quick.
    Mr. Thompson. Yes.
    Mr. Horsford. So, you know, Mr. Chairman, I just would hope 
that, after this hearing, after nine oversight hearings, that 
we will begin to work on some specific recommendations that we 
can bring forward and that all of us working together can do 
our job to protect our embassies. I think that's what the 
public wants. I believe and hope that that's what the families 
want in the memory and the legacy of those who lost their 
lives.
    And I would say that it does cost money. Mr. Nordstrom, I 
know you say it's not just about money, but it also is about 
properly prioritizing budget considerations. And, you know, in 
the past, you know, my colleagues on the other side have not 
been willing to make the kinds of serious and sustained 
commitment to funding that are necessary for large-scale and 
long-term security projects like building facility 
improvements, for example.
    Chairman Issa. Would the gentleman yield briefly?
    Mr. Horsford. May I?
    Chairman Issa. Of course.
    Mr. Horsford. Thank you.
    And so, in both the 2011 and 2012 budget cycles, the 
budgets gave the State Department hundreds of millions of 
dollars less than what was requested. The fiscal year 2013 
budget as proposed by the other side proposed even more cuts. 
They want to reduce the international affairs budget by more 
than $5 billion less than it was in fiscal year 2012. That is a 
9.8 percent cut to Diplomatic Security when extrapolated across 
the whole foreign affairs budget.
    By the fiscal year 2016, the proposed budget by the other 
side further cuts funding to international affairs by another 
$5 billion. This represents a 20 percent cut to Diplomatic 
Security when extrapolated over the entire foreign affairs 
budget.
    So these are serious and significant cuts, and we cannot 
pretend that they don't have consequences.
    And so I know that my colleagues have talked several times 
about holding people accountable. Well, I hope that one of 
those groups that we will hold accountable are ourselves, as 
Members of Congress, to do our job to properly fund the safety 
of our embassies so that this never happens again.
    I urge my Republican counterparts to work with us in a 
bipartisan effort to actually fund these improvements to our 
embassy security and to follow through on the 29 ARB 
recommendations that have already been made and those that we 
believe should also be supported from this hearing.
    Thank you, Mr. Chairman.
    Chairman Issa. We now go to the gentleman from 
Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    I note for the record that Charlene Lamb, who testified 
before this committee at a previous time, was asked 
specifically the question as to whether or not funding issues 
impacted the actions that took place, and she said no.
    And I'm really intrigued at this point in time by some of 
the commentary, because one of the things--I would like to 
follow up on the questioning, Mr. Nordstrom, that came to you 
from Mr. Lankford with regards to some of the decisions that 
were made. Because being in Benghazi, having the Secretary--
because I'm going to tell you, I am struggling to find out how 
we had a United States Ambassador in a marginally safe American 
compound in an increasingly hostile area on an iconic day like 
September 11th with limited security.
    And I think that there are some issues that you were 
talking about first, decisions that were made about allowing 
occupancy in the first place. Could you tell me quickly about 
how that was enabled to be approved?
    Mr. Nordstrom. That's the same question I still have to 
this day.
    Mr. Meehan. You do not know. But you do know, according to 
the law, it appears that it must be signed off by the Secretary 
of State, and there is no delegation.
    Mr. Nordstrom. Certainly, for parts of it, yes, for the 
second portion of it.
    Mr. Meehan. Following up, on July 31st, it's a fact that 
there were--I go back on the record--there were 16 SSTs, 
Special Forces, in Libya, 14 Department of State security 
personnel. On August 31st, just shortly before, that had been 
reduced to six regulation individuals in Tripoli, three in 
Benghazi.
    Why the cutback on security?
    Mr. Nordstrom. Again, that's one of the questions that I 
had. I've never seen it addressed in the ARB or anything else, 
is, why were these decisions that we made turned down?
    In fact, there was a proposal that went back all the way to 
a month after we had arrived asking for $2.1 million for 
staffing to have 19 DS agents maintained throughout that time 
period. I still don't have any understanding as to what 
happened to that proposal. That went to the Under Secretary of 
Management as part of the----
    Mr. Meehan. Did you have confidence in the ability of the 
locals in the country who were purportedly designed to provide 
security for you, did you have confidence in their ability to 
provide that?
    Mr. Nordstrom. I think, to put it succinctly, it was the 
best bad plan. It was the only thing we had.
    Mr. Meehan. It was the only thing--but I didn't ask if--I 
said, did you have confidence in that?
    Mr. Nordstrom. No.
    Mr. Meehan. Did you report that at any point in time to 
officials in Washington, D.C.?
    Mr. Nordstrom. We did. We did note the training 
deficiencies, in particular. That was something that was always 
there.
    Certainly, we had also raised the issue of doing some sort 
of counterintelligence vetting of the people that worked for 
us. Ultimately, that was turned down, even though we wanted it, 
because the Department of State wanted post to pay the funds 
for it, which we didn't have. It had always been our 
understanding that that was going to be paid for by Washington.
    Mr. Meehan. Mr. Thompson, I know that you have background 
in counterterrorism. I'm going back on--this is testimony that 
was provided by Lieutenant Colonel Wood, who was an SST person 
doing service in Tripoli and ultimately wanted to be in 
Benghazi. He talked about Facebook threats that were made about 
Western influences in Benghazi.
    I also note then a series of issues: an RPG attack on the 
Red Cross in early May; a Red Cross second attack in June; an 
IED attack against the U.N. mission on April 6th; an IED attack 
against a U.N. convoy on April 10th; an assassination attempt 
on the British Ambassador on June 11th with RPGs; an attempted 
carjacking on August 6th of two SST officers of the United 
States.
    In your mind, in your professional opinion, would this 
suggest to you that the facility in Benghazi by a reasonable 
person with your experience or a reasonable person in the State 
Department would be likely to be considered a possible or even 
likely target of a terrorist incident?
    Mr. Thompson. It certainly had all the indicators of that, 
based on that history, yes, Congressman.
    Mr. Meehan. And in light of that and in light of your 
experience and Mr. Nordstrom's testimony, would you have been 
happy with the idea that it was allowed to be maintained under 
less than the staffing that had existed only a month before or 
2 months before and under standards which were only two in the 
entire country, according to the testimony of Mr. Nordstrom, 
that were not meeting the requirements, the minimal 
requirements of safety?
    Mr. Thompson. No, sir.
    Mr. Meehan. Mr. Nordstrom or Mr. Hicks, what is 
normalization? And why were we doing this?
    Mr. Nordstrom. That's been a question even that the ARB 
raised and others have raised. I'm not sure. I mean, 
sarcastically, we saw it as ``do more with less.''
    But I first saw that term, ``normalization,'' in that 
budget proposal, resource proposal, a month after we had 
arrived. There was already talk about normalizing our 
footprint. It was then picked up again in February when Greg's 
predecessor had met with DAS Lamb, same thing.
    It struck me as being part of some sort of script, just 
like the reason we didn't close the facility in Benghazi 
despite the risks. There was already a political decision that 
said, we're going to keep that open. That's fine, but no one's 
ever come out and said that, that we made that risk and we made 
that decision, and then take responsibility for it.
    Chairman Issa. I thank the gentleman.
    Mr. Meehan. My time has expired, but, Mr. Hicks, did you 
have a response to that, as well?
    Mr. Hicks. Normalization, to us, was moving toward being 
like a normal embassy instead of being, in a sense, under siege 
or in a hostile environment where we're surrounded by potential 
threats. And we wanted to move toward normal life. And it also 
meant a withdrawal of extra DS personnel and then a movement 
toward our Diplomatic Security personnel managing more of a 
program that included the recruitment of Libyans to provide the 
security that we needed.
    Chairman Issa. Thank you.
    Mr. Hicks, you mentioned earlier your wife being such an 
important part of your decision process. Were you planning on 
bringing her to Libya since it was normalized?
    Mr. Hicks. Mr. Chairman, thanks. Just to correct, I was 
actually selected to be DCM by Assistant Secretary for Near 
Eastern Affairs Jeff Feltman in Tripoli.
    Chairman Issa. Jeff and I spent a lot of time in the 2006 
war in Lebanon together. He's a good man.
    Mr. Hicks. Yeah.
    Chairman Issa. But as to family returning to Libya, I mean, 
normalization means you bring back dependents and so on.
    Mr. Hicks. Right.
    Chairman Issa. Was that part of what was going on?
    Mr. Hicks. That's what we were pointing toward, in fact. 
And Chris and I had a long talk on the night of September 9th 
before he left for Benghazi, and we talked about this, that we 
felt optimistic about the trajectory. Even though all of these 
security problems were going on, we felt that the Libyans were 
getting their political act together. They were going to pull 
together a government. They were going to get a constitution. 
Their economy was going to pick up. They were going to 
stabilize.
    And my next project was, in fact, to reach out to the board 
members of the American school and start working with them 
about the possibility of opening the school in September. And 
that would, of course, have allowed me to bring my family to 
join me in Tripoli. And that was actually a condition that my 
wife made for my going to my second unaccompanied assignment.
    Chairman Issa. I'm sure she's glad to have you home now, 
though.
    Mr. Hicks. Yes, she's very glad to have me home.
    Chairman Issa. With that, we go to the gentleman from New 
Mexico, who has been patiently waiting.
    Oh, I'm sorry. Who is next?
    Mr. Cardenas next.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    My condolences to all the families and everybody who 
suffered from this tragedy. And, also, I hope that you pray for 
us that we do the right thing as policymakers and not as 
politicians.
    Mr. Nordstrom, you have stated here that you felt the 
security situation in Benghazi was unsafe. As a matter of fact, 
you've been very clear on placing blame with a number of 
people.
    So, given everything that was going on at the time and 
everything you have said today and what you said on October 
10th, at any point did you suggest to Ambassador Stevens that 
he should not travel to Benghazi on September 11th, the 
anniversary, and that the situation was volatile and that the 
facility, per your own assessment, was not secure?
    Mr. Nordstrom. I had departed post on 26th of July, so I 
didn't have the opportunity to do that. I would defer that to 
the RSO that was there at the time, John Martinec. It's my 
understanding that he also had raised some concerns and 
discussed that.
    Mr. Cardenas. So you have your opinions today, but you did 
not have those same opinions back then?
    Mr. Nordstrom. I wasn't at post for September 11th. I 
departed 6 weeks prior, so----
    Chairman Issa. If the gentleman would indulge, I think he's 
asking, what was your opinion on the day you left relative to 
Benghazi?
    Mr. Nordstrom. Oh, okay. I understand.
    I had actually met with the Ambassador prior to that as 
part of an out briefing, and he and I talked about kind of the 
way forward. And the threats in the east were something that we 
talked about. I had mentioned that in October, as well. It was 
very concerning to us, the increasing in the targeting. It was 
something that I had mentioned back to our headquarters in 
reporting.
    It was something that the Ministry of Interior brought up 
when the Ambassador went and met with the Minister in July to 
talk about requesting static security. They highlighted, number 
one, growing extremism in the east, particularly in Benghazi 
and Derna and Sirte.
    So, absolutely, that was something that we discussed. And 
we were concerned, in particular, that we were not getting the 
resources.
    Mr. Cardenas. So you stressed that you did stress concerns, 
but not to the point where you said, ``I wouldn't go if I were 
you,'' or, ``You shouldn't go''?
    Mr. Nordstrom. We never had that discussion, in part 
because the Ambassador had not indicated any sort of desire to 
travel to Benghazi. My hope would have been that they would 
have had resources there to augment any such travel.
    Mr. Cardenas. And resources require other kinds of 
resources. I mean, if you have resources on the ground, they 
require actual funding, et cetera. There's a balance to 
creating the kind of atmosphere and security that would be 
required to meet any concerns, correct?
    Mr. Nordstrom. Sure. And what we were looking at is that 
you were going to have a downsizing of personnel in Tripoli. So 
anytime the Ambassador would have traveled, that would have 
impacted security in both locations because you would have been 
splitting up resources, which is what I think ultimately 
happened.
    Mr. Cardenas. Mr. Hicks, can you shed some light on this 
discussion that we're having?
    Mr. Hicks. In the two planning meetings that we had for 
Ambassador Stevens' trip to Benghazi, Regional Security Officer 
John Martinec raised serious concerns about his travel. Because 
of those concerns, the Ambassador adjusted his plans for that 
trip.
    First, he agreed that he would go in a low-profile way, 
that his trip would not be announced in advance, we would not 
do any planning of meetings until right before he went.
    And, second, he eventually decided also to shorten his 
trip. He initially had planned to go on the 8th. He went on the 
10th instead to narrow the time frame that he would be in 
Tripoli.
    The third step that he took was the one public event that 
he planned would take place at the very end of his trip just 
before he left.
    Mr. Cardenas. So, basically, you're describing what I feel 
to be consistent. What I've known of the Ambassador is that he 
was very, very committed. He did listen to advice, et cetera, 
but he was very determined, and he continued to do his job.
    Mr. Hicks. Exactly. He went there to do his job. He felt 
that he had a political imperative to go to Benghazi and 
represent the United States there in order to move the project 
forward to make the Benghazi consulate a permanent constituent 
post.
    Mr. Cardenas. Okay. I'm so proud of his commitment, and 
that is very consistent with everybody who has come across him. 
I just hope that we can have that commitment up here as elected 
officials to do the right thing so this never happens again.
    Thank you so much.
    Chairman Issa. Thank you.
    We now go to the gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Today's hearing is about one thing, one simple thing: It's 
finding the truth. And I know these families here want the 
truth, and I know the American people want the truth. But yet I 
listen to this questioning today, and there seems to be a real 
partisan feel to finding the truth, and I don't understand 
that.
    I mean, if you listen to the other side, you would think 
it's time just to move on from this. They would agree with 
Secretary Clinton, right, that they would just say, what 
difference does it make? Well, some of the family members I 
talked to before this hearing, I guarantee this hearing makes a 
difference today. We want to know who made some of these 
decisions and why they made some of these decisions.
    The only encouraging part that I heard from the other side 
is that they feel that you all should be protected, your 
ability to testify here and your desire to testify here should 
be protected, so that's good.
    And I want you to know I really appreciate you all being 
here. It does matter. It matters to a lot of people.
    Mr. Hicks, after your visit with Congressman Chaffetz--or 
Congressman Chaffetz' visit, did you feel any kind of shift in 
the way you were treated?
    Mr. Hicks. Yes, again, I did. When Assistant Secretary 
Jones visited shortly after--prior to the visit, Assistant 
Secretary Jones had visited, and she pulled me aside and again 
said I needed to improve my management style and indicated that 
people were upset. I had had no indication that my staff was 
upset at all, other than with the conditions that we were 
facing.
    Following my return to the United States, I attended Chris' 
funeral in San Francisco, and then I came back to Washington. 
Assistant Secretary Jones summoned me to her office, and she 
delivered a blistering critique of my management style. And she 
even said, exclaimed, ``I don't know why Larry Pope would want 
you to come back.'' And she said she didn't even understand why 
anyone at Tripoli would want me to come back.
    Mr. DesJarlais. Okay. But yet, right after the attack and 
before the attack, you had all kinds of praise for your 
leadership. You got a call from Secretary Clinton, you got a 
call from the President praising you for your service and how 
you handled things.
    Was there a seminal moment in your mind to when all this 
praise and appreciation turned into something else?
    Mr. Hicks. In hindsight, I think it began after I asked the 
question about Ambassador Rice's statement on the TV shows.
    Mr. DesJarlais. Uh-huh. And, you know, anyone listening to 
this hearing today, if they don't have questions--I think there 
was some comment made about, well, there was a few people in 
Libya that had a problem with this YouTube video, but the 
overwhelming evidence is that this was a terrorist attack. 
Everybody knew it, but yet someone higher up decided to run 
with this story, this facade, and they kept it for a long time. 
And I would think that everyone sitting here wants to know the 
answer, why that was done.
    So what other impediments have you had, or how have you 
felt since deciding to come forward? Do you feel like they've 
treated you any differently from that point on?
    Mr. Hicks. Well, after--I was angry with the way I had been 
criticized. I thought it was unfounded. I felt like I had been 
tried and convicted in absentia. But I decided I was going to 
try to--I was going to go back and try to redeem myself in 
Tripoli.
    Mr. DesJarlais. What is your job right now?
    Mr. Hicks. What is my job? I am a foreign affairs officer 
in the Office of Global Intergovernmental Affairs.
    Mr. DesJarlais. Okay. A far cry from where you were in your 
level of capabilities?
    Mr. Hicks. Yes, sir.
    Mr. DesJarlais. Yeah. So when you came back to the United 
States, were you planning on going back to Libya?
    Mr. Hicks. I was. I fully intended to do so.
    Mr. DesJarlais. And what do you think happened?
    Mr. Hicks. Based on the criticism that I received, I felt 
that if I went back, I would never be comfortable working 
there. And, in addition, my family really didn't want me to go 
back. We had endured a year of separation when I was in 
Afghanistan in 2006 and 2007. And that was the overriding 
factor.
    So I voluntarily curtailed. I accepted an offer of what's 
called a no-fault curtailment. That means that there would be 
no criticism of my departure of post, no negative 
repercussions. And, in fact, Ambassador Pope, when he made the 
offer to everyone in Tripoli when he arrived--I mean Charge 
Pope--when he arrived, he indicated that people could expect 
that they would get a good onward assignment out of that.
    Mr. DesJarlais. All right. Well, thank you.
    I would just close with the fact that, you know, we have a 
President that's made it his policy since he took office not to 
knee-jerk or jump to conclusions when it comes to some tragedy 
or event, but yet, why did he do it in this case? Why was he 
quick to jump to the conclusion that this was a protest due to 
a YouTube video? I think we all know that's not true, and I 
think we all need to find the answer to that.
    Chairman Issa. Thank you.
    Mr. Hicks. Could I----
    Chairman Issa. Of course.
    Mr. Hicks. Could I just clarify? The job that I have right 
now--between my curtailment and my finding of this job that I 
have now, I had no meaningful employment. I was in a status 
called Near Eastern Affairs overcomplement. And the job now is 
a significant--it's a demotion. ``Foreign affairs officer'' is 
a designation that is given to our civil service colleagues who 
are desk officers. So I've been effectively demoted from deputy 
chief of mission to desk officer.
    Chairman Issa. Let me just interject one thing at this 
time. In your opening statement, I note--and it's already in 
the record, but I want to make sure that it's separately placed 
in at this moment--you included an unclassified document 
purported to be from the President of the United States to the 
President of Libya. Is that correct?
    Mr. Hicks. Yes.
    Chairman Issa. I want to be very careful. It doesn't have a 
signature. It looks like it was electronically transmitted.
    Mr. Hicks. It's a cable.
    Chairman Issa. This cable, was it, as far as you know, from 
the President of the United States directly?
    Mr. Hicks. Yes.
    Chairman Issa. And was it delivered to the President of 
Libya directly?
    Mr. Hicks. It was.
    Chairman Issa. And does it mention ``terrorist attack'' 
anywhere else? And I would note that this is September 17th, 
which would be that Monday afterwards.
    Does this, in your opinion, in any way, shape, or form 
describe the unfortunate circumstances as terrorism to the 
President of Libya?
    Mr. Hicks. I believe it does.
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. Yes?
    Mr. Cummings. We--I don't even know----
    Chairman Issa. It's in his opening statement. It was 
delivered to everybody.
    Mr. Cummings. Okay.
    Chairman Issa. These are inclusions. But it says, ``Thank 
you for responding quickly to the tragic attack'' in Benghazi. 
And I'm reading through this thing, you know, and--well, it's 
in the record.
    But, as far as I can tell, it speaks of it as a tragic 
attack. It doesn't speak to it, even after Ambassador Rice 
spoke, it doesn't speak to it as a terrorist attack or our war 
on terror or fighting terrorism. Is that correct?
    Mr. Hicks. Yeah, I don't have it before me at this moment.
    Chairman Issa. Okay, we'll deliver it back to you just to 
make sure. Someone may want to follow up. Oh, your counsel has 
it for you.
    Mr. Hicks. Oh, sorry. Yeah, it says ``outrageous attack.''
    Chairman Issa. Okay. So it's an outrageous attack, but it 
doesn't talk about us working together to fight terrorism, does 
it?
    Mr. Hicks. No.
    Chairman Issa. Okay. Thank you for including that in the 
record.
    We now go to the gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman. And I 
would also like to join my colleagues on both sides of the 
aisle in expressing our condolences to the families of 
Ambassador Stevens, Sean Smith, Tyrone Woods, and Glen Doherty, 
and all of those others injured. I want to quickly clear up 
just a couple of loose ends from earlier testimony, and then I 
want to ask a couple of questions about the February 17th 
Martyrs Brigade.
    But first off, Mr. Hicks, you have testified on numerous 
occasions that you never got a chance to read the classified 
ARB report. You do have a security clearance that you sat in 
the meeting with Mr. Chaffetz that your minder couldn't attend. 
So you do have a security clearance.
    Mr. Hicks. Yes, sir.
    Mr. Farenthold. All right. Then Mr. Thompson, you testified 
in answer to the question as to why the F.E.S.T. team, your 
response team was not deployed, that one of the things you 
heard was it might not be to a safe location. Do you guys train 
to deploy to Canada or the Caribbean islands or other safe 
locations, or are you trained to respond to hot spots?
    Mr. Thompson. Hot spots.
    Mr. Farenthold. And would there have been any reluctance on 
the part of you or any of the men or women in your organization 
to go to Libya or anywhere in the world that you were needed to 
protect Americans?
    Mr. Thompson. I hang out with a very noble and brave crowd. 
The answer is no.
    Mr. Farenthold. I didn't think so.
    And Mr. Hicks, I want to talk a little bit about what was 
going on in Libya at the time. There had just been a 
revolution. We had a newly-elected President, democratically-
elected. We were involved through our NATO partners in that. 
This was probably a win for the United States. We had a 
friendly government, relatively friendly government going in. 
And then we all but make the new President out--we throw him 
under the bus on the Sunday shows. And you testified that that 
may have been one of the reasons the FBI was slow getting in. 
Do you think it overall damaged our relationship beyond that 
with Libya?
    Mr. Hicks. It complicated things for that period of time, I 
think particularly with respect to the FBI mission. But the 
Libyan people, as a poll released by Gallup before 9/11 
attests, valued our relationship highly, in fact higher than 
almost any other Arab country. It was over 50 percent of the 
population.
    Mr. Farenthold. And isn't that one of the reasons 
Ambassador Stevens went to Benghazi on that fateful day, is to 
continue to show our support for what was going on in Libya at 
the time?
    Mr. Hicks. Absolutely. Especially to the people of 
Benghazi.
    Mr. Farenthold. All right. Now I want to go on, there have 
been some reports floating around. Mr. Nordstrom, can you tell 
me what the role of the February 17 Martyrs Brigade was in 
protecting the consulate in Benghazi?
    Mr. Nordstrom. Certainly. That was the unit, for lack of a 
better term, that was provided to us by the Libyan Government.
    Mr. Farenthold. Now, were you aware of any ties of that 
militia to Islamic extremists?
    Mr. Nordstrom. Absolutely. Yeah. We had that discussion on 
a number of occasions, the last of which was when there was a 
Facebook posting of a threat that named Ambassador Stevens and 
Senator McCain, who was coming out for the elections. That was 
in the July time frame. I had met with some of my agents and 
then also with some annex personnel. We discussed that.
    Mr. Farenthold. And Mr. Hicks, you were in Libya on the 
night of the attack. Do you believe the February 17th militia 
played a role in those attacks, was complacent in those 
attacks?
    Mr. Hicks. Certainly elements of that militia were 
complicit in the attacks. The attackers had to make a long 
approach march through multiple checkpoints that were manned by 
February 17 militia.
    Mr. Farenthold. All right. Okay. Mr. Hicks, Mr. Nordstrom, 
I am going to ask you both this question. I am stunned that the 
State Department was relying on a militia with extremist ties 
to protect American diplomats. That doesn't make any sense. How 
does that happen?
    Mr. Nordstrom. You mean like in Afghanistan, where Afghanis 
that are working with our military that are embedded and turn 
on them and shoot them? Or Yemen, where our embassy was 
attacked in 2008 by attackers wearing police uniforms? Or in 
Saudi Arabia in Jeddah, we had an attack in 2004, the Saudi 
National Guard that was protecting our facility reportedly ran 
from the scene, and then it took 90 minutes before we could get 
help.
    Mr. Farenthold. Pretty high unemployment in the United 
States. I would imagine there are some people who would be 
willing to take--Americans that would be willing to take jobs 
overseas.
    Mr. Nordstrom. We couldn't agree with you more. But 
unfortunately as I said earlier, one of the things that we ran 
into, that was the best bad plan. That was the unit that the 
Libyan Government had initially designated for VIP protection. 
It is very difficult to extract ourselves from that.
    Mr. Farenthold. I certainly hope that these hearings will 
result in us not having to rely on the best of bad plans, and 
we can use folks like Mr. Thompson and his group for what they 
were intended and secure our personnel.
    I see I am out of time, Mr. Chairman.
    Chairman Issa. Only by a little. We now go to the 
distinguished gentleman from the great State of Washington, the 
chairman of the Resources Committee, Mr. Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. And let me 
add my voice to all of my colleagues' that thank you for your 
service. I think while we all say it, it probably should go 
without saying, but nevertheless we really do appreciate that.
    Mr. Hicks, I want to follow up. You may have answered this, 
so I just want to get a clarification, because Mr. Jordan was 
entering into questions regarding the lawyer that came in and 
was not allowed to go to the meeting because he wasn't 
qualified to go to that meeting. My question specifically is to 
back up. The State Department sent this lawyer. Were you told 
why the lawyer was sent?
    Mr. Hicks. He was sent to participate in all the meetings 
and all events associated with Congressman Chaffetz's visit.
    Mr. Hastings. Did you find that unusual?
    Mr. Hicks. It never had occurred before in my career.
    Mr. Hastings. Okay. But the State Department did say that 
this lawyer was going to come and participate in all of the 
meetings?
    Mr. Hicks. Yes.
    Mr. Hastings. You were told that. And then of course he 
couldn't because of the protocol. You mentioned that the tone 
of the State Department as it related to you changed probably 
after the Rice interview.
    Mr. Hicks. It began to change, yes.
    Mr. Hastings. Yeah. Explain, just give us some examples of 
how things changed.
    Mr. Hicks. Again, I began to have my management style 
counseled by Assistant Secretary Jones. When she visited, she 
again counseled me on my management style and said staff was 
upset. I had had no indication of staff being upset. And then 
again when I returned to Washington, she delivered a very 
blistering critique of my style, and again said--exclaimed, ``I 
don't know why Larry Pope would want you back.''
    Mr. Hastings. That leads to a very obvious question then. 
Prior to September 10th, 2012, had you received any negative 
feedback from your superiors?
    Mr. Hicks. No. Chris and I had developed a very positive 
relationship. He trusted me, I trusted him. And we were working 
together very, very well. And morale was high.
    Mr. Hastings. Well, I suppose in a career as long as yours 
you might have some disagreement with your superiors. Was it to 
the extent that you have felt that you were treated after this 
event last September, compared to prior maybe disagreements you 
may have had with your superiors? I guess on a scale of 1 to 
10, 10 being the worst, you were----
    Mr. Hicks. Ten. Ten.
    Mr. Hastings. After. Okay. I guess that's what I would like 
to--wanted to follow up on. You mentioned that you feel in the 
job you have it is really a demotion from the qualifications 
that you have had in your career in the service. Have you 
talked to any of your colleagues or any senior leaders within 
the State Department regarding this? And if so, what was those 
conversations all about?
    Mr. Hicks. I spoke with--well, after a couple of friends 
who are outside the Department intervened with senior officials 
about my situation, the Deputy Secretary Burns and the Director 
General said that I would be taken care of. Same thing that 
Larry Pope had indicated. And so I met with the Principal 
Deputy Assistant Secretary for Human Resources, Hans Klemm, and 
I talked to him about what options might be available to me. 
And basically, the answer was I would have to go through the 
formal normal bidding process for assignments and persuade 
someone that I should be hired. And then the conversation with 
Deputy Secretary Burns was centered around discussions I had 
had with the leadership of our embassy in Mexico City about the 
head of the political section job there, which would be a very 
good job. And he said that he would support that, but I had to 
go through the process. And it is a very long process, since 
the position--that position is at a higher grade.
    Mr. Hastings. Let me ask you this. Going through the 
process, and I understand there is protocols, but would that 
strike you as unusual for somebody with your background and the 
position that you had in Libya and other areas?
    Mr. Hicks. I was surprised that I was having to go through 
the process, the normal process. And especially when the 
Ambassador in Mexico City had talked to Deputy Secretary Burns 
about bringing me on as his political counselor.
    Mr. Hastings. Well, I heard my colleagues on the other side 
of the aisle say that if there is any retribution--that's my 
words, not your words--any retribution on this that you will 
have the full support of your colleagues. Let me lend my 
support, and I think the support of everybody here. I think a 
bipartisan support on somebody that comes forth that has a 
difference of agreement on a policy issue, or a decision that 
killed four Americans deserve to have whatever we can give to 
you. So thank you very much. And I see my time has expired.
    Chairman Issa. Well, and the time that we can ask witnesses 
to stay seated without a break has also expired. So for those 
of us who were able to get up and come back and forth, we are 
going to take about 10 minutes. I would ask the witnesses, you 
can either go through that door or this door, to use facilities 
that are available there without going out into the public. And 
then we will reconvene in about 10 minutes. Thank you.
    [recess.]
    Chairman Issa. The committee will come to order again. I 
have been advised that we expect to have votes on the House 
floor at approximately 5 o'clock. We can work until about 5 
minutes into those votes. After that, we will adjourn. The 
expectation is we will not come back. So for our three 
witnesses, for the families, and for the attorneys, let me 
assure you the end is in sight.
    With that, we go to the gentlelady from Wyoming, Mrs. 
Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. I too want to thank 
you gentlemen for this long day. And for the families, I offer 
my most sincere condolences from my constituents. They think 
about you all the time. First question, Mr. Nordstrom. Now, do 
I understand you had responsibility for security in Libya while 
you were there?
    Mr. Nordstrom. That's correct.
    Mrs. Lummis. And then you left in July. Is that correct?
    Mr. Nordstrom. That's correct.
    Mrs. Lummis. Now, before you left did you make security 
recommendations to Washington, D.C.?
    Mr. Nordstrom. No. Well, we do an out--internal report, but 
that's not really a place where we put recommendations. It's 
more laying out the situation, the crime, the political 
situation. And a lot of that reporting I had done previously 
with Washington.
    Mrs. Lummis. And so they had recommendations from you? Or 
not?
    Mr. Nordstrom. It is my understanding, yes, they had wanted 
a transition plan specifically on how we were going to 
transition from the SST and the DS agents to our local 
bodyguards. That was submitted to them February 15th.
    Mrs. Lummis. And do you know were those--was that 
implementation plan accepted? Was it implemented?
    Mr. Nordstrom. I never really got any feedback from 
Washington. That was one of the things that surprised me even 
when I left post. I was never contacted by DS leadership or 
management from the date I left on the 26th to this date. The 
only time I had any interaction was preparing before the 
October hearings. But they have never contacted me to ask me on 
thoughts about Libya, suggestions, anything like that.
    Mrs. Lummis. Mr. Hicks, do you know whether security 
recommendations were implemented? Were there security 
recommendations that were implemented?
    Mr. Hicks. John Martinec, our RSO, came on board, and he 
was following up on many of the things that Eric was working on 
before to strengthen our security posture in Libya. After the 
attack--attacks, John and I worked on a list of physical 
security improvements that had to be made in Tripoli in order 
for us to remain there. And I cabled that in, that list in to 
the Department after Congressman Chaffetz's visit. And I 
learned later that that cable was not well received by 
Washington leadership. To the ARB's credit, when they saw that 
cable they sent it to Under Secretary Kennedy and insisted that 
every recommendation in that cable be implemented.
    Mrs. Lummis. Thank you. I want to switch gears a little 
bit. Mr. Hicks, are you aware of any efforts by department 
officials to limit department witnesses' access to information 
about the attack prior to their testimony before Congress?
    Mr. Hicks. I have never seen the classified ARB report. So 
the answer is in my respect, yes.
    Mrs. Lummis. Mr. Nordstrom, do you know whether the State 
Department consciously sought to limit your awareness of 
certain information prior to your testimony before this 
committee?
    Mr. Nordstrom. I am not aware of that.
    Mrs. Lummis. Let me ask you this. Mr. Nordstrom, I want to 
read you an excerpt from an email Ambassador Stevens sent to 
you and a colleague on July 5th, 2012. The email concerned a 
draft cable intended to request an extension of security 
personnel for the embassy, which was ultimately sent on July 
9th. Now, the Ambassador wrote, ``gentlemen I have taken a 
close look at the cable and edited it down and rearranged some 
paragraphs. My intention was to give more focus to what we are 
doing to end our reliance on TDY support and to let the 
Department figure out how to staff our needs. If it looks okay, 
please run it by DS and see if they want it front channel.''
    Then Mr. Nordstrom, can you briefly explain what Ambassador 
Stevens meant when he asked you to run it by DS and see if they 
wanted it front channel?
    Mr. Nordstrom. What he is referring to is the process by 
which we would send an official State Department cable. I had 
done that for prior requests, and it was my advice to the 
Ambassador--I do remember that dialogue--that we do in fact 
send that front channel. Within the Department of State, that 
is considered to be the official record. If I sent something by 
email or informally discussed it by telephone, it is still 
valuable, but unless it is on that cable it is not official. My 
experience in the past was that as soon as we put those 
recommendations, just as Greg just alluded to, as soon as we 
put that onto an official cable, somehow we were seen as 
embarrassing the Department of State because we are requiring 
them to live up to their end of the bargain.
    Chairman Issa. I thank the gentlelady. We now go to the 
gentleman from Georgia, Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman. I will add my thanks 
to the gentlemen on the panel. I know you have heard that over 
and over and over again from members here, but only because of 
folks believe it. And we are grateful to you not just for being 
here today, but for your decade upon decade of service. I will 
tell you, Mr. Thompson, I am comforted, and I know folks at 
U.S. posts across the world are comforted that there are men 
and women who do what you do, who live by a code that says if 
you are in harm's way we are going to come for you. Just hang 
on. And I thank you very much for that commitment.
    Mr. Thompson. Thank you.
    Mr. Woodall. Mr. Nordstrom, my questions are following up 
on my colleague from Wyoming, thinking back to early July, 
2012. Do you recall your back and forth with Charlene Lamb 
particularly?
    Mr. Nordstrom. Vividly.
    Mr. Woodall. What did you think of that decision-making 
process? Were those decisions that Ms. Lamb was making or were 
those decisions being kicked up to a higher level?
    Mr. Nordstrom. It was unclear. I think largely DAS Lamb. 
But one thing that struck me throughout the entire time that I 
was in Libya was a strange decision-making process. 
Specifically, again, the Under Secretary for Management in many 
ways was dealing directly with DAS Lamb. As her supervisor two 
levels ahead, obviously he has that ability to do that. He is 
well within his right. But it was strange that there was that 
direct relationship. And I never really saw interaction from 
Assistant Secretary of DS Eric Boswell or our Director, Scott 
Bultrowicz. It was even more clear in October when we were all 
sitting up here. There was two levels, if you will, that were 
not reflected. And it was quite a jump between DAS Lamb and 
Under Secretary Kennedy. So certainly I felt that anything that 
DAS Lamb was deciding certainly had been run by Under Secretary 
Kennedy.
    Mr. Woodall. Given the seriousness of that conversation, 
thinking about extending SST and MSD as the security support, 
did you receive an explanation for why that request was denied 
that satisfied you?
    Mr. Nordstrom. I didn't. As I testified before, you know, 
what I perceived that it was some sort of--explained to me that 
it would be somehow embarrassing or politically difficult for 
State Department to continue to rely on DOD, and that there was 
an element of that. That was never fully verbalized. But that 
was certainly the feeling that I got going away from those 
conversations.
    Mr. Woodall. Okay. And then following up on moving these 
discussions from back channel to front channel, what was the 
nature of your conversation with the Ambassador that this was 
such a serious issue that rather than leaving it with a no on 
back channels he wanted to elevate that?
    Mr. Nordstrom. That's exactly what it is. In fact, I recall 
all the way back to our first meeting with Congressman Chaffetz 
and the chairman, that was the question that I think they posed 
to me is if you knew she was going to keep saying no, why did 
you keep asking? Well, because it was the right thing to do. 
And it was the resources that were needed. And if people also 
on the other side felt that that was the right thing to do, to 
say no to that, they could at least have the courtesy to put 
that in the official record.
    Mr. Woodall. And did you receive any feedback back from 
Washington, whether a direct response to that cable or a back 
channel response to the fact that you elevated it to this front 
channel process?
    Mr. Nordstrom. By the time that we sent the one in July, 
no, I did not receive a response. In fact, that cable, as I 
understand, was never responded to, which is something that is 
relatively unheard of in the State Department. When you send a 
request cable for anything, whether it is copiers or manpower, 
they get back to you. Prior discussions, back channel ones, 
yes, I had a number of conversations with my regional director 
and also DAS Lamb where it was discouraging, to put it mildly. 
That why do you keep raising these issues? Why do you keep 
putting this forward?
    Mr. Woodall. And if you could characterize it then between 
a nonresponse or a disagreement when it comes to these issues 
of security for American personnel on the ground in Libya, were 
you receiving a nonresponse from Washington or was there 
disagreement in Washington with your assessment of levels of 
need on the ground?
    Mr. Nordstrom. I largely got a nonresponse. The responses 
that I did get were you don't have specific targeting, you 
don't have specific threats against you. The long and short of 
it is you are not dealing with suicide bombers, incoming 
artillery, and vehicle bombs like they are in Iraq and 
Afghanistan, so basically stop complaining.
    Chairman Issa. The gentleman's time has expired.
    Mr. Woodall. Thank you, Mr. Chairman.
    Chairman Issa. Anyone else can answer. Okay. Thank you.
    We now go to the gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. I know that 
it has been a long day, and lots of questions and answers have 
been shared. But let me ask the gentlemen this. Last week an 
unidentified individual, who was described as a military 
Special Ops member, appeared on national television to give an 
interview on the military's response to the attacks in 
Benghazi. The man appeared behind a black screen in order to 
conceal his identity. He suggested that military assets in 
Europe could have prevented the second attack in Benghazi. 
Specifically, he said this. ``I know for a fact that C-110, the 
EUCOM, European Command, CIF, Commander's In-Extremis Force, 
was doing a training exercise not in the region of North 
Africa, but in Europe, and they had the ability to react and 
respond.'' He further stated, ``We have the ability to load 
out, get on birds, that is aircraft, and fly there at a minimum 
stage. C-110 had the ability to be there, in my opinion, in 
four to six hours.'' He then went on to conclude that they 
would have been there before the second attack. Let me ask if 
any of you gentlemen are familiar with this claim.
    Mr. Nordstrom. Yeah. I have seen it.
    Mr. Hicks. I saw it on television.
    Mr. Thompson. Yes.
    Mr. Davis. All right. In order to investigate the claim, 
last week Ranking Member Cummings wrote a letter to Secretary 
Hagel asking for the Defense Department's response. We've now 
received that written response from the Department, and I would 
like to enter that letter into the record, Mr. Chairman.
    Chairman Issa. When we have it we will take it under 
advisement. I haven't seen it yet.
    Mr. Davis. ``In regards to the anonymous allegation that 
the CIF could have arrived in Benghazi prior to the initiation 
of the second attack on the annex, the time needed from 
alerting the CIF to landing at the Benghazi airport is greater 
than the approximately 7.5 hours between the initiation of the 
first attack and that of the second one.'' The letter also 
states this. ``The time requirements for notification, load, 
and transit alone prevented the CIF from being at the annex in 
time enough to change events.''
    Does anyone disagree with that statement?
    Mr. Nordstrom. I think the only thing I would add to that, 
not being privy to the decisions on the ground on that day, 
what's valuable is none of us, including the committee, had 
those details but for that person coming forward and making 
that allegation. I think that's the point that the majority--
minority, Mr. Cummings made, is that it is important to get 
these questions raised in this format. Otherwise we are going 
to continue to see those same kinds of allegations. Because 
people do not feel that the answers have been provided or that 
those answers have been provided in a credible way. So I think 
it is much more important to get it done in this manner.
    Mr. Davis. Thank you very much. The Defense Department's 
letter appears to be consistent with the ARB report, which said 
this, and I ``The board found no evidence of any undue delays 
in decision-making or denial of support from Washington, or 
from the military combatant commanders. Quite the contrary, the 
safe evacuation of all U.S. Government personnel from Benghazi 
12 hours after the initial attack and subsequently to Ramstein 
Air Force Base was the result of exceptional U.S. Government 
coordination and military response, and helped save the lives 
of two severely wounded Americans.'' So I don't know who that 
unidentified individual was on Fox News, but according to the 
Defense Department his claim is incorrect. And so Mr. Chairman, 
I simply wanted to get that into the record. And I thank you 
very much.
    Mr. Chaffetz. Will the gentleman yield?
    Mr. Davis. Yes.
    Mr. Chaffetz. Will the gentleman yield?
    Mr. Davis. Yes.
    Mr. Chaffetz. Thank you. I believe he yielded to me.
    Mr. Davis. I am yielding to Mrs. Maloney.
    Mrs. Maloney. Well, thank you. Thank you very much. By all 
accounts, Ambassador Stevens was a remarkable man. And I wonder 
was he aware how dangerous it was in Benghazi? And Mr. Hicks, 
were you aware how dangerous it was, yet he still made the 
decision to go there? Is that correct?
    Chairman Issa. The gentleman's time has expired, but you 
may answer.
    Mr. Hicks. Yes, the Ambassador was very well aware of the 
security situation in Benghazi. Before he went, we had the 
chance to outbrief Eric Gaudiosi, the departing principal 
officer.
    Chairman Issa. Thank you. We now go to the gentleman from 
Kentucky, Mr. Massie.
    Mr. Massie. Mr. Chairman, thank you for holding these 
hearings. Mr. Chairman, it's been said that all that's 
necessary for evil to triumph is for good men to do nothing. 
But I submit to you we have three very good men here who are 
going beyond the call of duty to come here and testify today. 
They have my commitment to protect them from any retribution 
that may come from this. And I get the sense that there may be 
other people listening to the testimony today that have answers 
that we don't have yet. And I would encourage them to come 
forward as well. We've got a lot of good answers today thanks 
to these witnesses.
    I would like to start with Mr. Thompson. I am struck by 
your long and distinguished career of hostage rescue missions. 
And some of these missions are still classified, but were 
successful. Can you remind us where you were when these events 
began to unfold?
    Mr. Thompson. At my desk in the State Department.
    Mr. Massie. So you were at your desk at the State 
Department. And you were asked to marshal the resources and the 
team to help with the rescue effort, defense effort, did you 
not?
    Mr. Thompson. Yes. My first call was to the National 
Security Council, our CT contacts there.
    Mr. Massie. And in your testimony you stated that you were 
told this was not the right time. Is that correct?
    Mr. Thompson. When I referred that question to the Under 
Secretary for Management's office, yes.
    Mr. Massie. Okay. If this wasn't the right time, when would 
be the right time? Because this is the source of frustration 
that the American public has, that I have. We are the greatest 
country in the world, and we left people there, Mr. Hicks and 
Mr. Stevens, to essentially fend for themselves, and when we 
had these resources. When would be the right time if this 
weren't the right time?
    Mr. Thompson. There is no answer to that, sir.
    Mr. Massie. Staying on that topic of time, would it have 
been a reasonable thing in an uncertain situation such as this 
crisis, where we don't know how it is going to unfold, to go 
ahead and assemble that team and put them on a plane? Were 
there sufficient communications on the plane that you could 
have pulled back a mission that was ready to deploy?
    Mr. Thompson. We practice this at least twice a year, as in 
a complete deployment to an overseas location to work with our 
interagency partners. And the team obviously, again, is staffed 
with interagency CT professionals. The answer to your question 
is yes, that plane, which is funded by DOD, has a robust 
communications suite. The senior communicator on there works 
for me. And he is very competent at his job.
    Mr. Massie. Are you convinced--I know you haven't been 
allowed to review or even contribute to the Accountability 
Review Board's report. But are you convinced that the changes 
have been made so that this won't happen again for another 
embassy?
    Mr. Thompson. No.
    Mr. Massie. Okay. That's troubling to me. And I appreciate 
your candor. Mr. Hicks, you mentioned that at 2 a.m. you had a 
phone conversation with Secretary Clinton. Is that correct?
    Mr. Hicks. Yes.
    Mr. Massie. At any time during that conversation did she 
ask what resources you might be able to use or might need?
    Mr. Hicks. Yes, she did. I asked for security 
reinforcements and transport aircraft to move our medical--our 
wounded out of the country to a medical facility.
    Mr. Massie. Was there any indication that you would receive 
air support?
    Mr. Hicks. She indicated that the Marine FAST team was 
being deployed to bolster our security posture in Tripoli, and 
that a C-17 would be coming from--coming down to take people 
back.
    Mr. Massie. But no immediate military response?
    Mr. Hicks. The Marines were on their way, and they would be 
arriving on the--later on the 12th.
    Mr. Massie. Okay. Did you tell the Accountability Review 
Board about Secretary Clinton's interest in establishing a 
permanent presence in Benghazi? Because ostensibly wasn't that 
the reason that the Ambassador was going to Benghazi?
    Mr. Hicks. Yes, I did tell the Accountability Review Board 
that Secretary Clinton wanted the post made permanent. 
Ambassador Pickering was surprised. He looked both ways to the 
members of the board, saying does the seventh floor know about 
this? And another factor in Chris' decision was our 
understanding that Secretary Clinton intended to visit Tripoli 
in December.
    Mr. Massie. Pickering was surprised that this was--his 
mission was to establish a permanent facility there?
    Mr. Hicks. Yes.
    Mr. Massie. That's your impression?
    Mr. Hicks. Yes.
    Mr. Massie. Okay. I thank you for your time. I thank the 
witnesses----
    Chairman Issa. Would the gentleman yield?
    Mr. Massie. Yes, I yield.
    Chairman Issa. I just want you to say it unambiguously, if 
that's the correct way to say it without a flaw, one more time, 
the reason the Ambassador was in Benghazi, at least one of the 
reasons was X?
    Mr. Hicks. At least one of the reasons he was in Benghazi 
was to further the Secretary's wish that that post become a 
permanent constituent post. And also there because we 
understood that the Secretary intended to visit Tripoli later 
in the year. We hoped that she would be able to announce to the 
Libyan people our establishment of a permanent constituent post 
in Benghazi at that time.
    Chairman Issa. Thank you.
    Mrs. Maloney. Will the gentleman yield?
    Chairman Issa. I thank the gentleman for yielding. We now 
go to the gentleman from Georgia.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate it. 
Thanks for being here today. And it has been a long day. And I 
think there has been some interesting things said and there has 
been a lot of questions. One of the things that was said 
earlier today that sort of concerns me a little bit, it says 
that these hearings have not found a smoking gun, I believe 
even a warm slingshot. Well, I for one and the folks of the 
Ninth District of Georgia where I represent are not looking for 
those things, they are looking for the truth. They are looking 
for what happened that night. Because the one thing we have 
found, it may not be a smoking gun or a warm slingshot, but we 
have four dead Americans. And that's what this is about. That's 
about finding what happened in the past so we can move forward 
in the future. And I appreciate your willingness to be here, 
and these families that are willing to do this, because truth 
is important. Even in this town it is important.
    I want to ask a follow-up question. Mr. Nordstrom, I want 
to follow up on a question from Mr. Lankford earlier about a 
March 28th cable asking for more security. He asked you about 
your intended recipients of that cable. Now, did you expect 
Secretary Clinton to either have read or to be briefed about 
that cable?
    Mr. Nordstrom. Absolutely. I certainly expected, given the 
fact that she had an involvement in the security process. If I 
could take a step back, by virtue of having the SST teams 
there, because they were a Department of Defense asset, the 
process required for that is something called an Exec Sec. That 
Exec Sec is literally a request from one Cabinet head to 
another, in this case State to DOD. That request must be signed 
by the Cabinet head, Secretary Clinton. She would have done the 
initial deployment request, plus an extension in the fall, and 
a second extension in February. She also came out to post, 
toured our facilities, toured the facilities and saw the lack 
of security there. That was something that her country team, or 
she was briefed by the country team as she visited the site. We 
also saw later there was the attacks against the facilities. 
Certainly, there is a reasonable expectation that her staff 
would have briefed her on those points.
    Mr. Collins. I think it was you that said earlier could 
this be a concern about a DOD presence and an embarrassment 
with State on an embassy? And a real short answer there.
    Mr. Nordstrom. That was how I took away from----
    Mr. Collins. That's the way you took it.
    Mr. Nordstrom. Right. From DAS Lamb.
    Mr. Collins. Thank you. Mr. Hicks, I have a question, we 
are going back, it has been asked here a little bit before, in 
discussions about a permanent presence in Benghazi, give me a 
sort of a quick flavor of what were those discussions like? Was 
it said you do this? How was it going out?
    Mr. Hicks. Chris told me that in his exit interview with 
the Secretary after he was sworn in, the Secretary said we need 
to make Benghazi a permanent post. And Chris said I will make 
it happen.
    Mr. Collins. Okay. Was Washington informed of the 
Ambassador's plan to travel to Benghazi?
    Mr. Hicks. Yes. Washington was fully informed that the 
Ambassador was going to Benghazi. And we advised them August 
22nd or thereabouts.
    Mr. Collins. Were there any concerns raised from that?
    Mr. Hicks. No.
    Mr. Collins. Given the timing and everything?
    Mr. Hicks. None.
    Mr. Collins. Mr. Hicks again, based on your experiences in 
Libya, do you believe that Foreign Service officers remain in 
avoidable danger in such high threat countries as Libya?
    Mr. Hicks. Thanks. I believe that Foreign Service officers 
are serving their country where they need to be serving their 
country. And in some places the risk that they are taking is 
very high.
    Mr. Collins. But could we, in light of what we are seeing 
now, be avoidable in the sense of from our lessons learned, if 
you would?
    Mr. Hicks. Thanks. From a lessons learned standpoint, the 
security--we need to be increasing our security strength and 
practices and training. And so, again, I may not be quite 
understanding the question.
    Mr. Collins. I think what I am asking is if you had that 
situation, what needs to be done to prevent something like this 
from happening again? Is that being taken advantage of? Or is 
there still sort of a denial process going on here?
    Mr. Hicks. I think that we have more to do than what has 
been put forth by the ARB in its recommendations.
    Mr. Collins. Okay. So as we move along, and I want to maybe 
ask you this question that I asked earlier, especially from a 
security standpoint, because it is something I think that we 
can flesh out over time, and maybe, Mr. Thompson, if you want 
to jump in on this, is that DOD sort of influence that has been 
mentioned by Mr. Nordstrom a couple of times, from wanting to 
be permanent in the area, was that an embarrassment for you? 
Did you get that sense as well that we are trying to do this on 
our own?
    And Mr. Hicks, I would like you to answer that as well.
    Mr. Hicks. I never got that sense.
    Mr. Collins. Okay. That was more Mr. Nordstrom. You did 
have that sense, though.
    Mr. Nordstrom. Again, that was specifically conveyed by DAS 
Lamb to both me and to the prior DCM.
    Mr. Collins. Mr. Thompson, anything to add there?
    Mr. Thompson. Nothing in the context text of----
    Mr. Collins. I do appreciate it. And again, like I said, 
this is in the interests of truth. You have been providing 
that. I appreciate it. Mr. Chairman, I yield back.
    Chairman Issa. Thank you. Mr. Meadows, as I yield to you, 
would you mind giving me about 10 seconds back?
    Mr. Meadows. I will yield to the chairman.
    Chairman Issa. Thank you. I will be very brief. Mr. Hicks, 
Colonel Wood in the previous hearing with Mr. Nordstrom 
testified about trips back and forth of these people, these 
military people like the four that were told not to get on the 
plane, himself included. During your time as Deputy Chief of 
Mission, did those four men doing training ever go to Benghazi?
    Mr. Hicks. No.
    Chairman Issa. Okay. Thank you.
    Mr. Hicks. No.
    Chairman Issa. Thank you.
    Mr. Meadows. Thank you, Mr. Chairman. And thank each of you 
for being here all day today. And certainly as Mr. Nordstrom 
started out this, you let us know clearly that this is not 
about politics, it is about people. And I just say thank you 
for that, because that's what it is. And to the families, I 
want to let you know that the people back home are standing 
with you. We had unbelievable questions that I will submit to 
you that we won't cover today in terms of asking them that 
we'll submit to you for you to answer. But they're standing 
with you to get to the truth of this. And they will not sit 
down until those questions have been answered. And I thank the 
chairman for this informative hearing.
    Mr. Thompson, let me go to you. You had talked earlier 
about the deployment of the F.E.S.T. team, and you said that 
you thought it was important to do that. Were there any other 
agencies that thought, other than you, that thought that that 
was important?
    Mr. Thompson. Yes, the Federal Bureau of Investigation and 
DOD, specifically our SOCOM friends.
    Mr. Meadows. So you are saying that it wasn't just you, but 
the DOD--so outside the State Department, the DOD and the FBI 
both felt like that that was the appropriate response to make 
sure that we provide that kind of forces?
    Mr. Thompson. People who are a part of the team, a normal 
part of that team that deploy with us were shocked and amazed 
that they were not being called on their cell phones, beepers, 
et cetera, to go. Whether or not that view was shared by very 
senior people in those institutions I do not know.
    Mr. Meadows. All right. But the DOD and FBI had a 
contradictory response to what the State Department's ultimate 
decision was to deploy?
    Mr. Thompson. Well, again, the State Department doesn't 
make that decision. The National Security Council Deputies 
Committee authorizes the deployment. So I think what transpired 
was a strong enough conversation from our department reps that 
they were convinced that was not the thing to do.
    Mr. Meadows. All right. Mr. Nordstrom, let me go back to 
the ARB, because everybody talks about how wonderful this 
process was. What I see it as narrow in scope, incomplete in 
its nature. And I don't want to put words in your mouth, but 
earlier you talked about the ARB fixed blame I think you said 
on mid-level, or those career employees, not those at a senior 
level or the political appointments. Is that correct?
    Mr. Nordstrom. That's correct.
    Mr. Meadows. And did you not say that that's where the 
decisions are made, at that senior level?
    Mr. Nordstrom. That's correct. Ambassador Pickering 
asserted that it was made at the Assistant Secretary level and 
below. That's at variance with what I had personally seen.
    Mr. Meadows. So you personally believe that the decisions 
are made at a much higher level. And I see, Mr. Hicks, you are 
nodding your head ``yes.'' Is that correct?
    Mr. Hicks. Yes, I believe so.
    Mr. Meadows. So the ARB, in looking to place blame on those 
career employees, ignored a whole lot of the what you would say 
the decision makers in terms of assigning blame?
    Mr. Nordstrom. Absolutely.
    Mr. Meadows. Is that correct?
    Mr. Nordstrom. Absolutely.
    Mr. Meadows. So both of you agree with that. All right. Let 
me go on a little bit further, Mr. Nordstrom. One last 
question, and then I am going to yield to the gentleman from 
Utah. As we look at this, is it fair that all the blame got 
assigned to the Diplomatic Security component? Aren't they just 
one component underneath the management bureau? Is that 
correct?
    Mr. Nordstrom. That's absolutely correct. I don't believe 
it is fair. As I said, I think that certainly those resource 
determinations are made by the Under Secretary for Management.
    Mr. Meadows. So as we look at that, when we start assigning 
blame, the ARB was incomplete in their analysis in terms of who 
was to blame for that with regards to an agency. Is that 
correct?
    Mr. Nordstrom. That's correct. I mean you affix blame for 
the three people underneath the Under Secretary for Management, 
but nothing to him. So that either means he didn't know what 
was going on with his subordinates or he did and didn't care.
    Mr. Meadows. All right. And there is some critical 
questions.
    Mr. Chaffetz. Would the gentleman yield to the gentleman 
from South Carolina?
    Mr. Meadows. I will be glad to yield to the gentleman from 
South Carolina, Mr. Gowdy.
    Mr. Gowdy. I thank the gentleman from North Carolina. I 
know I don't have much time, but Mr. Hicks, I want to set the 
table for the next round. On September the 12th, 2012, did you 
receive an email from Beth Jones that also copied Victoria 
Nuland, William Burns, Patrick Kennedy, and Cheryl Mills? You 
are also on the distribution list. Do you recall receiving that 
email?
    Mr. Hicks. Sorry, which email? At that time I was receiving 
a couple hundred a day.
    Mr. Gowdy. And that's fair. And you had other things on 
your mind on September the 12th. This one said, ``When he said 
his government suspected that former Qadhafi regime elements 
carried out the attacks, I told him that the group that 
conducted the attacks, Ansar al-Sharia, is affiliated with 
Islamic extremists.'' Do you recall that email?
    Mr. Hicks. I do believe I recall that email, yes.
    Chairman Issa. Okay. We will now go to the gentleman from 
Michigan, who may want to yield more time to the gentleman from 
South Carolina.
    Mr. Bentivolio. Thank you very much, Mr. Chairman. As a 
veteran of Vietnam and Iraq, I understand that the boots on the 
ground are the closest to the truth in these situations. You 
know more about what happened in Benghazi than any bureaucrat 
or politician can. The fog of battle is easily blamed when 
mistakes are made at the highest level. Being caught between 
the political dictates of superiors and the chain of command 
and doing what is necessary to protect our citizens abroad is 
difficult. I understand the risks you have taken by showing up 
here today as well. Thank you for having the courage to testify 
before us. We are counting on you to reveal the truth about the 
failures of this government, and to protect the men and women 
who served in Libya, and how we can do a better job in the 
future.
    Mr. Thompson, earlier you mentioned that you hang out with 
some brave and honorable group. Are they Navy, Army, Air Force, 
Marines, or shallow water sailors?
    Mr. Thompson. All the above.
    Mr. Bentivolio. All the above. Can you tell me, according 
to----
    Mr. Thompson. I might add, sir, from other agencies of 
government, too, the Federal Bureau of Investigation, 
intelligence community, Department of Energy. Diplomatic 
Security is on the team.
    Mr. Bentivolio. And this is part of your special security 
force or team?
    Mr. Thompson. No, this is the interagency component of the 
Foreign Emergency Support Team.
    Mr. Bentivolio. Are they all highly trained?
    Mr. Thompson. Very much so.
    Mr. Bentivolio. SWAT?
    Mr. Thompson. We are not the operators, we are the 
facilitators and the people that bring the operation and 
coordinate all aspects of a response. So we are not the door 
kickers, as the--some term of art these days. We are not door 
kickers.
    Mr. Bentivolio. Okay. So but you share a common ethos, if I 
am not mistaken.
    Mr. Thompson. Absolutely.
    Mr. Bentivolio. Never leave anyone behind. Always watch 
your buddy's 6 o'clock. And lead by example. Would that be a 
safe thing to say?
    Mr. Thompson. That would be a great summary.
    Mr. Bentivolio. Great. So according to recent media 
reports, at least 15 special operators and highly skilled State 
Department security staff were available in Tripoli but were 
not dispatched to aid Americans under attack in Benghazi. Why 
were these personnel not deployed to rescue the Americans in 
Benghazi?
    Mr. Thompson. I cannot answer that. I was not on the 
ground.
    Mr. Bentivolio. Mr. Hicks?
    Mr. Thompson. Yes.
    Mr. Hicks. I am not sure that number is accurate. We did 
deploy people to Benghazi. The first team went with seven 
members at midnight. The second team left at about 6:30 or 7 
a.m. that morning. We could not deploy all of our security 
personnel because we still had about 55 diplomatic personnel in 
Tripoli that were under threat for attack.
    Mr. Bentivolio. Thank you very much. And I yield the rest 
of my time to the gentleman, Mr. Gowdy.
    Mr. Gowdy. I thank the gentleman. Mr. Hicks, all right, we 
are going back to that email. You are on the distribution. And 
just so it is clear, Mr. Chairman, nothing would thrill me more 
than to release this email. And it is certainly not classified. 
We all had access to it. All you had to do was go downstairs in 
the basement and look through it. So I hope that my colleagues 
on the other side of the aisle will be as full throated in 
calling for the State Department to release this evidence as 
they are when they are unhappy with us.
    So against that backdrop, this email was sent on September 
the 12th. And I want to read you a little quote from Ambassador 
Rice. ``Well, Jake, first of all, it is important to know that 
there is an FBI investigation that has begun.'' This is on 
September 16th. That has begun. It has not begun in Benghazi, 
has it?
    Mr. Hicks. No, it has not.
    Mr. Gowdy. All right. ``And it will take some time to be 
completed.'' I was an average prosecutor, but I did it for a 
long time. So let me ask you this. Are you aware of any crime 
scene that is improved with time?
    Mr. Hicks. I am not a criminal investigator, but----
    Mr. Gowdy. All right. Trust me when I tell you crime scenes 
do not get better with time. They are unsecured, which means 
people have access to them. They can walk through them, they 
can compromise the evidence.
    Would you agree with me that you would want to talk to 
witnesses as close to the event as you possibly can?
    Mr. Hicks. That seems reasonable.
    Mr. Gowdy. Right. And you would want to search incidents as 
close to the time as you possibly can?
    Mr. Hicks. Again, seems reasonable.
    Mr. Gowdy. Right. So Ambassador Rice is telling the media 
that the FBI investigation has begun, when she is also talking 
about a video. And the reality is--and this is the point I want 
to drive home--the reality is it was a direct result of what 
she said that the Bureau did not get to Benghazi in a timely 
fashion. Is that true or is that not true?
    Mr. Hicks. That is my belief.
    Mr. Gowdy. All right. You used the word immeasurable, that 
what she said was immeasurable in its damage. I want you to try 
to measure immeasurable. Tell me what you meant by that.
    Mr. Hicks. The FBI team was delayed. The Libyan Government 
could not secure the compound. It was visited by numerous 
people. One of the items that was taken from the compound was 
Chris's diary, which through the extraordinary efforts of David 
McFarland we were able to retrieve and return back to the 
Department. There were other documents that were published that 
another journalist managed to acquire while visiting the 
compound. So it made achieving the objective of getting the FBI 
to Benghazi very, very difficult, and the ability of them to 
achieve their mission more difficult.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman. I think this is an 
important hearing. It really does make all the difference to me 
to know whether we did all we could to aid our brethren who are 
in harm's way. I think it is part of our military ethos. I 
think it is part of our national character.
    Mr. Hicks, just to go back and get this, you know, even 
though you believed help was needed, there was a SOF unit, 
Special Operations unit, ordered to stand down. Correct?
    Mr. Hicks. Yes.
    Mr. DeSantis. And even though you thought air support was 
needed, there was no air support sent?
    Mr. Hicks. No air support was sent.
    Mr. DeSantis. So no AC-130 gunships, no fighter planes, 
right?
    Mr. Hicks. AC-130 gunships were never mentioned to me, only 
fighter planes out of Aviano.
    Mr. DeSantis. And in fact there was no request for airspace 
other than the UAV request to the Libyan Government, right?
    Mr. Hicks. Yes, and that preceded the attack, if I am not 
mistaken.
    Mr. DeSantis. So when the order to stand down was given, 
who issued that order? Were you told? Did Lieutenant Colonel 
Gibson tell you who was ultimately responsible for issuing that 
order?
    Mr. Hicks. He did not identify the person.
    Mr. DeSantis. Okay. So you don't know if it was the 
combatant commander?
    Mr. Hicks. I do not know.
    Mr. DeSantis. Or whether it was the Secretary of Defense or 
the President, correct?
    Mr. Hicks. I have no idea.
    Mr. DeSantis. And have you, since this incident has 
happened and you have been interviewed, have you been 
enlightened as to who was ultimately responsible for issuing 
the stand down order?
    Mr. Hicks. I think that the right person to pose that 
question to is Lieutenant Colonel Gibson.
    Mr. DeSantis. When you spoke with Secretary Clinton at 2 
a.m., did she express support for giving military assistance to 
those folks in Benghazi? I.e., did she say that she would 
request such support from either the Secretary of Defense or 
the President of the United States?
    Mr. Hicks. We actually didn't discuss that issue. At the 
time, we were focused on trying to find and hopefully rescue 
Ambassador Stevens. That was the primary purpose of our 
discussion. The secondary purpose was to talk about what we 
were going to do in Tripoli in order to enhance our security 
there.
    Mr. DeSantis. So as part of that discussion, though, you 
informed her that you guys in Benghazi were in fact under 
attack. Correct?
    Mr. Hicks. The attack in Benghazi--she was aware of the 
attacks. But we were in phase three. The attacks had already--
the first two attacks had been completed. And there was a lull 
in Benghazi at the time. So--and again, the focus was on 
finding Ambassador Stevens and what the second--or the Tripoli 
response team was going to do. We had at that time no 
expectation that there would be subsequent attacks at our annex 
in Benghazi.
    Mr. DeSantis. So it was your--you viewed it as secured at 
that point?
    Mr. Hicks. No, we knew the situation was in flux.
    Mr. DeSantis. Okay. When you spoke to the President 
following the attack on the phone, did he say anything about 
deploying assets, why assets were not deployed?
    Mr. Hicks. I believe I spoke to him on September 17th or 
September 18th.
    Mr. DeSantis. Right, after the attack. I know this was 
several days later. Did he say anything, or was it just to 
commend you about your service?
    Mr. Hicks. It was just a call to thank me for service.
    Mr. DeSantis. Okay.
    Mr. Hicks. And praise the whole team.
    Mr. DeSantis. I appreciate that. I think that this has been 
a good hearing. I think that there are still questions 
remaining. I think we need to know who actually gave the order 
to stand down. I would like to know why you have been demoted, 
why the Secretary's Chief of Staff called you and spoke with 
you the way she did. And so with that, I will yield----
    Chairman Issa. Would the gentleman yield to----
    Mr. DeSantis. Yield to the chairman?
    Chairman Issa. Thank you.
    Mr. DeSantis. Committee chairman.
    Chairman Issa. Always the right answer. Thank you. Mr. 
Hicks, 2:00 in the morning Secretary of State calls you 
personally. Not a common call.
    Mr. Hicks. No, sir.
    Chairman Issa. Did she ask you about the cause of the 
attack? Did she ask about videos? Did she ask about anything at 
all that would have allowed you to answer the question of how 
Benghazi came to be attacked as far as you knew?
    Mr. Hicks. I don't recall that being part of the 
conversation.
    Chairman Issa. So she wasn't interested in the cause of the 
attack. And this was the only time you talked directly to the 
Secretary where you could have told her or not told her about 
the cause of the attack.
    Mr. Hicks. Yes. That was the only time when I could have. 
But again, I had already reported that the attack was--had 
commenced, and that Twitter feeds were asserting that Ansar al-
Sharia was responsible for the attack.
    Chairman Issa. You didn't have that discussion with her 
only because it was assumed, since you had already reported, 
that the cause of the attack was essentially Islamic 
extremists, some of them linked to Al Qaeda.
    Mr. Hicks. Yes.
    Chairman Issa. Thank you. I thank the gentleman. Okay. Does 
the gentleman yield back?
    Mr. DeSantis. Yield back the balance of my time.
    Chairman Issa. The gentleman yields back. We now proudly go 
to a second round, starting with Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. Mr. Hicks, in my first 
round I asked you about Cheryl Mills. And you indicated in your 
response that this is a call that you always take, but frankly 
don't want to get. Cheryl Mills is the counselor to the 
Secretary. She is Chief of Staff to Hillary Clinton. And is it 
a common--is it common knowledge that of anyone in the State 
Department, when the Chief of Staff to the Secretary calls 
that--is the perception that she is speaking on behalf of the 
Secretary herself?
    Mr. Hicks. No. Not necessarily.
    Mr. Jordan. Not necessarily? But is the perception that it 
is pretty darn important, based upon your response earlier?
    Mr. Hicks. Absolutely.
    Mr. Jordan. Yes. So when you when you got this call--I want 
to go back to the Chaffetz--to Congressman Chaffetz's visit 
there. You were instructed that there was going to be an 
attorney accompanying Mr. Chaffetz. And this attorney was to be 
next to you at all times. I mean here is what I am trying to 
get at. The Secretary has said nobody--in front of the Senate--
nobody is more committed to getting this right.
    If the intent is to get it right and get to the truth, then 
why this concerted effort to shield the interaction of 
Congressman Chaffetz from you? That's what I am not figuring 
out. If we want to get to the truth, shouldn't you and Mr. 
Chaffetz be able to have a dialogue and conversation without 
some baby-sitter from the State Department, some lawyer there 
monitoring, taking notes, calling back, doing all the things 
that this individual did on that congressional visit?
    Mr. Hicks. I should be able to have a conversation with the 
Congressman if he wants to have one.
    Mr. Jordan. Excuse me, Mr. Hicks. Didn't you say, Mr. 
Hicks, in my first round that this was the first and only time 
this had ever happened where someone from the State Department 
accompanied a congressional visit? And you were instructed 
specifically by the State Department do not talk to Congressman 
Chaffetz or anyone on the committee's delegation who is there 
without this lawyer being present.
    Mr. Hicks. That's correct.
    Mr. Jordan. And shortly after the one time when you did 
have a chance to interact with Mr. Chaffetz and the lawyer was 
not present, you got a phone call from Cheryl Mills.
    Mr. Hicks. That's correct.
    Mr. Jordan. And on that phone call, what did she say?
    Mr. Hicks. She asked for a report on the visit, which I 
provided. The tone of the report--the tone of her voice was 
unhappy, as I recall it. But I faithfully reported exactly how 
the visit transpired. I described the content of the briefing 
that----
    Mr. Jordan. Can I interrupt you right there, Mr. Hicks?
    Mr. Hicks. Yes.
    Mr. Jordan. Were you in a classified briefing at the time 
and were pulled out of that briefing to talk to Ms. Mills?
    Mr. Hicks. I recall the phone call afterwards.
    Mr. Jordan. Okay.
    Mr. Hicks. I was pulled out of the briefing, but I don't 
recall that that was the time when I talked to Counselor Mills.
    Mr. Jordan. What were you pulled out of the briefing for?
    Mr. Hicks. I actually can't remember, to be honest with 
you.
    Mr. Jordan. Okay. But in close proximity to the time you 
had the briefing, the one time you were apart from the minder 
from State Department, you received a call from Ms. Mills?
    Mr. Hicks. Yes.
    Mr. Jordan. Okay.
    I guess, Mr. Chairman, I just want to stress--I mean, this 
is the equivalent of Rahm Emanuel when he was Chief of Staff. 
When he calls--for my colleagues on the other side, when he 
calls, you take the call. You understand that's important, and 
you understand that he is representing the White House. When 
Cheryl Mills calls, you understand, everyone at the State 
Department understands, this is the person right next to 
Secretary Clinton.
    And the fact that we had, for the first time in Mr. Hicks' 
22-year history of serving this country, someone accompany a 
Congressman on a visit after we lost four American lives, and 
that individual has to be in every single meeting, there can't 
be personal interaction between these two discussing what took 
place, is completely unprecedented.
    With that, I would be happy to----
    Chairman Issa. Would the gentleman yield?
    Mr. Jordan. I would be happy to yield to the chairman.
    Chairman Issa. Mr. Hicks, you and I have known each other 
throughout the Middle East for a number of years. But in all my 
years of traveling in the Middle East, anytime I was head of a 
congressional delegation, I had a one-on-one with the 
Ambassador, often in an automobile going to see a head of State 
or something else.
    Over the years that you've watched great Ambassadors, have 
you ever failed to see the head of a delegation come and get a 
one-on-one? Isn't that part sort of the ceremony of that 
relationship and how you treat the head of a congressional 
delegation? Not just this is an exception, but isn't it always 
a one-on-one meeting at some point during a leadership meeting?
    Mr. Hicks. In every CODEL that I have been involved in, 
that has been standard.
    Chairman Issa. So they were telling you, a non-Senate-
confirmed, a political appointee of the Secretary of State, her 
right-hand person was telling you to breach protocol?
    Mr. Hicks. Well, the two lawyers did. The conversation with 
Counselor Mills occurred after.
    Chairman Issa. Okay. So it was, in fact, people sent by the 
State Department told to you breach protocol and not to provide 
anything, even if requested by my personal emissary, Mr. 
Chaffetz, on that CODEL, told you not to talk to him privately 
even if he asked?
    Mr. Hicks. That's correct.
    Chairman Issa. Thank you.
    I thank the gentleman for yielding.
    We now go to the ranking member, Mr. Cummings.
    Mr. Cummings. Mr. Hicks, I was just listening to your 
testimony, and I--during your interview with the committee, you 
were asked point-blank--and that certainly was closer to the 
time that this happened--whether anyone at the Department 
instructed you to withhold information from Representative 
Chaffetz at any time during that trip. You were asked, and I 
quote, ``Did you receive any direction about information that 
Congressman Chaffetz shouldn't be given from Washington?'' And 
you replied, ``No, I did not.''
    Is that still your testimony? This is your sworn testimony. 
I am just looking at the testimony. You don't remember that?
    Mr. Hicks. I recall saying that I was instructed not to 
allow personal interviews with the----
    Mr. Cummings. I'm not trying to twist you up. I am just 
going on what you----
    Mr. Hicks. I understand. But I recall also stating that I 
was not to allow personal interviews between Congressman 
Chaffetz, the RSO, the Acting DCM, or me.
    Mr. Cummings. Okay. So, in other words, you did say that 
you were told to make sure that other State Department 
officials were present. Is that right? Is that what----
    Mr. Hicks. That's correct.
    Mr. Cummings. Present for the meetings with Representative 
Chaffetz and----
    Mr. Hicks. That's correct.
    Mr. Cummings. --as you stated, they told me not to be 
isolated with Congressman Chaffetz. Is that correct? They 
didn't tell you not to say anything, but they said, don't be 
isolated.
    Mr. Hicks. They said not to have a personal interview with 
him.
    Mr. Cummings. By yourself. I'm just trying to make--I'm not 
trying to----
    Mr. Hicks. I understand.
    Mr. Cummings. I'm just trying to be clear, that's all.
    Mr. Hicks. I understand.
    Mr. Cummings. Okay. Now, Mr. Hicks, you said that four 
military personnel were told not to board that plane and that 
this call--you don't know where it came from. That's what you 
said a few minutes ago. And so you did not know that it came 
from Special Operations Command Africa?
    Mr. Hicks. I knew it came from Special Operations Command 
Africa. I do not know who----
    Mr. Cummings. You don't know the individual.
    Mr. Hicks. I did not know who.
    Mr. Cummings. I gotcha. I just wanted to clear that up 
because it wasn't clear.
    Mr. Hicks. That's okay. Thank you.
    Mr. Cummings. On October 1st, 2012, the Secretary of State 
convened an Accountability Review Board led by Thomas 
Pickering, Ambassador, and Admiral Michael Mullen to 
investigate the attacks in Benghazi. After interviewing more 
than 100 people, viewing hours of videotape, and reviewing 
thousands of pages of documents, the ARB issued a very thorough 
report in December of 2012 setting forth the results of its 
review.
    Mr. Hicks, did you meet with the ARB as part of that 
investigation?
    Mr. Hicks. I had an interview with them for about 2 hours.
    Mr. Cummings. Okay.
    And, Mr. Nordstrom, did you meet with the ARB as a part of 
the investigation?
    Mr. Nordstrom. Yes, on multiple occasions, sir.
    Mr. Cummings. It is my understanding that a cable went out 
to every employee at the State Department informing them of how 
to contact the ARB if they wanted to bring information forward.
    Mr. Thompson, did you receive that notice?
    Mr. Thompson. I did.
    Mr. Cummings. All right. And did you contact the ARB and 
request to meet with them?
    Mr. Thompson. I did.
    Mr. Cummings. And so, did you end up meeting with the ARB 
as part of their review?
    Mr. Thompson. I did not.
    Mr. Cummings. Did anyone try to stop you from meeting with 
the ARB?
    Mr. Thompson. No.
    Mr. Cummings. Earlier this week, Congressman Chaffetz 
claimed that the ARB report was incomplete because they never 
even interviewed Secretary Clinton. According to Ambassador 
Pickering, the ARB met with Secretary Clinton near the end of 
their investigation. And, during that time, they had the 
opportunity to discuss the report with her and could have asked 
her any questions they wanted.
    Ambassador Pickering and Admiral Mullen have put out a 
joint statement----
    Chairman Issa. I was just saying, I think that very clearly 
says they didn't interview her. They just talked about the 
report and could have but didn't ask her. Is that right?
    Mr. Cummings. They----
    Chairman Issa. I think it makes his case.
    Mr. Cummings. Well, that's why we need to have--no, I'm not 
trying to make any case. I am just trying to get all the facts. 
But that's even more reason why we need to have Pickering in 
here, and I am glad you have agreed to do that.
    And I want to finish these questions because I want to stay 
within the time limits.
    Ambassador Pickering and Admiral Mullen have put out a 
joint statement that, based on their thorough independent 
investigation, they assigned responsibility based on where they 
thought the responsibility lay. And that was not on Secretary 
Clinton. And this is what they said, ``From the beginning of 
the ARB process, we had unfettered access to everyone and 
everything, including all the documentation we needed. Our 
marching orders were to get to the bottom of what happened, and 
that's what we did.''
    I just wanted to--and, again, we will--as you said, Mr. 
Nordstrom, we want to get a complete picture. And we'll 
hopefully be getting that complete picture very soon so that we 
can get to the point that we want to, and that is the reform so 
that these kinds of things are prevented from happening again.
    Thank you.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. And thank you, Chairman.
    I would say to the ranking member, Mr. Cummings, who I have 
the utmost respect for in every way, shape, or form, I totally 
concur with you. We, too, just like the ARB, should have 
unfettered access to all the information, all the witnesses, 
and all the documents. We, as a committee, should stand up for 
ourselves and demand that all the unclassified documents be 
released so we all can look at them the same time.
    Mr. Cummings. Would the gentleman yield for 5 seconds?
    Mr. Chaffetz. Sure.
    Mr. Cummings. I agree.
    I yield back.
    Mr. Chaffetz. Thank you.
    Mr. Nordstrom, it's pretty clear to me from the October 
hearing that there were a number of security recommendations 
that you wanted to see done on the ground. At any time during 
your service there, did you ever get everything that you 
wanted? Were the recommendations that you were making forward, 
were you actually able to implement those security 
recommendations?
    Mr. Nordstrom. Very few of them.
    Mr. Chaffetz. Very few of them.
    Mr. Hicks, is it fair to say that the people on the ground 
trying to make the security decisions, that they were not able 
to get the resources, they weren't able to fortify the 
facility, they didn't have the personnel that they requested? 
Is that fair to say?
    Mr. Hicks. Yes, it's fair to say.
    Mr. Chaffetz. When I saw Secretary Clinton 4-1/2 months 
after the attack in Benghazi testify before the United States 
Congress that she didn't make the security decisions, you made 
the security decisions, Mr. Nordstrom, you are the regional 
security officer on the ground, you were the chief security 
person, you are the ones that made the security decisions. True 
or false?
    Mr. Nordstrom. The response I got from the regional 
director when I raised the issues that we were short of our 
standards for physical security was that my ``tone was not 
helpful.''
    Mr. Chaffetz. So, true or false, the security decisions on 
the ground in Libya were made by you?
    Mr. Nordstrom. I would have liked to have thought, but 
apparently no.
    Mr. Chaffetz. Mr. Hicks, when you heard and saw that, did 
you have a reaction to it? What's your personal opinion?
    Mr. Hicks. When I was there, I was very frustrated by the 
situation, at times even frightened by the threat scenario that 
we were looking at relative to the resources we had to try to 
mitigate that threat scenario.
    Mr. Chaffetz. And to the leadership of this committee on 
both sides of the aisle, I find it stunning that 4-1/2 months 
after the attack Secretary Clinton still has the gall to say, 
``It wasn't us, it was them. I take full responsibility, but 
I'm not going to hold anybody accountable. But it was them that 
made the decisions.'' That was not the case.
    I yield to the gentleman from Ohio.
    Mr. Jordan. I thank the gentleman.
    Mr. Nordstrom, you testified in October there were 200-and-
some security incidents in Libya in the 13 months prior to the 
attack. Is that correct?
    Mr. Nordstrom. That's correct.
    Mr. Jordan. Repeated attempts to breach the facility there. 
You have repeatedly asked for additional security personnel, 
and it was denied, correct?
    Mr. Nordstrom. That's correct.
    Mr. Jordan. Not only denied, but it was reduced, correct?
    Mr. Nordstrom. That's correct.
    Mr. Jordan. And then 4-1/2 months after it all happens, the 
Secretary of State says you were responsible for the security 
situation in Libya. That's what we have. That is exactly what 
we have.
    You have repeatedly asked, ``Send us some more of the good 
guys.'' They said, ``We can't do it. In fact, we're going to 
take some of them away. You guys are on your own.'' They made 
that decision in Washington.
    In fact, Mr. Nordstrom, the hearing ended in October. The 
hearing, the only hearing we had last fall before an election, 
ended with you referring to the folks in Washington, your 
superiors, who wouldn't give you what you needed, you referring 
to them as the Taliban. Is that correct?
    Mr. Nordstrom. Yes.
    Mr. Jordan. Do you remember that statement you made?
    Mr. Nordstrom. Yeah. I have had a lot of questions about 
that metaphor.
    Mr. Jordan. I understand. But for them to say now you are 
responsible for the security situation flies in the face of 
fact.
    I yield back to the gentleman.
    Mr. Chaffetz. I thank the gentleman.
    Mr. Chairman, one of the things I see in the Accountability 
Review Board, page 37, that I just find--first of all, I want 
to highlight: ``Embassy Tripoli staff showed absolute 
dedication and teamwork in mobilizing to respond to the crisis 
with the DCM''--and then it goes on there, naming you 
specifically for your heroism and for your work. That's what I 
saw. I could see it in your eyes, and I could see it in the 
others. God bless you for the great work that you did.
    But the next paragraph, Mr. Chairman, I have a real problem 
with. It says in the third sentence, ``The Board found no 
evidence of any undue delays or decision-making or denial of 
support from Washington or from the military combatant 
commanders.'' And as we've heard here today, that is not true.
    And the next sentence is the most troubling. Quite the 
contrary: ``The safe evacuation of all U.S. Government 
personnel from Benghazi 12 hours after the initial attack.'' 
That's not true. There are four people that were not safely 
evacuated.
    And at the very beginning of the ARB, it says: ``Those who 
cannot remember the past are condemned to repeat it.'' I think 
that's true. We always have to remember them. And we can't 
allow this ARB to say that everybody was safely evacuated, 
because they weren't. But there was an awful lot of heroism.
    Chairman Issa. I thank the gentleman. That is so true.
    We now go to the gentlelady from New York, Ms. Maloney.
    Mrs. Maloney. Thank you.
    And I agree with Mr. Chaffetz completely that there should 
be equal exchange of information, that we should have access to 
all information. But the Democratic minority was denied access 
to a witness. The only way we knew anything about what Mr. 
Thompson was going to say was what we read in the press. Now, 
there should be equal access to witnesses, and there should be 
equal access to information.
    Chairman Issa. Would the gentlelady yield?
    Mrs. Maloney. On your time.
    Chairman Issa. Well, hold the clock.
    Mrs. Maloney. Okay.
    Chairman Issa. Because you made an allegation I don't 
understand.
    We didn't have a transcribed interview with two out of the 
three witnesses. Mr. Thompson was not made available to either. 
Mr. Nordstrom was, in fact, a previous witness, and we felt 
that there was sufficient information about what he felt. And 
Mr. Hicks, I think he went through 5 hours on a bipartisan 
basis. We forwarded their statements, not ours, their 
statements--we participated not at all in preparation--we 
forwarded them to the minority as we got them, period.
    So I am a little bit concerned only in that--there's 
nothing fair about partisan politics, but I believe we've fully 
complied deliberately with the spirit of the rules all along. 
So I would hope the gentlelady, when better informed, would 
appreciate that, that we tried to be very forthcoming.
    Now, remember, these are whistleblowers.
    Mrs. Maloney. But, Mr. Chairman, I am all for equality, and 
we did get the copies of Mr. Hicks' statements and Mr. 
Nordstrom's. But your staff met with Mr. Thompson. Our staff 
was not allowed to meet with Mr. Thompson.
    Chairman Issa. But he's represented--it's just not true.
    Mr. Cummings. You didn't meet with him?
    Chairman Issa. It's true that we have had some meetings 
with him. But we haven't prohibited in any way--he's not our 
witness.
    Mr. Cummings. Would the gentlelady yield?
    Mrs. Maloney. Absolutely.
    Chairman Issa. He is a whistleblower that came forward.
    Mr. Cummings. Yeah, let me--I am so glad we are stopping 
the clock. We need to clear this up.
    Chairman Issa. Well, I don't think there is anything to 
clear up. He's just a whistleblower.
    Mr. Cummings. And we want to protect whistleblowers. That 
is very, very important to us.
    The first thing--we have not gotten a syllable from--you 
have had conversations with Mr. Thompson. We have never had a 
conversation with Mr. Thompson.
    I see you looking over here, Mr. Gowdy, and you know that's 
not fair.
    And so all I'm saying to you is that we have a witness that 
came in here today that you had an opportunity to interview----
    Chairman Issa. Well, I appreciate that, but----
    Mr. Cummings. --and we never had that opportunity.
    Chairman Issa. You know what? Stop the clock for 1 second.
    One quick question, I am asking the witnesses.
    Mr. Thompson, is it your decision who you talk to? And did 
any of my people ever tell you not to talk to the Democratic 
minority?
    Mr. Cummings. And I'm not accusing you of that.
    Mr. Thompson. No.
    Chairman Issa. Okay.
    Mr. Hicks, have we ever suggested that you not talk to the 
minority or any of their people?
    Mr. Hicks. No.
    Chairman Issa. Mr. Nordstrom, has anyone on my staff or any 
of my members ever asked you not to speak with them?
    Mr. Nordstrom. No. In fact, I spoke with both.
    Chairman Issa. Thank you. That is resolved.
    The gentlelady may continue.
    Mrs. Maloney. Well, we did request to meet with Mr. 
Thompson, and through his lawyer, he said no. But he did speak 
to the Republican staff.
    I would like to go back to Mr. Chaffetz' or other people's 
questioning about Cheryl Mills' phone call.
    And in reading the transcripts of it, Mr. Hicks, you told 
our investigators that she did not seem happy when she heard 
that no other State Department official was in the classified 
briefing. Is that true?
    Mr. Hicks. She was unhappy that her minder, the lawyer that 
came with Congressman Chaffetz, was not included in that 
meeting.
    Mrs. Maloney. Was she unhappy that no other State 
Department official was included? Just that State Department 
official.
    Mr. Hicks. That State Department official.
    Mrs. Maloney. Okay. And you also said that she never 
criticized you, and, according to your interview transcript, 
you said she never gave you any direct criticism. Do you stand 
by that statement today?
    Mr. Hicks. The statement was clearly no direct criticism, 
but the tone of the conversation--and, again, this is part of 
the Department of State culture. The fact that she called me 
and the tone of her voice--and we're trained to gauge tone and 
nuance in language--indicated to me very strongly that she was 
unhappy.
    And just, if I may----
    Mrs. Maloney. My time is limited.
    Mr. Hicks. Okay.
    Mrs. Maloney. Going to the diplomatic post in Benghazi, as 
I understand it, the British Ambassador's convoy was attacked, 
a gentleman was killed, and they decided to pull out of 
Benghazi. Is that correct?
    Mr. Hicks. I don't believe anyone was killed. I believe we 
saved the life of one of those people.
    Mrs. Maloney. Okay. He was shot.
    Mr. Hicks. And I would like to refer to Eric because he was 
actually our RSO there.
    Mrs. Maloney. No, no, the point--my question is, did the 
British Ambassador close the post in Benghazi and leave?
    Mr. Hicks. He did.
    Mrs. Maloney. He did. Do you think it was wise----
    Voice. I would like to clarify that, though. They----
    Mrs. Maloney. Excuse me. Reclaiming my time. I will yield 
if somebody wants me to yield, but I wanted to ask, when we 
continued to stay there, do you think that was a wise decision, 
for us to continue to stay in Benghazi after the English had 
closed their post and left?
    Mr. Hicks. Absolutely.
    Mrs. Maloney. Why was it important for us to stay in 
Benghazi?
    Mr. Hicks. We needed to stay there as a symbolic gesture to 
a people that we saved from Qadhafi during the revolution. As 
we know, Qadhafi's forces were on the doorstep of Benghazi 
right before the NATO bombing commenced. And as a gesture--
again, as I said before, Chris went there as a symbolic gesture 
to support the dream of the people of Benghazi to have a 
democracy.
    Mrs. Maloney. And so he shared your position that staying 
there was incredibly important.
    Mr. Hicks. And he also understood from the Secretary 
herself that Benghazi was important to us and that we needed to 
make it to be a permanent constituent post.
    Mrs. Maloney. Uh-huh.
    Now, I agree with my good friend on the other side of the 
aisle, Trey, that it was a long time before the FBI got on the 
ground. And as I understand it from a report that they gave us, 
they got the visas right away. The day of Ambassador Rice's 
appearance on the Sunday shows, September 16th, the Libyan 
Government granted the FBI the visas so that the team could 
travel to Libya. Their flight clearance was granted the 
following day, on September 17th, and the FBI arrived in 
Tripoli on September 18th.
    And, according to this report, the team could not travel to 
Benghazi for some time due to the security situation on the 
ground. Is that true? Were all of our people out of Benghazi? 
And were we not letting anyone into Benghazi? What exactly was 
happening then, Mr. Hicks?
    Mr. Hicks. Yes, the Libyan Government did not want any of 
our personnel to go to Benghazi because of the security 
situation there.
    Mrs. Maloney. Uh-huh. So when the FBI went to Benghazi, it 
was when the Libyan Government felt that it was secure enough 
for them to go there. Is that a fair statement?
    Mr. Hicks. We strung together a series of approvals at the 
mid to upper levels from the government and organized a 
military escort to go with the FBI and Special Forces troops 
that escorted them, as well.
    Chairman Issa. Thank you. The gentlelady's time has 
expired.
    We now go to her friend, Mr. Trey Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I am trying to reconcile how Benghazi was not safe enough 
for the Federal Bureau of Investigations to go, but it was safe 
enough to leave a below-spec facility for our diplomats to stay 
in. I am just trying to reconcile those two points. It's too 
dangerous for the Bureau, who are trained law enforcement 
officials, but it's just fine for diplomats. At some point, I 
will reconcile that.
    Let me do this, Mr. Hicks. I am going to dust off something 
called the best evidence rule. The best evidence of what you 
said when you were asked about Mr. Chaffetz' visit is actually 
what you said. So here it is: ``Those instructions were to 
arrange the visit in such a way that Representative Chaffetz 
and his staff would not have the opportunity to interview 
myself, John Martinec, and David McFarland alone.'' That's what 
you said in the deposition. So there shouldn't be any ambiguity 
about who said what when. That's your testimony.
    Now, I'd like to try to weave this tapestry together 
because this will be the last opportunity I have, certainly 
today, to talk to you. If I understand your testimony 
correctly, Mr. Hicks--and I want to be fair about it, so if I 
am mischaracterizing anything, you need to correct me.
    If I understand your testimony, in part, the Ambassador was 
interested in going to Benghazi because of interest Secretary 
Clinton had in Benghazi. Is that fair?
    Mr. Hicks. That's fair.
    Mr. Gowdy. All right.
    Now, Mr. Nordstrom, the same thing to you. And if I'm 
unfair in my characterization, you need to correct me. I 
thought I understood your testimony to be that Secretary 
Clinton alone was able to approve facilities that were below 
specs.
    Mr. Nordstrom. That's correct, part of the specs. There's 
two categories, second and OSPB. She is the only one that can 
authorize waivers for SECCA. In this case, both apply because 
we didn't meet either.
    Mr. Gowdy. So we are able to show that, in part, he went to 
Benghazi because of Secretary Clinton. In part, Benghazi was 
still open, despite the fact it was below specs, because of 
Secretary Clinton.
    And now to my third point, to complete the circle, who is 
Cheryl Mills?
    Mr. Hicks. Counselor and Chief of Staff to the Secretary.
    Mr. Gowdy. And she was copied on that email that I know my 
colleagues on the other side of the aisle are going to have a 
press conference on as soon as we get out of here, calling on 
the State Department to release this email. I know it. Because 
I have heard all afternoon about denying access to documents, 
and they do not want to deny the public or the media access to 
this document. So I know they are going to call on the State 
Department to release this nonclassified email which Cheryl 
Mills was copied on which demonstrably undercuts Susan Rice's 
talking points. And Cheryl Mills was copied on that email.
    Mr. Nordstrom. Mr. Gowdy, if I could add, Cheryl Mills was 
also the person that led our preparation for our October 
testimony. I'd never met her before, but that was explained to 
me who she was afterwards.
    Mr. Gowdy. And, apparently, she was also less than pleased 
with Mr. Chaffetz' visit to Libya, if I understood that 
testimony correctly, which I find stunning. He is the 
subcommittee chairman on Oversight, one of the more decent 
human beings I have ever met. I have never known him to inspire 
that strong of emotion in anyone, other than Ms. Mills.
    Let me say this to you, Ambassador, in conclusion. You have 
made a compelling case today for why it is important to tell 
other countries the truth. You made a compelling case that the 
decision not to tell the truth on Sunday morning talk shows 
adversely impacted our ability to get to Benghazi. You made a 
compelling case.
    All three of you have made a compelling case today on why 
it is important for government to tell the truth to its own 
citizens. So you made the case on why we have to tell the truth 
to other countries, and you made the case on why you have to 
tell the truth to your own citizens.
    So if anyone wants to know what difference does it make, if 
anyone wants to ask what difference does it make, it always 
matters whether or not you can trust your government.
    And to the families, we're going to find out what happened 
in Benghazi, and I don't give a damn whose career is impacted. 
We're going to find out what happened.
    And, with that, I'll yield back.
    Chairman Issa. Would the gentleman yield?
    Mr. Gowdy. I'll be happy to.
    Chairman Issa. We are going to be winding down. There is a 
vote called. But I want to ask each of you, you are 
whistleblowers; you are the kind of people who give us 
information we wouldn't otherwise have. Do you believe what you 
are doing today is what we need to keep doing? In other words, 
do we need other whistleblowers to come forward, other fact 
witnesses who know what we don't currently know?
    And I'm not asking you if this was a great process or if 
you enjoyed it. But was it worthwhile, in your opinion as 
people who have now gone through this process?
    Mr. Thompson?
    Mr. Thompson. Yes, Mr. Chairman.
    Chairman Issa. Mr. Hicks?
    Mr. Hicks. Yes, I do.
    Chairman Issa. Mr. Nordstrom?
    Mr. Nordstrom. Absolutely.
    Chairman Issa. Well, since we are going to Mr. Lankford 
next, I hope you continue to feel that way.
    Mr. Lankford?
    Mr. Lankford. Mr. Nordstrom, I just need to follow up on a 
conversation we had earlier dealing with the cable that you 
said, March 28, 2012. You had mentioned that you drafted that 
cable requesting additional personnel for both the embassy in 
Tripoli and in Benghazi because you were very much short. And 
as time was expiring and the SST team was leaving, you knew you 
were not going to have enough people. You mentioned you drafted 
the cable. Your intention was and your assumption was the 
executive leadership, including the Under Secretary all the way 
to Secretary, would see that cable or at least brief on that 
cable and the request for that security. There has been a lot 
of discussion about the official response that came back on 
April 19th.
    Who do you think saw or the intention or at least reflected 
the opinion of when that cable came back to you? When that 
cable response came back to you who was the assumption that was 
actually responding to you?
    Mr. Nordstrom. Normally someone would tell me exactly who 
it is or they would indicate who the point of contact was. If I 
recall correctly that's still unknown to me. I assume that it's 
coming from DS but as I testified to you before, so many of 
these decisions seem to be at Ambassador Kennedy's level or 
higher. Clearly that was cleared by some of those other 
officials.
    Mr. Lankford. So you are assuming this is the Under 
Secretary or on up somewhere that had personal knowledge of 
that cable that came back.
    Mr. Nordstrom. Certainly saw it ahead of time.
    Mr. Lankford. It is an established fact that there is video 
of the attack, clear video of the attackers. The FBI has done 
an extensive investigation. We're now months past that time. 
But are any of you aware of anyone who has been held to account 
for the murders that happened in Libya? Anyone detained? Anyone 
arrested? Anyone captured? Are you aware of anything that has 
happened to any of the attackers to hold them to account?
    Mr. Nordstrom. Neither the perpetrators nor the persons 
that made decisions. Again, the four people that were named in 
the ARB were put on administrative leave. I understand one of 
them is trying to come back off of that leave and go to be the 
RSO in NATO, which is shocking to me.
    Mr. Lankford. So at this point no one is aware of anyone 
who has been held to account in any way for the murder of four 
Americans?
    Mr. Nordstrom. Not that I am aware of.
    Mr. Lankford. In 1998, as we have discussed frequently, 
there was a bombing at the embassy in Kenya and Tanzania. There 
was an ARB at the end of that as well. And let me just read you 
the three findings at the end of that ARB that was done in 
1999. It said this: Number one, State Department Washington did 
not assess the threats or take notes of the clear warning signs 
and escalating threats. Number two, it noted the facility was 
inadequate for even the most modest of attack. And number 
three, there was a lack of preparations or warning systems at 
the facility.
    That could have been written a month ago. We have discussed 
often on this the one thing we have to do is learn the lesson. 
In 1998, this same thing occurred and we have not learned the 
lesson. What we know of today and the realities that have come 
out and through all that you have attributed to this 
conversation and what you have contributed is invaluable is 
that we did not do the most basic minimum security that was 
required by the State Department's standards set after the 
bombings in Nairobi, Kenya and in Tanzania. We did not do the 
basics. We did not provide the level of security. There were in 
fact cameras that were in the box still in Benghazi because a 
technical person had never been sent to actually install those. 
So there could have been additional warning signs but they had 
not actually been installed and done. We know that the Tripoli 
facility was even at a greater risk than Benghazi. There were 
even more vulnerabilities in Tripoli than there were in 
Benghazi, both in physical security around the facility and in 
actual staffing, the people there, the gun toters, as you 
mentioned before, the door kickers and such, people that would 
actually be there to be able to provide that security. The 
minimum level was not provided. In fact, my understanding, Mr. 
Hicks, is that it reached such a point of vulnerability that 
you actually approached some of the Diplomatic Security and 
asked for the diplomats to be trained in how to handle a gun 
because there was such a fear of the people on the ground 
because you were so exposed; is that true?
    Mr. Hicks. It's true.
    Mr. Lankford. We have got to learn the lessons of the past. 
This happened in 1998. We allowed it to happen again. The State 
Department has to put into practice their own standards and put 
into place the things we know to be right. We cannot allow a 
place that is listed as critical and high risk to our personnel 
to be ignored. It did not have the support they need. If 
there's any one gain that we can do in any one way to be able 
to honor those that have fallen is that we actually do learn 
the lesson and we protect our diplomats with what is required.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Florida, Mr. Mica. Mr. 
Hicks, did you have something you wanted to say?
    Mr. Hicks. Yes. I would just like to make a clarification 
with a conversation with the ranking member. There's no 
inherent contradiction between denying or avoiding a private 
interview with someone and making sure that he has information 
available. I just want to be clear on that.
    Chairman Issa. Mr. Mica.
    Mr. Mica. Thank you.
    Mr. Nordstrom, I don't think I have ever read so much 
testimony. But what you provided last night I thought was 
particularly informative. And on page 7 you talk about the 
rating level assigned for threat categories for our various 
posts. And there are four of them: Critical, high, medium and 
low. And we have 264 posts that--where we had security 
concerns, overseas diplomatic posts at the time of Benghazi. 
There were 14 posts rated as either high or critical. Not a 
huge number, but 14. Two of the posts were Benghazi and 
Tripoli.
    Were you aware of that, Mr. Thompson? Mr. Nordstrom, you 
put it in there. So it's not like they had this incredible 
array of posts that were on this high alert; is that correct?
    Mr. Nordstrom. That's my understanding, a very small amount 
were high or critical.
    Mr. Mica. And then finally--again, I have not read the 
classified. I read the unclassified version. Mr. Chaffetz 
pointed out later in the report where it looks like they tried 
to cook this--to put blame basically on the lower level--
there's a certain plateau and then everybody below gets the 
blame.
    Up on page 4 when I had my time before, I said, Embassy 
Tripoli--this is from a report--did not demonstrate strong and 
sustained advocacy with Washington for increased security for 
Special Mission Benghazi. And yet we've heard your predecessor, 
Mr. Hicks, pleaded for additional help. You pleaded for it. 
It's documented, and you didn't get it. You actually got a 
reduction, is that correct, as was pointed out?
    Mr. Hicks. Yes. A drastic reduction.
    Mr. Mica. So it wasn't like this was all over the place. 
Finally, for the ARB, you put in here to ignore the role of 
senior department leadership played before, during and after 
the September 11th attack sends a clear message to all State 
Department employees. It looks like they are whitewashing the 
folks at the higher pay grades and levels and you all are 
taking the blame; is that a fair assessment?
    Mr. Nordstrom. I think the basic message is that whether or 
not you are sitting out at the post requesting resources, 
preparing for testimony before this committee, or standing on a 
building surrounded by an armed mob attacking you, the message 
is the same: You are on your own.
    Mr. Mica. Mr. Hicks?
    Mr. Hicks. I share what Mr. Nordstrom had to say.
    Mr. Mica. Mr. Thompson, and I still can't believe that you 
were never interviewed and you had one of the most strategic 
positions by the ARB. That is true?
    Mr. Thompson. I will let you use ``strategic,'' sir. It's a 
tool that should remain on the menu of options is probably my 
basic point. And it was early taken off the menu.
    Mr. Mica. It's a very sad commentary.
    I yield back. Thank you, Mr. Chairman.
    Chairman Issa. Would the gentleman yield?
    Mr. Mica. Well, I have time.
    Chairman Issa. I think what we've heard here today clearly 
is that in the future, RSOs--Deputy Chief of Missions, Chief of 
Missions need to put everything in a cable. In the future when 
you know there's a security problem and you're being told your 
application would not be helpful, it would not be wanted or 
people say just be patient or they say don't put it in cable, 
the answer is the next ARB will probably whitewash the same as 
this one. On October 10th the ranking member and I and many 
others sat through a hearing in which it was made very clear 
that message after message after message, including the actual 
if you will open source information about the attacks that 
occurred on other diplomatic missions and our own, if that's 
not saying loudly they blew a hole in our wall, when are you 
going to give us the security we need, then I'm afraid the 
deafness at least Under Secretary Kennedy's level is not in any 
way curable by technology known to amplify sound.
    So with that, this hearing is closed, but this 
investigation is not over.
    [Whereupon, at 5:15 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
